<html>
<title> - U.S. COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM: FINDINGS ON RUSSIA, CHINA, AND SUDAN</title>
<body><pre>[Senate Hearing 106-662]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 106-662

    U.S. COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM: FINDINGS ON 
   RUSSIA, CHINA, AND SUDAN; AND RELIGIOUS PERSECUTIONS IN THE WORLD

=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                      MAY 16 AND SEPTEMBER 7, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate




                    U.S. GOVERNMENT PRINTING OFFICE
66-867 CC                   WASHINGTON : 2000




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              

U.S. Commission on International Religious Freedom: Findings on Russia, 
                            China, and Sudan
                              May 16, 2000

                                                                   Page

Abrams, Hon. Elliott, Member, U.S. Commission on International 
  Religious Freedom; and president, Ethics and Public Policy 
  Center, Washington, DC.........................................    22
    Prepared statement...........................................    25
Al-Marayati, Laila, MD, Commissioner, U.S. Commission on 
  International Religious Freedom, dissent to testimony on 
  religious freedom in Sudan.....................................    55
Kazemzadeh, Dr. Firuz, Member, U.S. Commission on International 
  Religious Freedom; and secretary for External Affairs, National 
  Spiritual Assembly of the Baha'is of the United States, Alta 
  Loma, CA.......................................................    29
    Prepared statement...........................................    33
Saperstein, Rabbi David, Chairman, U.S. Commission on 
  International Religious Freedom; and director, Religious Action 
  Center of Reform Judaism, Washington, DC.......................    16
    Prepared statement...........................................    20
Seiple, Hon. Robert A., Ambassador at Large for International 
  Religious Freedom, Department of State, Washington, DC.........     3
    Prepared statement...........................................     9
    Response to additional question for the record from Senator 
      Gordon Smith...............................................    16
Shea, Nina, Member, U.S. Commission on International Religious 
  Freedom; and director, Center for Religious Freedom, Freedom 
  House, Washington, DC..........................................    35
    Prepared statement...........................................    38

                   Religious Persecution in the World
                           September 7, 2000

Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    58
Kazemzadeh, Dr. Firuz, Vice Chairman, U.S. Commission on 
  International Religious Freedom, and secretary of External 
  Affairs, National Spiritual Assembly of the Baha'is of the 
  United States, Alta Loma, CA; accompanied by: Hon. Michael K. 
  Young, Commission Member and dean, George Washington University 
  Law School, Washington, DC; and Hon. John Bolton, Commission 
  Member and senior vice president, American Enterprise Institute 
  for Public Policy, Washington, DC..............................    71
    Prepared statement of Dr. Firuz Kazemzadeh (includes 
      attachments)...............................................    76
Seiple, Hon. Robert A., Ambassador at Large for International 
  Religious Freedom, Department of State, Washington, DC.........    59
    Prepared statement...........................................    62
United States Commission on International Religious Freedom, 
  responses to additional questions submitted for the record.....    89

                                 (iii)

  

 
U.S. COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM: FINDINGS ON RUSSIA, 
                            CHINA, AND SUDAN

                              ----------                              


                         TUESDAY, MAY 16, 2000

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met at 10:04 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Sam Brownback, presiding.
    Present: Senators Brownback and Sarbanes.
    Senator Brownback. The hearing room will come to order.
    Thank you all for joining us this morning on this Senate 
Foreign Relations full committee hearing on ``U.S. Commission 
on International Religious Freedom: Findings on Russia, China, 
and Sudan,'' the title for this morning's hearing. I am 
especially pleased that the International Religious Freedom 
Commission that was created by the Congress has really taken 
its task seriously and moved forward aggressively, and that is 
what we are here to highlight today, what they are reporting 
on, and what we can do to implement the findings of the 
Commission.
    There has been a stunning shift in foreign policy in the 
last 3 years involving a recognition of religious liberty as a 
respected human right, equal to the freedoms of press, speech, 
and assembly. This was not true even a few years ago when 
Members of Congress and foreign affairs intelligentsia were 
reluctant to seriously entertain this topic. A dark cloud of 
silence hung over the foreign affairs worlds which tended to 
dismiss religious persecution as too complicated or an internal 
issue, not to be meddled with, or a quirky expression of deeper 
nationalistic identities, or something just simply too 
amorphous to merit attention.
    Of course, there were notable, courageous exceptions, 
people who fought alone for years, like Sam Erickson or one of 
the most tenacious advocates who will be testifying here today, 
Nina Shea. But there were really very few.
    Consequently, innocent leaders remained in jail without a 
single letter being sent. Others were executed without one 
protest, and illegal peaceful religious communities were lost 
in the underground, forgotten by the West.
    When I think of how precious my own faith is to me, I am 
truly grieved by the suffering which results from embracing a 
minority faith in a hostile country. I regularly get press 
reports of what has happened to people in other countries who 
simply try to practice their own faith. Last week I received a 
report of what was happening in North Korea, about Christians 
there being shot in public by firing squads simply for the 
desire to practice their own faith in that country, and just 
some horrifying stories that were taking place there. I wish 
this were the exception, that this only happened rarely and in 
only a few places around the world, but I am afraid it happens 
quite frequently and in a number of places around the world.
    I think of the countless people in closed countries like 
China who may never hear a religious message that would comfort 
their souls in troubled times or really give meaning to lives. 
It may be fair to say that of all the rights a country might 
steal from its people, religious freedom is the most intimate 
one.
    Then the light broke through the clouds in the form of the 
International Religious Freedom Act of 1998. This act, for the 
first time, began to insert religious liberty in the middle of 
the foreign policy debate. In the last 3 years, I believe there 
have been more conferences and articles on religious freedom 
than the several previous decades combined. You can thank the 
act for this. Also a number of activist groups have come 
together to press this issue. They have popularized the notion 
that religious freedom is a fundamental, universal, human 
right, which transcends the restraints of jealous nations. 
Therefore, I am honored to be chairing this hearing to see how 
far we have come and how far we need to go.
    The act created a Commission which is represented today by 
five of its members. They will be discussing their first 
report, issued on May 1, which concentrates on three countries: 
the Sudan, Russia, and China.
    Before we begin, let me first congratulate you, the 
Commission, on taking a very practical approach to the complex 
problems that were presented. I thought that the advocacy 
recommendations for each country were extremely good and, if 
implemented, will make a difference.
    Regarding Sudan, I am grateful for the Commission's 
courageous conclusions, which I would like to begin to help 
implement. In particular, I have been pressing for direct, 
nonlethal assistance to the opposition forces in southern 
Sudan, which I note your report also recommends as well, after 
some conditions.
    I have worked on religious liberty issues in all three of 
the countries, in the Sudan, Russia, and China, which will be 
addressed today. Given this, I am especially interested in the 
methods by which you intend to implement the recommendations 
and the actions that you call for.
    Just on a final opening note, I hope this is something that 
we just start to see really coming to its own now, that we will 
see a lot more focus on religious freedom, a lot more intensity 
of the focus on religious freedom. I think it has been growing 
substantially over the past 3 years. I hope that is not a 
cyclical thing, but rather is something that we are on a 
trajectory toward growth, that we recognize this most 
fundamental of human rights, and that is to do with your own 
soul as you see fit and as you choose.
    The administration witness is the first panel, and that 
will be Ambassador at Large for International Religious 
Freedom, Ambassador Robert Seiple, who sits also on the 
Commission. Welcome, Ambassador Seiple.
    Following will be the second panel of four commissioners, 
Rabbi Saperstein, Elliott Abrams, Firuz Kazemzadeh, and Nina 
Shea, who also will address an individual country examined in 
this report.
    With that, Ambassador Seiple, I am very pleased to have you 
here to report on the findings of the Commission. I have a few 
questions after your testimony. Thank you for joining us.

  STATEMENT OF HON. ROBERT A. SEIPLE, AMBASSADOR AT LARGE FOR 
     INTERNATIONAL RELIGIOUS FREEDOM, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Seiple. Thank you very much. Thanks again for 
doing this today. Let me also say thank you for both your 
leadership and your passion on this issue. We feel we are very 
much in sync. It is nice to be able to work with folks like 
yourself on terribly important issues.
    Let me also mention your able assistant, Sharon Payt, 
irrepressible Sharon, who has also guided us in this issue in 
so many different ways and so many different places. You both 
have been courageous in where you have visited, maybe more guts 
than brains. I am not sure. But it is great leadership, and the 
city takes note of that and I think this issue takes note of 
that and we are very grateful.
    Senator Brownback. Thank you and thanks for recognizing 
Sharon Payt's work too. I would add my recognition as well. She 
is uniquely qualified and does great work on the topic.
    Ambassador Seiple. Mr. Chairman and members of the 
committee, I am pleased to appear before you today to testify 
on the report of the U.S. Commission on International Religious 
Freedom. Let me begin by thanking the chairman and the 
committee for their strong and continuing support in our work 
of promoting religious freedom internationally. Each of us here 
today shares a vision: a world in which every member of the 
human family is permitted to seek God in his or her own way, 
protected in that endeavor by the state, but also free from its 
interference. We seek to safeguard the most fundamental and 
precious of human longings, that of understanding who we are, 
why we are on this Earth, and how we ought to order our lives. 
If we are not free to seek the truth in such matters, then we 
are not living a fully human life.
    The religious freedom policy of the United States is, of 
course, based in part on the American experience in which 
religious liberty was and is the first freedom of the 
Constitution. But the brilliance of the founders was that they 
articulated truths that went beyond mere national borders. 
Religious freedom is the first freedom of America not only 
because it is the first of the rights guaranteed by the Bill of 
Rights, but also because it is foundational for democracy 
itself. The Founders knew that a government which fails to 
honor religious freedom and freedom of conscience is a 
government which does not recognize the priority of the 
individual over the state and that the state exists to serve 
society, not vice versa. This is why they put religious freedom 
first, to acknowledge the sanctity of the human conscience and 
the importance of structuring society so that human beings may 
seek the truth unhindered by the state.
    These are the universal values that all of us seek to 
promote as part of U.S. religious freedom policy. It makes 
sense from the standpoint of religion, from the standpoint of 
all human rights, and from the standpoint of promoting 
democracy. One of the key elements of our policy is the work of 
the independent and bipartisan U.S. Commission on International 
Religious Freedom. As the committee knows, the Commission was 
established by the International Religious Freedom Act, passed 
unanimously by both Houses of Congress, and signed by the 
President in October 1998. As Ambassador at Large for 
International Religious Freedom, I serve ex officio on that 
Commission as a non-voting member. I have attended the great 
majority of its meetings, have heard the views expressed by its 
Commissioners, and have given my own views when appropriate. It 
has been and continues to be a productive and professional 
relationship, one that is, I believe, faithful to the spirit of 
the act.
    You have invited me to testify this morning on the 
Commission's first annual report, not as a member of the 
Commission, but as the principal adviser to the President and 
to the Secretary of State on international religious freedom. I 
am happy to do so. Let me begin with some comments on each of 
the three countries on which the report focused, Sudan, China, 
and Russia. Because I have recently testified before the 
Congress on China and Russia, I will allocate a bit more time 
today to Sudan. I will then conclude with a response to the 
Commission's critique of the State Department's own Report on 
International Religious Freedom.
    Turning to Sudan, we agree with the report's assessment of 
the state of religious freedom in that country. The long and 
tragic civil war has created the context for unconscionable 
depredations against innocent civilians by the Sudanese 
Government or its agents. There have also been significant 
human rights violations by those opposing the government, 
although they are not equivalent. The causes of this war and 
its horrors, of course, are not exclusively religious. There 
are significant ethnic, political, and economic factors as 
well. But we agree with the Commission's conclusion that 
religion is a major factor in the crisis, evidenced by the 
government's extremist interpretation of Islam, which it 
imposes on all Sudanese Muslims, and its attempts to impose 
Sahri'a law on the Christians and traditional religionists in 
the south.
    These policies form the context for slave raids by 
government-sponsored militias into the south, resulting in the 
enslavement of thousands of people, including women and 
children. While such behavior is not overtly motivated by 
religious differences, and has economic and ethnic roots, the 
slave raids have a significant religious dimension. Their 
victims are almost uniformly Christians and adherents of 
indigenous religions. Some of the children captured and sold 
into slavery have been forcibly converted to Islam.
    The same can be said for the victims of government bombings 
in the Nuba Mountains and the south, an outrageous and ongoing 
use of lethal force against Christians, adherents of indigenous 
religions, and, in this case, Muslims who do not accept the 
government's interpretation of Islam. I was present at a 
remarkable meeting in February between the Secretary and Bishop 
Macram Max Gassis, the heroic Catholic bishop whose diocese 
includes the Nuba Mountains. Everyone in the room was moved by 
his description of the 14 children--his children, he called 
them--who had been killed by aerial bombs just 1 week before. 
He told the Secretary that the dead were students in a Catholic 
school that includes children from Protestant and Muslim 
families, families adhering to indigenous religions, as well as 
Catholic families. And from an official of the Sudanese 
Government came the reprehensible announcement that the school 
was a legitimate military target.
    So, Mr. Chairman, there is little disagreement that a 
humanitarian crisis of stunning proportions is occurring in 
Sudan and that religion plays a significant part. The real 
issue is how to address the crisis and what the role of the 
U.S. Government should be. The Commission has laid out a 
detailed set of policy recommendations which are being studied 
by the Department and which will, in due course, lead to a more 
considered reply. As a preliminary matter, however, let me make 
a few comments. A substantial part of the Commission's 
recommendations involves what is characterized as a 
comprehensive plan to bring pressure on the Government of Sudan 
to change its behavior. It calls for an informational campaign, 
unilateral economic pressures, and vigorous multilateral and 
bilateral efforts to increase economic and other pressures on 
the government.
    We welcome these recommendations. Indeed, I would argue 
that we are in many ways already implementing them. For 
example, we agree that the United States should highlight 
Sudan's continued crimes against humanity wherever and whenever 
we can. I would note the Secretary's designation in October of 
Sudan as a country of particular concern under the 
International Religious Freedom Act for particularly severe 
violations of religious freedom, a status it shares with the 
worst abusers in history. We lobbied for comprehensive and 
accurate resolutions on Sudan at the U.N. General Assembly last 
November and at this April's U.N. Human Rights Commission in 
Geneva.
    I would also note that the United States has had in place 
since November 1997 comprehensive sanctions on Sudan denying it 
virtually every economic advantage except for the sale of food 
and medicines and the humanitarian aid we provide to the 
victims of government violence and neglect. We have worked 
intensively during the past year to invigorate the peace 
process led by the Inter Governmental Authority on Development, 
a group of East African countries. These efforts have been led 
by the President's and Secretary's Special Envoy for Sudan, 
Ambassador Harry Johnston, whose mandate includes 
reinvigorating the peace process, pressing for human rights 
improvements, and ensuring the delivery of relief aid to 
victims of the conflict. We invite the Commission to work with 
us in finding ways to enhance and improve our implementation of 
these common objectives.
    Let me also respond briefly to some of the Commission's 
other recommendations.
    We agree that we should continue to do all that we can to 
meet the humanitarian needs of the victims of war. The United 
States provided in excess of $159 million in humanitarian 
assistance in fiscal year 1999 and over $1 billion since 1990, 
far more than any other donor.
    We agree on the need to continue to provide food and other 
assistance outside of Operation Lifeline Sudan, while still 
supporting the critical role of OLS. In fiscal year 1999, USAID 
provided $24 million in food aid and $4.6 million in other 
emergency assistance through non-OLS NGO's.
    The Commission's report recommends that we provide 
nonlethal aid to the opposition within 12 months if progress is 
not made by the Sudanese Government on critical human rights 
issues. I would note that fiscal year 2000 Foreign Operations, 
Export Financing, and Related Programs Appropriations Act 
authorizes, but does not require, the President to provide food 
assistance to opposition groups engaged in the protection of 
civilian populations from attacks by Sudanese Government 
forces. The administration has not made a decision to use the 
authority under this act at this time, but will continue to 
consult with Congress on this issue.
    Let me now turn to China. Here again, I share the 
Commission's analysis of the status of religious freedom. Like 
Sudan, China was designated a country of particular concern for 
particularly severe violations of religious freedom. I recently 
testified on China before the Congressional Human Rights Caucus 
and gave an extensive analysis of the religious persecution, 
which continues to occur there, of Tibetan Buddhists, of 
Catholic and Protestant Christians, and of the Uighur Muslims. 
I need not repeat that testimony here, except to say that it 
was entirely consistent with the assessment provided by the 
Commission in their report.
    Mr. Chairman, I know that people of good will can and do 
disagree over where our shared analysis of Chinese human rights 
abuses ought to take U.S. policy. Some believe that it should 
prevent the establishment of permanent normal trade relations 
[PNTR] or cause us to oppose Chinese entry into the World Trade 
Organization. The Commission itself, while noting that the 
great majority of its members are free traders, has recommended 
that the granting of permanent normal trade relations be 
conditioned on human rights improvements in China. I understand 
and respect this point of view.
    However, I must disagree with the Commission. I believe 
that the setting of conditions on PNTR will not advance the 
cause of religious freedom in China and will not improve the 
circumstances of the religious adherents about whom we are all 
deeply concerned. This is because conditionality, as proposed 
by the Commission, and even a vote to reject PNTR, would 
provide little more than the appearance of U.S. leverage 
against the Chinese Government. It would not prevent Chinese 
entry into the WTO, nor would it deprive China of the economic 
benefits of WTO membership. What it would do is deprive the 
United States of the full economic benefits of China's market-
opening commitments and severely restrict our ability to 
influence the course of events in China. It would reduce the 
role of American companies in bringing higher labor standards 
to China and in forcing local companies to compete in improving 
the lives of their workers.
    However, with unconditional congressional approval of PNTR, 
China will enter the WTO bound by the full range of economic 
commitments contained in the U.S.-China bilateral trade 
agreement. These commitments will move China in the direction 
of openness, accountability, reform, and rule of law, all of 
which will, over the long term, contribute to an improvement in 
the conditions for religious freedom in China. Failure to 
approve PNTR would deprive the United States of the ability to 
hold China to all of these commitments. Given China's likely 
entry into the WTO, it would also put us in conflict with WTO 
rules, which require immediate and unconditional provision of 
PNTR for all WTO members.
    Despite my disagreement with the Commission on the issue of 
conditionality, however, I want to repeat that we are one in 
our common concern about abuses of religious freedom in China 
and together remain committed to sustained U.S. Government 
efforts to promote religious freedom.
    Turning briefly to Russia, let me say that I share the 
Commission's concern over the continuing fragility of Russia's 
commitment to freedom of religion. As the committee knows, a 
good religion law passed in 1990 has been replaced by the 1997 
law which creates a troublesome hierarchy of distinctions among 
religious groups. While the potential impact of the law has 
been mitigated by Federal authorities and the Constitutional 
Court, the opportunities for discrimination against particular 
religions remain plentiful. And while the amendment to the law 
signed by President Putin extended the re-registration 
deadline, it also appears to harden the requirement that groups 
not registered by the deadline be liquidated. We will, of 
course, be watching this issue very closely, and I will 
continue to express our concern to Russian authorities.
    I do want to note the encouraging news that for the third 
time in recent weeks, local courts have ruled that members of 
the Jehovah's Witnesses have the right to choose civilian 
service in lieu of military service. This is not only a welcome 
sign of the proper operation of the Russian Constitution, which 
explicitly provides for alternative civilian service, but it 
also reflects a growing acceptance in Russia of religious-based 
differences.
    As a general matter, we agree with the Commission 
recommendations for continued active monitoring of the 
situation in Russia and will continue to seek in our reports to 
give appropriate coverage to the various minority religions in 
the country. Although we have hosted a number of Russian 
religious leaders in visits to the United States--and I have 
met with some of them myself--we agree that we can and should 
do more. We will study with great interest the other 
recommendations, including the promotion of exchanges between 
Russian legal defenders and their counterparts here and the 
encouragement of Russian authorities to extend the length of 
visas for foreign religious workers wishing to remain in 
Russia.
    Let me conclude by offering a brief response to the 
Commission's assessment of the first annual State Department 
Report on International Religious Freedom, which was presented 
to Congress last September. That report, as the committee 
knows, covers 194 countries worldwide and includes an extensive 
executive summary, which is mandated by the IRF Act. It is 
compiled and edited by the same talented and professional 
reports office that does the human rights report but my office, 
the Office of International Religious Freedom, is responsible 
for the final product. All of us are, of course, gratified by 
the Commission's praise of the report and the judgment that it 
marks, as the Commission puts it, ``a sea change'' in focusing 
attention on religious freedom.
    The Commission's analysis also makes valuable suggestions 
for improving the report. They recommend, for example that we 
improve the organization of material, prioritize better, and 
identify more fully where there are gaps in our sources of 
information. They call for more context and a fuller 
articulation of our methodology in preparing the reports. 
Importantly, the Commission recommends the scrupulous avoidance 
of appearing to favor or disfavor any state or religious 
tradition over another and the imputation of particular 
extremist interpretations of religion to the religion itself.
    Let me say that we welcome these and the other 
recommendations and we will take them seriously. Our respective 
staffs have worked closely together over the last several 
months and will continue to do so. As the Commission is 
sympathetically aware, our office is now in the process of 
doubling its size from a staff of three to six religious 
freedom action officers, plus an office director. In due 
course, our goal is to have nine action officers, enough to 
cover every region, and to pursue some of the many worthy 
reconciliation projects that warrant our attention. We are 
presently involved in such efforts in Kosovo, Lebanon, and 
Indonesia, but we could do more--much, much more. I would also 
note that, as the committee is well aware, our embassy 
resources in the field are stretched quite thin. At some of the 
posts, the Foreign Service officers who report on human rights 
and religious freedom are also responsible for covering 
political, economic, and security matters. Some of them even 
have consular and administrative duties as well. 
Notwithstanding their many responsibilities, I cannot 
overemphasize the enormous contribution that these fine men and 
women have made to the success of our report, sometimes at the 
risk of their own safety.
    With respect to the Commission's recommendations, the 
ongoing consultations between our staffs have already led to 
the implementation of some of them. We have, for example, 
adopted some of their suggestions for the next report, 
including a greater emphasis on organization and legal context. 
We endorse the Commission's view that our report, while lifting 
high the value of the religious quest itself and of freedom of 
conscience, must not appear to favor or disfavor any religious 
tradition, country, or region. The Commission knows that this 
has always been and will remain one of my highest priorities. 
We will redouble our efforts to ensure evenhandedness.
    At the end of the day, Mr. Chairman, I conclude that the 
Commission's report, notwithstanding the existence of certain 
substantive disagreements, has been a positive one. It has 
focused further international attention on the state of 
religious freedom in three critical countries. It has made 
clear recommendations, many of which can form the basis for 
further policy discussion. And it is already contributing to 
the State Department Report on International Religious Freedom. 
On balance, I believe that the Commission is making a 
substantial contribution to our common goal of promoting 
religious freedom worldwide.
    Those of us who are charged with implementing the 
International Religious Freedom Act have had some modest but 
invigorating victories: some religious prisoners freed, some 
religious refugees assisted, a few bad laws altered or 
repealed. But we must take the long view. None of us can claim, 
nor should we expect, that the millions who suffer for their 
religious beliefs will have been loosed from their torments 18 
months after the passage of the International Religious Freedom 
Act or because of the actions of my office or those of the 
independent U.S. Commission. But, Mr. Chairman, I believe that 
we have all made a start. Together, we have planted seeds, 
seeds of hope and of future action. With God's help, those 
seeds are taking root and will one day bear fruit.
    I thank you and this committee and the members and staff of 
the U.S. Commission for their commitment to the cause of 
religious freedom and to the well-being of the human family of 
which we are all a part. And I would be more than happy to take 
your questions.
    [The prepared statement of Ambassador Seiple follows:]

              Prepared Statement of Hon. Robert A. Seiple

    Mr. Chairman and Members of the Committee, I am pleased to appear 
before you today to testify on the report of the U.S. Commission on 
International Religious Freedom. Let me begin by thanking the Chairman 
and the Committee for their strong and continuing support in our work 
of promoting religious freedom internationally. Each of us here today 
shares a vision: a world in which every member of the human family is 
permitted to seek God in his or her own way--protected in that endeavor 
by the state, but also free from its interference. We seek to safeguard 
the most fundamental and precious of human longings--that of 
understanding who we are, why we are on this earth, and how we ought to 
order our lives. If we are not free to seek the truth in such matters, 
then we are not living a fully human life.
    The religious freedom policy of the United States is, of course, 
based in part on the American experience, in which religious liberty 
was and is the ``first freedom'' of the Constitution. But the 
brilliance of the Founders was that they articulated truths that went 
beyond mere national borders. Religious freedom is ``the first 
freedom'' of America, not only because it is the first of the rights 
guaranteed by the Bill of Rights, but also because it is foundational 
for democracy itself. The Founders knew that a government which fails 
to honor religious freedom and freedom of conscience is a government 
which does not recognize the priority of the individual over the state, 
and that the state exists to serve society, not vice versa. This is why 
they put religious freedom first--to acknowledge the sanctity of the 
human conscience, and the importance of structuring society so that 
human beings may seek the truth unhindered by the state.
    These are the universal values that all of us seek to promote as 
part of U.S. religious freedom policy. It makes sense from the 
standpoint of religion, from the standpoint of all human rights, and 
from the standpoint of promoting democracy. One of the key elements of 
our policy is the work of the independent and bipartisan U.S. 
Commission on International Religious Freedom. As the Committee knows, 
the Commission was established by the International Religious Freedom 
Act, passed unanimously by both Houses of Congress and signed by the 
President in October of 1998. As Ambassador at Large for International 
Religious Freedom, I serve ex officio on that Commission as a non-
voting member. I have attended the great majority of its meetings, have 
heard the views expressed by its Commissioners, and have given my own 
views when appropriate. It has been and continues to be a productive 
and professional relationship--one that is, I believe, faithful to the 
spirit of the Act.
    You have invited me to testify this morning on the Commission's 
first annual report--not as a member of the Commission, but as the 
principal adviser to the President and to the Secretary of State on 
international religious freedom. I am happy to do so. Let me begin with 
some comments on each of the three countries on which the Report 
focused--Sudan, China and Russia. Because I have recently testified 
before the Congress on China and Russia, I will allocate a bit more 
time today to Sudan. I will then conclude with a response to the 
Commission's critique of the State Department's own Report on 
International Religious Freedom.

                                 SUDAN
    Turning to Sudan, we agree with the report's assessment of the 
state of religious freedom in that country. The long and tragic civil 
war has created the context for unconscionable depredations against 
innocent civilians by the Sudanese Government or its agents. There have 
also been significant human rights violations by those opposing the 
Government, although they are not equivalent. The causes of this war 
and its horrors, of course, are not exclusively religious. There are 
significant ethnic, political and economic factors as well. But we 
agree with the Commission's conclusion that religion is a major factor 
in the crisis, evidenced by the Government's extremist interpretation 
of Islam, which it imposes on all Sudanese Muslims, and its attempts to 
impose Shari'a law on the Christians and traditional religionists in 
the south.
    These policies form the context for slave raids by Government-
sponsored militias into the south, resulting in the enslavement of 
thousands of people, including women and children. While such behavior 
is not overtly motivated by religious differences, and has economic and 
ethnic roots, the slave raids have a significant religious dimension. 
Their victims are almost uniformly Christians and adherents of 
indigenous religions. Some of the children captured and sold into 
slavery have been forcibly converted to Islam.
    The same can be said for the victims of Government bombings in the 
Nuba Mountains and the south--an outrageous and ongoing use of lethal 
force against Christians, adherents of indigenous religions, and, in 
this case, Muslims who do not accept the government's interpretation of 
Islam. I was present at a remarkable meeting in February between the 
Secretary and Bishop Macram Max Gassis, the heroic Catholic Bishop 
whose diocese includes the Nuba Mountains. Everyone in the room was 
moved by his description of the 14 children--``his children,'' he 
called them--who had been killed by aerial bombs just one week before. 
He told the Secretary that the dead were students in a Catholic school 
that includes children from Protestant and Muslim families, families 
adhering to indigenous religions, as well as Catholic families. And 
from an official of the Sudanese government came the reprehensible 
announcement that the school was a legitimate military target.
    And so, Mr. Chairman, there is little disagreement that a 
humanitarian crisis of stunning proportions is occurring in Sudan, and 
that religion plays a significant part. The real issue is how to 
address the crisis, and what the role of the United States government 
should be. The Commission has laid out a detailed set of policy 
recommendations which are being studied by the Department, and which 
will in due course lead to a more considered reply. As a preliminary 
matter, however, let me make a few comments. A substantial part of the 
Commission's recommendations involves what it characterizes as a 
``comprehensive plan'' to bring pressure on the Government of Sudan to 
change its behavior. It calls for an informational campaign, unilateral 
economic pressures, and vigorous multilateral and bilateral efforts to 
increase economic and other pressures on the Government.
    We welcome these recommendations--indeed, I would argue that we are 
in many ways already implementing them. For example, we agree that the 
United States should highlight Sudan's continued crimes against 
humanity wherever and whenever we can. I would note the Secretary's 
designation in October of Sudan as a ``country of particular concern'' 
under the International Religious Freedom Act for ``particularly severe 
violations'' of religious freedom--a status it shares with the worst 
abusers in history. We lobbied for comprehensive and accurate 
resolutions on Sudan at the UN General Assembly last November, and at 
this April's UN Human Rights Commission in Geneva.
    I would also note that the United States has had in place since 
November 1997 comprehensive sanctions on Sudan, denying it virtually 
every economic advantage except for the sale of food and medicines and 
the humanitarian aid we provide to the victims of Government violence 
and neglect. We have worked intensively during the past year to 
invigorate the peace process led by the Inter Governmental Authority on 
Development (IGAD), a group of East African countries. These efforts 
have been led by the President's and Secretary's Special Envoy for 
Sudan--Ambassador Harry Johnston--whose mandate includes reinvigorating 
the peace process, pressing for human rights improvements, and ensuring 
the delivery of relief aid to victims of the conflict. We invite the 
Commission to work with us in finding ways to enhance and improve our 
implementation of these common objectives.
    Let me also respond briefly to some of the Commissions' other 
recommendations:

  <bullet> We agree that we should continue to do all we can to meet 
        the humanitarian needs of the victims of the war. The U.S. 
        provided $159.1 million in humanitarian assistance in FY 1999, 
        and over $1 billion since 1990, far more than any other donor.

  <bullet> We agree on the need to continue to provide food and other 
        assistance outside of the Operation Lifeline Sudan (OLS) 
        structure, while still supporting the critical role of OLS. In 
        FY 1999, USAID provided $24 million in food aid and $4.6 
        million in other emergency assistance through non-OLS NGOs.

  <bullet> The Commission's report recommends we provide non-lethal aid 
        to the opposition within 12 months if progress is not made by 
        the Sudanese government on critical human rights issues. I 
        would note that FY 2000 Foreign Operations, Export Financing, 
        and Related Programs Appropriations Act authorizes, but does 
        not require, the President to provide food assistance to 
        opposition groups engaged in the protection of civilian 
        populations from attacks by Sudanese government forces. The 
        administration has not made a decision to use the authority 
        under this act at this time, but will continue to consult with 
        Congress on this issue.

                                 CHINA
    Let me turn now to China. Here again, I share the Commission's 
analysis of the status of religious freedom. Like Sudan, China was 
designated a ``country of particular concern'' for particularly severe 
violations of religious freedom. I recently testified on China before 
the Congressional Human Rights Caucus, and gave an extensive analysis 
of the religious persecution which continues to occur there--of Tibetan 
Buddhists, of Catholic and Protestant Christians, and of Uighur 
Muslims. I need not repeat that testimony here, except to say that it 
was entirely consistent with the assessment provided by the Commission 
in its report.
    Mr. Chairman, I know that people of good will can, and do, disagree 
over where our shared analysis of Chinese human rights abuses ought to 
take U.S. policy. Some believe that it should prevent the establishment 
of Permanent Normal Trade Relations, or cause us to oppose Chinese 
entry into the World Trade Organization. The Commission itself--while 
noting that the great majority of its members are free traders--has 
recommended that the granting of Permanent Normal Trade Relations 
(PNTR) be conditioned on human rights improvements in China. I 
understand and respect this point of view.
    However, I must disagree with the Commission. I believe that the 
setting of conditions on PNTR will not advance the cause of religious 
freedom in China, and will not improve the circumstances of the 
religious adherents about whom we are all deeply concerned. This is 
because conditionality as proposed by the Commission--and even a vote 
to reject PNTR--would provide little more than the appearance of U.S. 
leverage against the Chinese government. It would not prevent Chinese 
entry into the World Trade Organization (WTO); nor would it deprive 
China of the economic benefits of WTO membership. What it would do is 
deprive the U.S. of the full economic benefits of China's market-
opening commitments, and severely restrict our ability to influence the 
course of events in China. It would reduce the role of American 
companies in bringing higher labor standards to China and in forcing 
local companies to compete in improving the lives of their workers.
    However, with unconditional Congressional approval of PNTR, China 
will enter the WTO bound by the full range of economic commitments 
contained in the U.S.-China bilateral trade agreement. These 
commitments will move China in the direction of openness, 
accountability, reform, and rule of law, all of which will over the 
long-term contribute to an improvement in the conditions for religious 
freedom in China. Failure to approve PNTR would deprive the U.S. of the 
ability to hold China to all of these commitments. Given China's likely 
entry into the WTO, it would also put us in conflict with WTO rules, 
which require immediate and unconditional provision of PNTR for all WTO 
members.
    Despite my disagreement with the Commission on the issue of 
conditionality, however, I want to repeat that we are one in our common 
concern about abuses of religious freedom in China, and together remain 
committed to sustained U.S. Government efforts to promote religious 
freedom.

                                 RUSSIA
    Turning briefly to Russia, let me say that I share the Commission's 
concern over the continuing fragility of Russia's commitment to freedom 
of religion. As the Committee knows, a good religion law (passed in 
1990) has been replaced by the 1997 law which creates a troublesome 
hierarchy of distinctions among religious groups. While the potential 
impact of the law has been mitigated by federal authorities and the 
Constitutional Court, the opportunities for discrimination against 
particular religions remain plentiful. And, while the amendment to the 
law signed by President Putin extended the registration deadline, it 
also appears to harden the requirement that groups not registered by 
the deadline be ``liquidated.'' We will of course be watching this 
issue very closely, and will continue to express our concern to Russian 
authorities.
    I do want to note the encouraging news reports that, for the third 
time in recent weeks, local courts have ruled that members of the 
Jehovah's Witnesses have the right to choose civilian service in lieu 
of military service. This is not only a welcome sign of the proper 
operation of the Russian Constitution--which explicitly provides for 
alternative civilian service--but it also perhaps reflects a growing 
acceptance in Russia of religious-based differences.
    As a general matter, we agree with Commission recommendations for 
continued active monitoring of the situation in Russia, and will 
continue to seek in our reports to give appropriate coverage to the 
various minority religions in the country. Although we have hosted a 
number of Russian religious leaders in visits to the United States, and 
I have met with some of them myself, we agree that we can and should do 
more. We will study with great interest the other recommendations--
including the promotion of exchanges between Russian legal defenders 
and their counterparts here, and the encouragement of Russian 
authorities to extend the length of visas for foreign religious workers 
wishing to remain in Russia.
  the 1999 state department report on international religious freedom
    Let me conclude by offering a brief response to the Commission's 
assessment of the first annual State Department Report on International 
Religious Freedom, which was presented to the Congress last September. 
That report, as the Committee knows, covers 194 countries worldwide, 
and includes an extensive Executive Summary which is mandated by the 
IRF Act. It is compiled and edited by the same talented and 
professional ``Reports Office'' that does the human rights report, but 
my office--the Office of International Religious Freedom--is 
responsible for the final product. All of us are, of course, gratified 
by the Commission's praise of our report, and the judgment that it 
marks--as the Commission puts it--``a sea change'' in focusing 
attention on religious freedom.
    The Commission's analysis also makes valuable suggestions for 
improving the report. They recommend, for example, that we improve the 
organization of material, prioritize better, and identify more fully 
where there are gaps in our sources of information. They call for more 
context and a fuller articulation of our methodology in preparing the 
reports. Importantly, the Commission recommends the scrupulous 
avoidance of appearing to favor or disfavor any state or religious 
tradition over another, and the imputation of particular extremist 
interpretations of religion to the religion itself.
    Let me say that we welcome these and the other recommendations, and 
we will take them seriously. Our respective staffs have worked closely 
together over the last several months, and will continue to do so. As 
the Commission is sympathetically aware, our office is now in the 
process of doubling its size--from a staff of three to six religious 
freedom action officers, plus an office director. In due course, our 
goal is to have nine action officers--enough to cover every region, and 
to pursue some of the many worthy reconciliation projects that warrant 
our attention. We are presently involved in such efforts in Kosovo, 
Lebanon and Indonesia, but we could do much, much more. I would also 
note that, as the Committee is well aware, our Embassy resources in the 
field are stretched quite thin. At some of our posts, the Foreign 
Service officers who report on human rights and religious freedom are 
also responsible for covering political, economic and security matters. 
Some of them even have consular and administrative duties as well. 
Notwithstanding their many responsibilities, I cannot overemphasize the 
enormous contribution that these fine men and women have made to the 
success of our report--sometime even at the risk of their own safety.
    With respect to the Commission's recommendations, the ongoing 
consultations between our staffs have already led to the implementation 
of some of them. We have, for example, adopted some of their 
suggestions for the next report, including a greater emphasis on 
organization and legal context. We endorse the Commission's view that 
our report--while lifting high the value of the religious quest itself, 
and of freedom of conscience--must not appear to favor or disfavor any 
religious tradition, country or region. The Commission knows that this 
has always been, and will remain, one of my highest priorities, and we 
will redouble our efforts to ensure evenhandedness.
    At the end of the day, Mr. Chairman, I conclude that the 
Commission's Report--notwithstanding the existence of certain 
substantive disagreements--has been a positive one. It has focused 
further international attention on the state of religious freedom in 
three critical countries. It has made clear recommendations, many of 
which can form the basis for further policy discussion. And it is 
already contributing to the State Department Report on Religious 
Freedom. On balance, I believe that the Commission is making a 
substantial contribution to our common goal of promoting religious 
freedom worldwide.
    Those of us who are charged with implementing the International 
Religious Freedom Act have had some modest but invigorating victories--
some religious prisoners freed, some religious refugees assisted, a few 
bad laws altered or repealed. But we must take the long view: none of 
us can claim, nor should we expect, that the millions who suffer for 
their religious beliefs will have been loosed from their torments 18 
months after the passage of the International Religious Freedom Act, or 
because of the actions of my office or those of the independent U.S. 
Commission. But, Mr. Chairman, I believe that we have made a start. 
Together, we have planted seeds--seeds of hope and of future action. 
With God's help, those seeds are taking root and will one day bear 
fruit. I thank you and this Committee, and the members and staff of the 
U.S. Commission, for their commitment to the cause of religious 
freedom, and to the well-being of the human family of which we all are 
a part.
    I would be happy to take your questions.

    Senator Brownback. Thank you, Ambassador Seiple, and thank 
you for the excellent statement and thoughts and your work that 
you are doing. I hope what you and your group has started 
working on will continue to grow and infiltrate much of the 
U.S. Government as well. My office will get a number of 
complaints of people seeking religious asylum, and they are 
complaints directed at the INS. I think more and more of those 
we will try to send by your office for thoughts and reviews as 
well for people seeking freedom.
    Let me note a couple of questions to you, if I could, on 
your statement on the Sudan. I appreciate your going into that 
in length. I take it, from your comments, you are saying that 
the administration is already providing direct, nonlethal 
assistance to the people fighting against the government in the 
Sudan. There is consideration of legislation here to provide 
direct, nonlethal assistance to the aid of the people fighting 
against the government in Sudan. I am not clear from you what 
your or the administration's position is on that issue. Could 
you clarify that for me?
    Ambassador Seiple. What I was referring to was the aid 
offered outside the OLS system. That percentage and that amount 
of aid has increased over the last 18 months. I think we have 
all been in agreement that the OLS system is somewhat flawed by 
the ability of Khartoum to apply a veto, and there have been 
times in 1998, for example, where the OLS system could not take 
emergency aid into places that were under attack or where 
food--in a sense to be cynical, but I think right--was being 
used as a weapon of war. Now, that food is being distributed 
through an NGO system. It is not being distributed through the 
opposition forces. I think your question really refers to the 
nonlethal aid to opposition forces as opposed to the NGO's. 
What I was referring to is the non-OLS aid that goes through an 
NGO system.
    Senator Brownback. I understand, but if we were to pursue 
legislation here on providing direct, nonlethal assistance to 
people other than the government-controlled entities, not 
through the OLS, does the administration have a position on 
that legislation?
    Ambassador Seiple. As you know, they have the enabling 
legislation, as of the 1st of February, to make a determination 
in that regard.
    Senator Brownback. That is on food aid. This would be 
nonlethal assistance, not direct food aid.
    Ambassador Seiple. I was going to say both of those, 
nonlethal and food aid, are currently being studied in the 
State Department extensively. I know the folks who were 
studying that proposal have been grateful for what the 
Commission has provided by way of this being a part of a 
comprehensive plan. I can only say at this time that it is 
under study, with the assurance that they, obviously, would 
like to be working closely with the Congress and the Commission 
as determinations are made, but the determination has not yet 
been made.
    Senator Brownback. I would hope the administration would be 
supportive of the legislation to provide that authority, not a 
requirement, but authority to them to be able to provide that 
nonlethal assistance to people fighting against the government 
in Khartoum.
    A second question that I would have for you would be--and I 
appreciate your statements on both China and Russia, as well--
what other countries do you hope the Commission will look more 
closely at in the upcoming months that you have particular 
concerns about on religious freedom?
    Ambassador Seiple. Well, there are a number of countries 
that, might we say, would be on the bubble, not necessarily 
because they are candidates for countries of particular 
concern, candidates for sanctions, or candidates for 
designation, but just countries where there are unique 
situations taking place where we can perhaps make a difference 
if we get to them in time.
    We had a Commission meeting for most of the day yesterday 
and looked at, I think, about 17 different countries. I think 
the Commission will come out in favor of an additional four or 
five countries to look at in depth, even as they continue to 
monitor the three that they did this year. If they can do that 
during the 4 years, each year maybe pick up an additional 
country, as the body of expertise grows, I think that in a 4-
year period of time, the Commission has the ability to look at 
as many as 20 or 25 countries.
    If you look at our executive summary in the International 
Religious Freedom report that we put out through the State 
Department, there are probably 30 in that country category of 
violators, all told. Now, the specifics of those countries, who 
they are, they are countries like Saudi Arabia, Egypt, India, 
Pakistan, Laos, North Korea, Iran, which was looked at before, 
but began to be looked at specifically as an addition of the 
three. These are the kinds of countries that have had 
significant issues where lots of people this day are suffering 
because of how they worship or who they worship. I think all of 
them have a legitimate rationale behind them in terms of why 
they should be looked at.
    If I may just add one point, we look at 194 countries. The 
Commission has decided, I think properly so, to look at a much 
fewer number but to go deeper. I think the complementary aspect 
of that works extremely well for all of us interested in this 
issue.
    Senator Brownback. As I mentioned in my opening statement, 
I would hope that you would be looking closely at North Korea 
as you mentioned in your statement. I have just been reading 
more and more reports, and then I met directly with a lady last 
year who had been able to escape the country, had been in a 
prison camp there, and told just a horrifying story of watching 
a person who would not deny their faith have molten iron poured 
on them and killed because they would not walk away from their 
faith. Just a horrifying statement. And you read ones like that 
fairly frequently.
    Ambassador Seiple. I read that same statement. Actually it 
is now in the form of a booklet, written by the woman who got 
out and has written as a Christian from her perspective of what 
was happening to people of faith.
    We are also this year getting additional reports from a 
variety of sources, something we did not have on North Korea a 
year ago. We knew things were bad instinctually, intuitively, 
but in our reports we want to make sure that we can 
substantiate them and they are not just anecdotal research. 
There are a number of reports now lining up with this kind of 
information that will ultimately have to be dealt with in the 
accountability on the part of the North Koreans.
    Senator Brownback. I hope that is also something that we 
can do to draw public attention both in this country and abroad 
about the level of persecution that takes place to a number of 
people of faith around the world.
    In January of this year, I traveled to Nepal and in 
Kathmandu met with about 120 Tibetan refugees that had recently 
walked across the Himalayas in winter to get to freedom. It was 
one of the most striking examples to me of the desire for 
freedom and the desire of the soul to worship as they see fit.
    I talked individually with probably around 12 to 15 of them 
about their story. There were children there 8 to 10 years of 
age. There were older people that were there as well. And each 
had just an amazing story. Some had been jailed and beaten in 
jail and had been released and then later escaped. It was 2 
weeks that they hiked. Many of them left just on an 
instantaneous basis with plastic shoes and not much more than a 
light jacket to do that incredible hike. You look at them just 
in amazement of the level of persecution that drove them and of 
the desire of the human spirit to be able to be free. It is 
something that I hope we never give that light up ourselves as 
we move forward and as the United States takes a lead role in 
pressing this freedom for people throughout the world.
    Ambassador Seiple. Well, that is our constituency, not so 
much a legislative process or a bureaucratic process or an NGO 
process. Our constituents are those who this day suffer for 
their faith. You met with the ones who made the walk and are 
still alive. The unfortunate statistic is there are an awful 
lot of children who died on the Himalayas because they suffered 
irreparably through that winter and never made it. That is 
another one of the statistics of this whole issue, people who 
are lying dead on the mountainsides.
    Senator Brownback. And it is a fact that goes on yet today.
    As you note, my interest in this and the interest of this 
country and our heritage built upon it--one quick side story 
before we go on. There is a wood etching in the Library of 
Congress of John Ogilvie who was persecuted in Scotland for his 
faith. The wood etching is of him being held back on a board, 
strangled, and being disemboweled, killed for his faith some 
300-400 years ago. He in the 1950's was canonized by the 
Catholic Church and is now St. John Ogilvie and the current 
Chaplain of the U.S. Senate is Lloyd John Ogilvie. John 
Ogilvie's persecution was part of the Scottish migration that 
came to the United States looking for freedom and also other 
people came from Scotland for other reasons as well.
    But part of our heritage has been people searching just to 
be free, free for their faith, and it is something that we 
should never forget, nor should we fail to look back and to try 
to seek other countries and other people just yearning to be 
free, yearning to have their souls for freedom.
    It is a great job that you have and I am glad you are in 
it, Ambassador. You do a wonderful job at it.
    Ambassador Seiple. Thank you very much.
    Senator Brownback. Thanks for joining us today.
    [Following is in response to an additional question 
submitted for the record:]

  Response of Hon. Robert A. Seiple to a Question from Senator Gordon 
                                 Smith

    Question. In your opinion, is the Belgian Government being 
discriminatory in the current practice of issuing visas only to foreign 
volunteer religious workers who are members of officially recognized 
religions of that country?

    Answer. We are concerned that the Government of Belgium may be 
discriminating against non-recognized religious groups in its issuance 
of visas. In April, the Belgian Consulate in Los Angeles refused to 
grant visas to missionaries of the Church of Jesus Christ of Latter-Day 
Saints. Similar visas had been processed for decades without incident. 
At the request of the U.S. Government, the Government of Belgium agreed 
to investigate the reasons for the refusals, and has informed us that 
their visa procedures are currently under review by the Ministry of 
Interior. Visas to missionaries from the Church of Jesus Christ of 
Latter-Day Saints are being issued under a temporary procedure which 
will remain in place until October 1st of this year, when the 
Government of Belgium plans to issue new visa procedures. We are 
hopeful that the new procedures will allow these missionaries to freely 
obtain visas.
    Our Embassy has been, and will continue to be, in contact with the 
Belgian Government in an effort to address our concerns regarding 
religious freedom.

    Senator Brownback. The next panel will be several of the 
Commissioners on the religious liberty panel. They are Rabbi 
David Saperstein, Chairman of the Commission and director of 
the Religious Action Center for Reform Judaism out of 
Washington, DC; the Honorable Elliott Abrams, president of the 
Ethics and Public Policy Center, Washington, DC; Dr. Firuz 
Kazemzadeh, secretary for external affairs, National Spiritual 
Assembly of the Baha'is of the United States; and Ms. Nina 
Shea, member of the U.S. Commission on International Religious 
Freedom and director of the Center for Religious Freedom, 
Freedom House, Washington, DC.

STATEMENT OF RABBI DAVID SAPERSTEIN, CHAIRMAN, U.S. COMMISSION 
  ON INTERNATIONAL RELIGIOUS FREEDOM; AND DIRECTOR, RELIGIOUS 
        ACTION CENTER OF REFORM JUDAISM, WASHINGTON, DC

    Rabbi Saperstein. Good morning, Mr. Chairman.
    Senator Brownback. Good morning, Rabbi.
    Rabbi Saperstein. I want to express our appreciation on 
behalf of the Commission for holding this hearing. And I want 
to express our appreciation as well to you. It is difficult for 
me to think, over my 25 years, of someone who has not only 
spoken as eloquently on the issue of international religious 
freedom as you, but also put themselves on the line in visits 
across the globe, to areas of particular concern on behalf of 
refugees, giving them, through your presence, the hope to go on 
with their struggle. So, I want to express my appreciation for 
your personal dedication, as well as for the committee's 
interest in this report.
    Let me also just say one other word and that is to 
Ambassador Seiple. This was an extraordinary choice for 
America's first Ambassador. He has done a remarkable job here, 
and I think the integrity and vision that he brings to bear in 
his work was reflected in his testimony this morning, as well 
in his ongoing work. So, I am deeply grateful for his presence.
    Today we report to you on a milestone event, the issuance 
of the first annual report \1\ on the U.S. Commission on 
International Religious Freedom, as foreseen under the 
International Religious Freedom Act passed in 1998. The vision 
of IRFA is this: The Founders of our Nation understood that the 
words, ``We are endowed by our Creator with certain inalienable 
rights,'' put freedom of religion at the center of those 
fundamental rights. It is the first of the enumerated rights in 
the first amendment. It is central to the human condition and 
to what we have striven for during so many decades of the 200-
plus year history of this Nation: to ensure that the religious 
life of the individual and of religious communities could 
flourish without the government restraining or interfering with 
that freedom; that this is part of the vision of human rights 
that cuts across the global community; and that as such, it 
ought to be at the heart of American foreign policy.
---------------------------------------------------------------------------
    \1\ The report, entitled ``Report of the United States Commission 
on International Religious Freedom,'' May 1, 2000, along with ``Staff 
Memorandum for the Chairman: Religious Freedom in Sudan, China, and 
Russia,'' May 1, 2000, can be accessed at the Commission's Website: 
www.uscirf.gov
---------------------------------------------------------------------------
    As we look around the world, however, we find this 
fundamental liberty under serious attack in far too many 
places. In Sudan, the Islamist extremist government is bombing 
Christian churches, church-run schools, and hospitals. In 
China, we see mass arrests of Falun Gong practitioners, the 
harassment and arrest of leaders of the Muslim Uighur 
community, the continued systematic infringement under 
religious freedom of Tibetan Buddhists, and the harassment of 
the underground Catholic and Protestant churches as well. In 
Iran, Baha'is are sentenced to death just because they are 
Baha'is. All these things testify that the work of the 
Commission is urgent work, work of fundamental liberty and of 
priority importance.
    The IRFA process created the Ambassador at Large for 
International Religious Freedom and mandated a State Department 
report once a year. That report, which you have seen, marked a 
significant change in the way business is done in the American 
foreign policy establishment. Over an extended period of time, 
there have been in most of the countries across the globe 
Foreign Service officers, as well as staff in regional bureaus 
here at the State Department, who because of this report, had 
to focus on what to say about religious liberty, how to address 
it, how to express it, how to define it, how to describe what 
is happening on the ground in the countries that they are 
charged to cover, and how to express what America's interests 
are regarding this issue. More difficult decisions that had to 
be made as part of this process required the attention and 
involvement of high-ranking State Department officials. The 
entire structure was caught up with addressing this issue, and 
that alone marked an important structural change. As our 
commissioners traveled to other countries this year, they met 
with and worked with Foreign Service officers who are now 
knowledgeable about issues of religious liberty, who are 
involved in diplomatic efforts to combat religious persecution, 
and who have made lasting contacts with leaders of the 
religious communities and with NGO's, both foreign and 
domestic, who are working in this field.
    It is the role of this Commission on an ongoing basis and 
summarized once a year in the annual report to make 
recommendations to you, the Congress, to the President of the 
United States, and to the Secretary of State on how to address 
policy related to combating religious persecution and enhancing 
religious freedom. Now, because of the delay in appointments of 
members of the Commission and in congressional funding for its 
work, we have only been fully staffed for 6 months and in 
offices for about 4 months. As a result, we decided that while 
engaging in ongoing monitoring of general U.S. policy on 
religious freedom, while visiting a number of nations and while 
making ongoing policy recommendations regarding emerging urgent 
situations wherever they occurred--these recommendations that 
we made throughout the year addressed urgent situations in 
nearly a dozen countries--we would focus on three priority 
countries. Two are nations designated by State in the IRFA 
process as ``countries of particular concern,'' that is, 
countries where there are systematic, egregious ongoing 
manifestations of religious persecution. Those countries are 
China and Sudan.
    At the same time, we also selected another country, Russia, 
which reflected a completely different dynamic. It is a country 
that allows for much more religious freedom. There are not the 
same manifestations of religious persecution, but there are 
growing problems. But this is a country with which the United 
States has close relations and the ability to make its voice 
heard more effectively. So, we targeted Russia because there 
are so many religious groups in that country, and in many ways 
it is a litmus test for how the other Newly Independent States 
that sprung up after the collapse of the Soviet empire will 
address these issues.
    The report we released on May 1 was a culmination of our 
work since the Commission first met here. We have held day-long 
hearings on Sudan in Washington and on China in Los Angeles. 
Commissioner Elliott Abrams, from whom you will hear in a 
moment, traveled to southern Sudan. Other commissioners have 
visited a number of other countries. We reviewed the State 
Department reports and met with human rights and church 
experts, experts on economic sanctions and war crimes, others 
with firsthand information about the situation of religious 
freedom in these countries. We tried to visit China, but the 
Chinese authorities have yet to respond to our requests for 
visas. We held meetings at least twice a month--one in person 
lasting 1 to 2 days, another by conference call. And, in the 
run-up to May 1, in addition to the time we spent in our 
meetings on the wording of the report, we spent an additional 
25 hours in conference calls, going over every word in our 
recommendations and text for the annual report.
    To me, one of the most extraordinary results of this 
process, of the work of this religiously and politically 
diverse Commission, is that both throughout the year in the 
recommendations we made and in the report, every recommendation 
and action was approved either by unanimity or by consensus. 
Bonded by a deep and profound commitment to addressing 
religious persecution for all religious groups and furthering 
religious freedom for all, these Commissioners' openness to 
diverse views, new ideas, and different approaches, combined 
with the respect we had for one another's expertise allowed us 
to present this report with the same overwhelming support we 
have manifested in our recommendations during the year. In the 
entire report of approximately 50 recommendations, there is 
only one dissent \2\ by one Commissioner from two of the Sudan 
recommendations.
---------------------------------------------------------------------------
    \2\ ``Dissent to Testimony on Religious Freedom in Sudan,'' 
presented by Commissioner Laila Al-Marayati, MD, is on page 55.
---------------------------------------------------------------------------
    Lest there be any confusion, our formal report is the 
document so named. There is a second document that is 
distributed with it. It is the staff report for the chair, 
drawing on our work during the year. It provides helpful 
background, particularly for those not familiar with the 
details of religious life in these countries. While I think you 
will find it a compelling indictment of religious freedom 
abuses in China and Sudan, we did not feel it necessary to 
resolve some outstanding differences, nor to adopt it formally.
    The annual report contains a host of recommendations on our 
three countries, and my colleagues will address each one 
briefly individually. Before I turn to them, just a few other 
words.
    We, as Ambassador Seiple indicated, issued a detailed 
analysis of the annual report issued by the State Department 
under Ambassador Seiple's aegis. We talked about prioritizing, 
about setting information in better context, about referencing 
relevant law, eliminating the potential for bias, referencing 
international law that is incorporated into IRFA, and improving 
the methodology for information gathering. We are very 
heartened by the response of the Ambassador and State 
Department officials. The details of our recommendations are 
set out in the report.
    Let me finally say a word about our plan for this coming 
year.
    First, we will continue to monitor and make recommendations 
on our three priority countries.
    Second, we intend to issue recommendations regarding how 
State identifies so-called ``countries of particular concern'' 
before the Department's next report and next list of those 
countries, which is due in early September.
    Third, the Commission will continue to respond to instances 
of religious persecution--as it has done throughout this first 
year--wherever and whenever they occur. It will also begin the 
process of analyzing and addressing U.S. policy regarding 
religious freedom issues in greater detail in a larger number 
of countries. I do not know exactly what the number is. We will 
decide at our next meeting. I would imagine, in addition to the 
three we have, there will be another four to six such countries 
on which we will focus. They will be taken from either the list 
of ``countries of particular concern'' or they will be taken 
from the countries that are discussed in some detail in the 
executive summary of Ambassador Seiple's report in which he 
lists the countries that have more serious problems. We agree 
with much of that list, and it is likely our countries will be 
drawn from that.
    However, that will not set the limit of in-depth study that 
we will do, for we are also going to address one of the most 
complicated and vexing themes in the work of religious freedom, 
and that is the issue of the right of people to change one's 
faith and the right to seek to persuade others to change their 
faith. This issue will lead us to address religious freedom 
issues in a large number of countries.
    Finally, the Commission will make further recommendations 
on the extent to which capital market sanctions and other 
economic leverage should be included in the U.S. diplomatic 
arsenal to promote religious freedom in other countries.
    Mr. Chairman, let me thank you again for the opportunity to 
speak with you and with the committee. With your permission, I 
would ask that the May 1 report and the staff memorandum \3\ 
that accompanied it be included in the hearing record along 
with my full testimony.
---------------------------------------------------------------------------
    \3\ See, reference to Internet access, footnote 1, on page 17.
---------------------------------------------------------------------------
    Senator Brownback. Without objection.
    [The prepared statement of Rabbi Saperstein follows:]

              Prepared Statement of Rabbi David Saperstein

    Good morning Mr. Chairman and members of the Committee. I'm Rabbi 
David Saperstein and I am honored to serve as Chair of the United 
States Commission on International Religious Freedom. Let me begin by 
thanking the Committee for holding this hearing.
    Today we report to you on a milestone event: The issuance of the 
first Annual Report of the U.S. Commission on International Religious 
Freedom as foreseen under the International Religious Freedom Act, or 
IRFA, passed in October 1998. The vision of the IRFA process is this: 
The Founders of our country understood that the words, ``We are endowed 
by our Creator with certain inalienable rights,'' put freedom of 
religion at the center of those fundamental rights. It is the first of 
the enumerated rights in the First Amendment. It is central to the 
human condition and to what we have striven for during so many decades 
of the 200-plus-year history of this country: to ensure that the 
religious life of the individual and of religious communities could 
flourish without the government restraining or interfering with that 
freedom; that this is part of the vision of human rights that cuts 
across the global community, and as such, it ought to be at the heart 
of American foreign policy.
    As we look around the world, however, we find this fundamental 
liberty under serious threat. In Sudan, the Islamist extremist 
government is bombing Christian churches, church-run schools, and 
hospitals. In China we see mass arrests of Falun Gong practitioners, 
the harassment and arrest of leaders of the Muslim Uighur community, 
the continued systemic infringement of the Tibetan Buddhists' religious 
freedom, and the arrests of leaders of the underground Catholic and 
Protestant Churches. In Iran, Baha'is are sentenced to death just 
because they are Baha'is. All these things testify that the work of 
this Commission is urgent work, work of fundamental liberty and of 
priority importance.
    The IRFA process created an Ambassador at Large for International 
Religious Freedom at the State Department and mandated a State 
Department report once a year. That report, which you have seen, marked 
a significant change in the way business is done in the American 
foreign policy establishment. Over an extended period of time, there 
were Foreign Service officers, in embassies across the world and in 
regional bureaus here at the State Department, who were focused on what 
to say about religious liberty, how to deal with it, how to express it, 
how to define it, how to describe what is happening on the ground and 
what America's interests are regarding this issue. More difficult 
decisions required the attention and involvement of high-ranking State 
Department officials. That alone marked an important structural change. 
As our Commissioners traveled to other countries this year, they met 
with and worked with Foreign Service officers who are now knowledgeable 
about issues of religious liberty and involved in diplomatic efforts to 
combat religious persecution. They have also made contacts with 
religious communities and NGOs (both foreign and domestic).
    It is the role of this Commission on an ongoing basis, and then 
summarized once a year in an annual report May 1st, to make 
recommendations to the President of the United States, the Secretary of 
State, and the Congress of the United States on how to address policy 
related to combating religious persecution and enhancing religious 
freedom. Because of the delay in appointments of members of the 
Commission and in Congressional funding for its work, we have only been 
staffed and in offices for about four months and decided, as a result, 
to focus on three priority countries. Two are nations designated by 
State in the IRFA process as ``countries of particular concern.'' These 
are countries in which there are systematic, egregious, ongoing 
manifestations of religious persecution. Those countries are China and 
Sudan.
    At the same time, we also selected another country, Russia, which 
reflected a completely different dynamic, a country that allows much 
more religious freedom. There are not the same manifestations of 
religious persecution, but there are growing problems. This is a 
country with which the United States has close relations and the 
ability to make its voice heard more effectively. So we targeted Russia 
because there are so many religious groups in that country, and in many 
ways it is a litmus test for all the other new independent states that 
have sprung up after the collapse of the Soviet empire.
    The report we released May 1 was the culmination of our work since 
the Commission first met late last June. We've held day-long hearings 
on Sudan here in Washington and on China in Los Angeles. Commissioner 
Elliott Abrams traveled to southern Sudan and other Commissioners have 
visited a number of other countries. We've reviewed the State 
Department reports and met with human rights and church groups, experts 
on economic sanctions and war-crimes, and others with first-hand 
information about the situation of religious freedom in these 
countries. We tried to visit China, but the Chinese authorities have 
yet to respond to our requests for visas. We held meetings at least 
twice a month, one in person, lasting one or two days, another by 
conference call. In addition, in the runup to May 1, we spent at least 
25 hours in conference calls going over every word in our 
recommendations and text for the Annual Report.
    To me one of the most extraordinary results of the work of this 
religiously and politically diverse Commission is that both throughout 
the year and in this report, every recommendation and action was 
approved by consensus or unanimity. Bonded by a deep and profound 
commitment to addressing religious persecution for all religious groups 
and furthering religious freedom for all, these Commissioners' openness 
to diverse views, new ideas, and different approaches, combined with 
the respect we had for one another's expertise, allowed us to present 
this report with the same overwhelming support as we have manifested in 
our recommendations during the year. There is only one dissent by one 
Commissioner from two of our Sudan recommendations.
    Lest there be any confusion, our formal report is the document so 
named. The second document is a staff report for the Chair, drawing on 
our work during the year. It provides helpful background, particularly 
for those not familiar with the details of religious life in these 
countries. While I think you will find it a compelling indictment of 
religious freedom abuses in China and Sudan, we did not feel it 
necessary to resolve outstanding differences nor to adopt it formally.
    The Annual Report contains a host of recommendations on our three 
countries of primary focus, and my colleagues will address each one 
individually. Before I turn to them, however, I would like to say a few 
words about our review of the State Department's first Annual Report on 
International Religious Freedom, issued last September.
    The State Department and the Office of International Religious 
Freedom deserve high praise for the high quality and timely publication 
of the first Annual Report on International Religious Freedom. Equally 
important was the impact of the Report in making religious freedom a 
higher priority for the work of every U.S. embassy and consulate.
    Even so, the Commission believes that the Report can be 
strengthened by (a) prioritizing and evaluating information, (b) 
placing information in context, (c) referencing relevant law, (d) 
eliminating the potential for bias, (e) referencing international law 
incorporated into IRFA, and (f) improving the methodology for 
information-gathering. The Commission's comments in this regard also 
apply to those sections of the Country Reports on Human Rights 
Practices that touch on matters related to freedom of religion or 
belief.
    Specifically, the Reports should clearly identify the most 
significant religious-freedom problems in each country. Gaps in 
information should be identified, particularly where a foreign 
government itself is responsible for the inadequacy of available 
information. The facts and circumstances in the reports should be 
summarized and evaluated in light of the standards set out in IRFA.
    The Report should contain enough historical, religious, and 
political context to present a more complete picture of religious 
freedom in each country. State interference with other human rights 
that are integral to religious exercise should be discussed. The Report 
should identify each country's relevant constitutional, statutory, and 
regulatory provisions affecting freedom of religion; explain the 
relationship between the state and religion; and assess whether the 
government and courts enforce the laws in a way that promotes religious 
freedom.
    To avoid bias, the Report should distinguish between religious 
concepts and how a foreign government may interpret them; politically-
loaded terms such as ``cult,'' ``sect,'' ``orthodox,'' 
``fundamentalist,'' ``jihad,'' or ``Shariah'' should be used in defined 
and appropriate ways. The consequences of state sponsorship of a 
favored religion should be discussed.
    Let me close by reviewing the Commission's work plan for the next 
year. First, we will continue to monitor and make recommendations on 
the three countries we focused on this year: China, Sudan, and Russia. 
The conditions that make them worth our attention unfortunately won't 
go away soon.
    Second, we intend to issue recommendations regarding how the State 
Department identifies so-called ``countries of particular concern'' 
before the Department's next report in September.
    Third, the Commission will continue to respond to instances of 
religious persecution whenever they occur. It will also begin the 
process of analyzing and addressing U.S. policy regarding religious-
freedom issues in a larger number of countries. Countries that will 
draw greater attention during the next phase of the Commission's work 
are the seven designated by the State Department last October as 
``countries of particular concern'' and the more than 25 countries 
discussed in the Executive Summary of the State Department's Religion 
Report of September 9, 1999.
    Fourth, the Commission will also evaluate U.S. policy options that 
could promote the right to change one's faith and the right to seek to 
persuade others to change theirs.
    Finally, the Commission will make further recommendations on the 
extent to which capital-market sanctions and other economic leverage 
should be included in the U.S. diplomatic arsenal to promote religious 
freedom in other nations.
    Mr. Chairman, thank you again for this opportunity to speak to the 
Committee. With your permission, I would ask that the Commission's May 
1, 2000 Report and the Staff Memorandum that accompanied it be included 
in the hearing record with my testimony.

    Senator Brownback. Thank you very much and thanks for your 
leadership on the Commission. I think it has done an 
outstanding job. It is just getting going, but it has done a 
wonderful job and is really fulfilling a mission that at least 
this Member of the Senate believes it was commissioned to do.
    Next we welcome Mr. Abrams for his testimony.

 STATEMENT OF HON. ELLIOTT ABRAMS, MEMBER, U.S. COMMISSION ON 
  INTERNATIONAL RELIGIOUS FREEDOM; AND PRESIDENT, ETHICS AND 
              PUBLIC POLICY CENTER, WASHINGTON, DC

    Mr. Abrams. Thank you, Mr. Chairman. Thanks for the 
invitation to be here today.
    Let me describe the conditions that we found in China and 
the recommendations we made with respect to China in just a few 
minutes.
    We found a sharp deterioration in religious freedom in 
China in the past year. We found that violations of religious 
freedom in China are egregious, ongoing, and systematic. Let me 
describe why we reached that conclusion.
    First, there is a continuing ban on religious belief for 
large sectors of the population, the 60 million members of the 
Communist Party, the 3 million members of the military, and all 
citizens--and there are hundreds of millions--who are under the 
age of 18. The state has reasserted its monopoly over the 
spiritual education of minors so that participation by children 
in any religious activity can be prevented.
    Second, the reassertion of state control over authorized 
religions. All religious groups have to register with the 
Religious Affairs Bureau of the Ministry of Civil Affairs, and 
their activities are limited to a very narrow officially 
sanctioned space, a cage really, in which people of faith are 
allowed to exercise their religious beliefs. Many of the limits 
imposed on registered churches are violations of accepted 
international standards of free exercise of religion.
    For example, if you register, there is official scrutiny of 
your membership. There is a ceding of some control over 
selection of clergy. Your financial records are open to the 
government. There is restriction on contacts with other 
religious institutions. There are limits on a variety of 
activities such as youth activities or building projects. You 
cannot evangelize. You must allow censorship of religious 
materials and interference with your own religious doctrines. 
There is particular interference with education. For example, 
the state has decided in China to reduce the number of years of 
seminary training of Catholic priests from the 5 or 6 that are 
normal to 2 years.
    There is ongoing harassment of unregistered churches. The 
Communist authorities seem determined to eliminate all 
religious activity that they do not directly control. In recent 
months, for example, authorities have detained Catholic clergy 
loyal to Vatican in an apparent attempt to force their 
allegiance to the official church.
    Last year, one priest, Father Yan Weiping, was detained in 
May 1999 while performing mass and was found dead on a Beijing 
street shortly after being released from detention.
    There is continuing egregious violation of freedom of 
religion in Tibet and in Xinjiang, where ethnic, political, and 
economic factors complicate the relationship between the 
atheist state and large communities of Tibetan Buddhists and 
Uighur Muslims.
    Amnesty International reported that authorities in the 
Xinjiang Uighur Autonomous Region have closed mosques and 
Koranic schools, halted the construction of unauthorized 
mosques, prohibited the use of Arabic script, more tightly 
controlled Islamic clergy, and required Muslims who were party 
members or who worked for the government to abandon the 
practice of Islam or lose their positions.
    In Tibet, religious institutions are likewise tightly 
controlled.
    In an action denounced by the Dalai Lama, authorities of 
the region and in Beijing approved the selection of a boy as 
the reincarnation of the sixth Reting Lama. This is the latest 
in a campaign to control the future leadership of Tibetan 
Buddhism. In 1995, the Dalai Lama identified a young boy as the 
reincarnate Panchen Lama. The Chinese immediately denounced the 
Dalai Lama's choice, detained the boy and his family, and 
pushed the acceptance of their own choice. Chinese authorities 
continue to hold the Panchen Lama at an undisclosed location 
and refuse all requests to visit him that are put forward by 
official and unofficial foreign delegations.
    Within the last year, about 1,000 monks and nuns have been 
expelled from their monasteries, and that makes for about 
11,000 expelled since 1996.
    Finally, I think everyone is familiar with the campaign 
against what the government is calling heretical cults. The 
government has acknowledged having detained more than 35,000 
adherents of the Falun Gong movements. In closed trials, Falun 
Gong leaders received prison sentences of from 6 to 18 years, 
and many who have told their stories to the media have been 
severely punished.
    So, with that in mind, we reached a unanimous conclusion 
about permanent normal trade relations [PNTR] with China. We 
were accused of politicizing this Commission. But we had, by 
statute, to give a report on May 1. What we said in the report 
was this.
    ``The Commission believes that in many countries, including 
some of China's neighbors, free trade has been the basis for 
rapid economic growth, which in turn has been central to the 
development of a more open society and political system. This 
belief has been a major factor for the annual decision, by 
presidents and congressional majorities of both parties, to 
grant MFN each year to China over the past two decades. 
Moreover, a grant of PNTR and Chinese membership in the WTO 
may, by locking China into a network of international 
obligations, help advance the rule of law there in the economic 
sector at first, but then more broadly over time.
    ``Nevertheless, given the sharp deterioration in freedom of 
religion in China during the last year, the Commission believes 
that an unconditional grant of PNTR at this moment may be taken 
as a signal of American indifference to religious freedom. The 
government of China attaches great symbolic importance to steps 
such as the grant of PNTR, and presents them to the Chinese 
people as proof of international acceptance and approval. A 
grant of PNTR at this juncture could be seen by Chinese people 
struggling for religious freedom as an abandonment of their 
cause at a moment of great difficulty. The Commission therefore 
believes that Congress should not approve PNTR until China 
makes substantial improvements in respect for religious 
freedom.''
    Now, we have a list of things that we think would symbolize 
or embody greater respect. These are not, each one, a 
precondition. They are a group of standards by which to measure 
progress. We did not propose a strict formula. Let me just 
mention a few of them and then I will be done.
    We would like China to agree to an ongoing dialog on 
religious freedom with the U.S. Government.
    China has signed in 1997 the International Covenant on 
Civil and Political Rights. We would like China to agree to 
ratify that covenant.
    We would like China to grant unhindered access to religious 
prisoners.
    We would like them to disclose who are the prisoners of 
conscience and where they are, and we would like them, of 
course, to release all persons incarcerated for religious 
belief.
    We think the U.S. Congress should hold annual hearings on 
human rights in China or adopt some mechanism for continuing 
monitoring.
    We think the Congress should invite the Dalai Lama, a great 
symbol of religious freedom and religious tolerance, to address 
a joint session.
    We think the United States should continue to push and push 
harder for the resolution to censor China at the U.N. Human 
Rights Commission in Geneva.
    We think the United States should lead a multilateral 
campaign to seek the release of Chinese religious leaders who 
are imprisoned or under house arrest.
    We think the United States should continue to raise the 
profile of conditions in Xinjiang for Uighur Muslims.
    Finally, as long as these conditions are extant in China, 
we think the United States should use its influence so that 
China not be selected as the site for the next Olympic Games.
    Again, that is not a list of preconditions. It is a list of 
actions that might be taken to show that while PNTR is being 
voted, the United States maintains its commitment to religious 
freedom in China.
    Thank you very much for the opportunity to speak.
    [The prepared statement of Mr. Abrams follows:]

               Prepared Statement of Hon. Elliott Abrams

    Mr. Chairman and Members of the Committee:
    On behalf of the United States Commission on International 
Religious Freedom, of which I have the honor to be a member, I wish to 
thank the Committee for this invitation to testify about religious 
freedom in China.

                       THE COMMISSION'S FINDINGS
    Over the last several months, the Commission has conducted research 
and held hearings on limits to religious freedom in China. We found a 
sharp deterioration in religious freedom in China in the past year. 
Violation of religious freedom in China is egregious, ongoing, and 
systematic. The Chinese Communist Party and government leaders have 
promulgated new laws and policies aimed at eliminating religious 
activity beyond their direct control.
    This past year saw the continued prohibition of religious belief 
for large sectors of the population; the ongoing harassment of 
unregistered churches; the assertion of state control over authorized 
religions; an increase in the number of sects branded ``heretical 
cults;'' the continued use of notorious extra-judicial summary trials 
and the sentencing to reeducation through labor camps for so-called 
``crimes'' associated with religion; and credible reports of torture of 
religious prisoners.
1. Continued ban on religious belief for large sectors of the 
        population
    The right to freedom of belief is explicitly denied to the 60 
million members of the Chinese Communist Party, the three million 
members of the Chinese military and all citizens--and there are 
hundreds of millions of them--under the age of 18. Several campaigns to 
purge the Party and military of believers have been waged over the last 
five years. The state has re-asserted its monopoly over the spiritual 
education of minors, so that participation by children in any religious 
activity can be prevented.
2. Assertion of state control of authorized religions
    Regulations in the PRC now require that all religious groups 
register with local units of the Religious Affairs Bureau (RAB) in the 
Ministry of Civil Affairs and that they affiliate with an official 
organ of one of the five authorized religions: Buddhists, Taoists, 
Muslims, Protestants and Catholics. It is in this narrow officially 
sanctioned space--within this cage--that people of faith may exercise 
their religious beliefs.
    While in theory registration requirements need not be onerous, and 
in fact many congregations operate under RAB auspices with little 
interference, serious restrictions on freedom of religious expression 
have been reported in recent years. Many limits imposed on registered 
churches are in violation of accepted international standards of free 
exercise of religion.
    Human Rights Watch reports that government oversight of these 
authorized religious groups entails official scrutiny of membership; 
ceding some control over selection of clergy, opening financial records 
to government scrutiny; restricting contacts with other religious 
institutions; accepting limits on some activities, such as youth or 
social welfare programs, or building projects; eschewing evangelism; 
allowing censorship of religious materials and interference with 
doctrinal thought; and limiting religious activities to religious 
sites.\1\ The state requires that political indoctrination be an 
important component of religious training for recognized religious 
groups. This often comes at the expense of religious education, as is 
the case with a recent movement to ``reduce the number of years of 
seminary training of Catholic priests from the normal five to six years 
to two.'' \2\
---------------------------------------------------------------------------
    \1\ Mickey Spiegel, ``China: Religion in the Service of the 
State,'' testimony at the USCIRF Hearing on Religious Freedom in China, 
March 16, 2000, Los Angeles, California.
    \2\ Human Rights Watch Continuing Religious Repression in China, 
1993.
---------------------------------------------------------------------------
    Authorities limit the building of mosques, monasteries, and 
churches even for approved groups. They restrict the numbers of 
students in Christian seminaries, Buddhist monasteries and Islamic 
schools. They proscribe the teaching of certain doctrines and labeled 
heretical practices such as exorcism and healing.
    Chinese authorities remain deeply suspicious of the involvement of 
``hostile foreign elements'' in Chinese congregations and severely 
limit association between Chinese and foreign religious groups.
3. Ongoing harassment of unregistered churches
    Chinese law now requires all religious groups register with local 
RAB officials. In the past, in many areas, officials have allowed the 
unregistered groups to operate without harassment, in others, officials 
have been zealous to the point of abuse in their campaign to force the 
registration of places of worship. Increasingly, Communist authorities 
seem determined to eliminate all religious activity that they do not 
directly control. Some religious groups, as a matter of conscience or 
fearing official intervention, have resisted registration. Officials 
have denied recognition to other groups. The Protestant house-church 
movement and Catholics loyal to the Vatican are among those that have 
resisted registration on principle or been denied permission to 
register.
    Human rights groups report Chinese authorities detained 40 
Protestant worshipers in Wugang in October of 1998, at least 70 
worshipers in Nanyang in November, and 48 Christians, including 
Catholics, in Henan in January of 1999. Authorities detained, beat, and 
fined an unknown number of underground Catholics in Baoding, Hebei in 
the same month. In April of last year, Public Security personnel raided 
a house church service in Henan. Twenty-five Christians were detained. 
Seventy-one members of the Disciples Sect were detained in Changying in 
April.\3\ Just last week, a reliable Hong Kong source reported that 
Chinese police have detained 47 Protestants in Anhui province and 
criminally charged six of their leaders for organizing an illegal sect 
and illegal gatherings.\4\ Similarly, leaders of large Protestant 
house-church networks who, in 1998, challenged the government to a 
dialogue, have been targeted for arrest. Unauthorized Protestant places 
of worship have also been destroyed.
---------------------------------------------------------------------------
    \3\ State Department Annual Report, International Religious 
Freedom, 1999.
    \4\ Newsroom, ``China Detains 47 Members of Protestant Group,'' May 
7, 2000.
---------------------------------------------------------------------------
    Some observers report a concerted effort to ``eliminate underground 
bishops and bring them under the authority of the official Chinese 
Catholic Patriotic Association.'' \5\ This organization is being 
introduced into areas in which it never existed before. It is pressing 
underground bishops for obedience, not just cooperation. Without even 
consulting church leaders, diocese are being reorganized: Some recently 
divided dioceses are being re-united, while others have simply been 
abolished by the government. On January 6 of this year, the Chinese 
Catholic Patriotic Association ordained five bishops without Vatican 
approval.
---------------------------------------------------------------------------
    \5\ Rev. Drew Christiansen, S. J. ``Policy Responses to the Denial 
and Restriction of Religious Liberty in the People's Republic of 
China,'' testimony before the USCIRF Hearing on Religious Freedom in 
China, March 16, 2000, Los Angeles, California.
---------------------------------------------------------------------------
    In recent months authorities have detained Catholic clergy loyal to 
the Vatican in an apparent attempt to force their allegiance to the 
official church. One, the young Father Weiping, was detained in May of 
1999 while performing mass. He was found dead on a Beijing Street 
shortly after being released from detention.\6\ The Vatican reports 
that five churches built without authorization had been razed. Thirteen 
were destroyed in the Fuzhou diocese in Fujian.\7\
---------------------------------------------------------------------------
    \6\ State Department Annual Report, International Religious 
Freedom, 1999.
    \7\ State Department Annual Report, International Religious 
Freedom, 1999.
---------------------------------------------------------------------------
4. Repression in Xinjiang and Tibet
    Some of the most egregious violations of religious freedom occur in 
Tibet and Xinjiang, where ethnic, political, and economic factors 
complicate the relationship between the atheist state and large 
communities of Tibetan Buddhists and Uighur Muslims. In these areas 
Chinese controls on information are especially tight.
    In these sensitive regions, authorities, seeking to eliminate ``a 
very small number'' of separatist activists, infiltrate and attempt to 
dominate religious institutions which they fear may breed opposition to 
continued Chinese control. Religious freedoms are curtailed and in 
response, resistance intensifies.
    Amnesty International reports that authorities in the Xinjinag 
Uighur Autonomous Region have closed mosques and Koranic schools, 
halted the construction of unauthorized mosques, prohibited the use of 
Arabic script, more tightly controlled Islamic clergy, and required 
Muslims who are Party members or who work in government offices to 
abandon the practice of Islam or lose their positions. The Chinese 
press reported that ``rampant activities by splittists'' justified the 
closure of 10 unauthorized mosques, and the arrest of mullahs who it 
said had preached ``illegally'' outside their mosques. It further 
related that public security personnel raided 56 mosques.
    While allowing some Muslims to make a religious journey to Mecca, 
authorities deny that experience to hundreds of Uighurs desiring to do 
so.\8\
---------------------------------------------------------------------------
    \8\ Uighur witness testimony before the USCIRF Hearing on Religious 
Freedom in China, March 16, 2000, Los Angeles, California.
---------------------------------------------------------------------------
    In Tibet, where Chinese authorities fear growing Tibetan 
nationalism and the political and organizational power of the 
monasteries, religious institutions are likewise tightly controlled.
    In an action denounced by the Dalai Lama, authorities of the Tibet 
Autonomous Region and the RAB in Beijing approved the selection of a 
boy as the reincarnation of the sixth Reting Lama. This is the latest 
in a campaign to control the future leadership of Tibetan Buddhism. In 
1995, the Dalai Lama identified a young boy, Gendun Choekyi Nyima, as 
the reincarnate Panchen Lama. The Chinese immediately denounced the 
Dalai Lama's choice, detained the boy and his family, and pushed the 
acceptance of their choice, Gyaltsen Norbu. Chinese authorities 
continue to hold the Panchen Lama at an undisclosed location and refuse 
all requests to visit him put forward by official and unofficial 
foreign delegations.
    Each of Tibet's major monasteries is overseen by a ``Democratic 
Management Committee,'' members of which are vetted by authorities for 
their political reliability. The Committee regulates religious affairs, 
finances (90% of which come from private donations), security, and 
training. It enforces limits on the number of monks and nuns within 
monasteries and conducts invasive ``patriotic'' education campaigns 
that force monks and nuns to denounce the Dalai Lama and accept the 
Chinese-selected Panchen Lama.
    Authorities limit the religious festivals Tibetans are allowed to 
observe, the rituals monks are allowed to perform, and the courses of 
study monasteries are allowed to teach. In 1995, Chinese authorities 
asserted that ``a sufficient number of monasteries, monks and nuns now 
exist to satisfy the daily religious needs of the masses.'' Over 1,000 
monks and nuns were expelled from their monasteries in 1999, and over 
11,000 have been expelled since 1996. The Party Secretariat of the 
Lhasa City Administration announced that it would not allow more 
monasteries to be built and that monasteries constructed without 
permission would be destroyed. Chinese cadres have taken up residence 
in monasteries to oversee political education campaigns.
5. Increase in the number of sects branded ``heretical cults'' and 
        banned
    Article 300 of the Criminal Law, as amended in 1997, and as 
interpreted by the People's Supreme Court and the National People's 
Congress, stipulates that central authorities have the right to 
delegitimize any belief system they deem to be superstitious or a so-
called ``evil religious organization.'' Leaders of these so-called 
cults are subject to ``resolute punishment.'' In the absence of a clear 
definition of terms, Chinese authorities have wide latitude for using 
the designation ``cult.'' Even private religious practice is forbidden 
to members of groups declared by Chinese authorities to be ``evil 
cults.'' The law has been used against numerous evangelical Protestant 
groups including the China Evangelistic Fellowship in Henan 
province.\9\ In November of 1999, six leaders of these groups in Henan 
were charged with leading cults and sentenced to re-education through 
labor.\10\
---------------------------------------------------------------------------
    \9\ The conditions have been reported in detail by the State 
Department, by human rights organizations, and in the Staff Memorandum 
For The Chairman that accompanies the Commission's May 1 Report (the 
latter two documents may be found on the Commission's Web site, 
www.uscirf.gov).
    \10\ Associated Press, ``Sect Followers Said Tried in Secret,'' 
December 30, 1999.
---------------------------------------------------------------------------
    Falun Gong, a syncretic meditation and martial arts organization 
whose spiritual teachings draw on Taoist and Buddhist belief systems, 
has been the target of a virulent anti cult campaign. On April 25, 
1999, 10,000 practitioners staged a peaceful demonstration outside the 
residential compound for top Party officials in central Beijing. The 
gathering was prompted by reports of police violence against fellow 
practitioners in Tianjin and by an official ban on publishing Falun 
Gong materials. In the months that followed, the group was declared an 
``evil cult'' and by year's end the government acknowledged having 
detained more than 35,000 adherents. Some detainees were tortured. Zhao 
Jinhua was reportedly beaten and killed while in Shandong jail.\11\ 
Others have been held in mental institutions for ``re-education.'' \12\ 
In closed trials Falun Gong leaders received prison sentences of 6 to 
18 years. Many of those who have told their stories to outside media 
have been severely punished.
---------------------------------------------------------------------------
    \11\ AP 12/13/1999.
    \12\ Lu Siqing, Director of the Information Center for Human Rights 
and Democratic Movements, Hong Kong, Testimony before the USCIRF, Los 
Angeles, California, March 16, 2000.
---------------------------------------------------------------------------
    The law has been used against a number of other religious groups. 
In January of this year, Zhong Gong, a meditation and exercise sect 
claiming 20 million practitioners, was added to the list. Also banned 
are a sect with Buddhist origins, and Yi Guan Dao.

                            RECOMMENDATIONS
    When Congress established this Commission it charged us with 
monitoring religious freedom and making policy recommendations to the 
legislative and executive branches of government that would promote 
religious liberty. After careful consideration the nine Commissioners 
unanimously decided upon the following recommendations as we move 
forward in our relationship with the PRC.
    First, given the deterioration of religious freedom in China over 
the past year, the Commission unanimously recommends that Congress 
grant permanent normal trade status to China only after China makes 
substantial improvements in respect for freedom of religion as measured 
by the following standards:

          a. China agrees to establish high-level and ongoing dialogue 
        with the U.S. government on religious freedom matters;

          b. China agrees to ratify the International Covenant On Civil 
        and Political Rights, which it signed in 1997;

          c. China agrees to permit unhindered access to religious 
        prisoners by the Commission;

          d. China discloses the condition and whereabouts of persons 
        imprisoned for reasons of religion or belief;

          e. China releases from prison all persons incarcerated for 
        religious reasons.

    Second, the Commission recommends that before granting PNTR to 
China the U.S. Congress should:

          a. Announce that it will hold annual hearings on human rights 
        in China, and

          b. Invite the Dalai Lama to address a joint session of 
        Congress.

    Third, as part of a sustained effort to improve religious freedom 
in the People's Republic of China, the Commission further recommends 
that until religious freedom significantly improves in China, the U.S. 
government should:

          a. Initiate a resolution to censure China at the annual 
        meeting of the UN Commission of Human Rights. This effort 
        should be led by the personal efforts of the President of the 
        United States;

          b. Lead a multilateral campaign to seek the release of 
        Chinese religious leaders imprisoned or under house arrest;

          c. Raise the profile of conditions in Xinjiang for Uighur 
        Muslims by addressing their religious-freedom and human rights 
        concerns in bilateral talks, by increasing the number of 
        educational exchange opportunities available to Uighurs, and by 
        increasing radio broadcasts in the Uighur language into 
        Xinjiang; and

          d. Use its diplomatic influence with other governments to 
        ensure that China is not selected as a site for the 
        International Olympic Games.

    I would like to take just a minute to elaborate on the Commission's 
reasons for taking the position we have on PNTR. The Commission's nine 
voting members come from both political parties and a diversity of 
religions, and a number of them strongly support free trade. Yet the 
Commissioners were unanimous in their report in asking that the 
Congress not grant PNTR to China until substantial improvements are 
made to advance religious freedom. The Commission's reasoning is stated 
in our Report:

          The Commission believes that in many countries, including 
        some of China's neighbors, free trade has been the basis for 
        rapid economic growth, which in turn has been central to the 
        development of a more open society and political system. This 
        belief has been a major factor for the annual decision, by 
        presidents and congressional majorities of both parties, to 
        grant ``most favored nation'' (MFN) trade relations with China 
        each year over the past two decades. Moreover, a grant of PNTR 
        and Chinese membership in the World Trade Organization may, by 
        locking China into a network of international obligations, help 
        advance the rule of law there in the economic sector at first, 
        but then more broadly over time.

          Nevertheless, given the sharp deterioration in freedom of 
        religion in China during the last year, the Commission believes 
        that an unconditional grant of PNTR at this moment may be taken 
        as a signal of American indifference to religious freedom. The 
        government of China attaches great symbolic importance to steps 
        such as the grant of PNTR, and presents them to the Chinese 
        people as proof of international acceptance and approval. A 
        grant of PNTR at this juncture could be seen by Chinese people 
        struggling for religious freedom as an abandonment of their 
        cause at a moment of great difficulty. The Commission therefore 
        believes that Congress should not approve PNTR for China until 
        China makes substantial improvements in respect for religious 
        freedom.

    The Commission does not suggest all the actions outlined above as 
preconditions for PNTR, but as standards to measure progress. We did 
not propose a strict formula, but Congress must weigh the evidence and 
decide how much must be done before PNTR is granted.
    The Commission concluded that these are significant yet ``do-able'' 
requests to make of China and of our own government. The Chinese 
government could announce tomorrow that it intends to ratify the ICCPR, 
commence high-level talks on religious freedom, invite the Commission 
to visit incarcerated religious leaders, and release all elderly, ill 
and under-age religious prisoners. If it did so, this Congress might 
well conclude that such intentions demonstrated sufficient improvement 
in respect for religious freedom to proceed with granting of PNTR. 
Indeed, the vote on PNTR could take place as scheduled next week.
    Mr. Chairman, on behalf of the members of the U.S. Commission on 
International Religious Freedom, thank you for the privilege of 
appearing before this Committee today.

    Senator Brownback. Thank you, Mr. Abrams. I want to inquire 
a little bit about what Rabbi Saperstein said about visas not 
being granted for travel to China. So, I want to inquire some 
further on that in a little bit.
    Dr. Kazamzadeh. I hope I am saying that somewhere close to 
right.

 STATEMENT OF DR. FIRUZ KAZEMZADEH, MEMBER, U.S. COMMISSION ON 
  INTERNATIONAL RELIGIOUS FREEDOM; AND SECRETARY FOR EXTERNAL 
  AFFAIRS, NATIONAL SPIRITUAL ASSEMBLY OF THE BAHA'IS OF THE 
                  UNITED STATES, ALTA LOMA, CA

    Dr. Kazemzadeh. It is quite close, sir.
    Senator Brownback. Very good. Thank you. Welcome. Glad to 
have you here.
    Dr. Kazemzadeh. Thank you very much, Mr. Chairman.
    On the 1st of May, the Commission presented to the Congress 
its report that included a brief analysis of the state of 
religious freedom in Russia and 10 recommendations. The 
Commission noted that today Russia enjoys an incomparably 
greater degree of religious freedom than she did under the 
Soviet regime. The Russian Government, the reports says, ``has 
taken positive steps to promote religious freedom.'' The 
constitution of the Russian Federation guarantees freedom of 
religion within a secular state and the Federal Government has 
by and large adhered to these constitutional guarantees.
    Regrettably, in 1997 the Duma passed the so-called Religion 
Law that created a hierarchy of religious organizations and 
effectively restricted the rights, powers, and privileges of 
smaller, newer, and foreign religious communities. It also 
established an onerous and intrusive registration process and 
other mechanisms of state interference with the activities of 
religious organizations.
    On March 26, President Putin signed the little noticed 
amendment to the 1997 Religion Law extending by 1 year the 
deadline for the registration of religious organizations that 
had not been able to register by December 31, 1999. This 
positive measure was accompanied, however, by a negative one, 
requiring that unregistered groups be liquidated after December 
31, 2000. In addition, the Commission reports, ``in January 
2000, President Putin signed an important directive specifying 
that one of the measures necessary to protect Russian national 
security is a `state policy to maintain the population's 
spiritual and moral welfare and counter the adverse impact of 
foreign religious organizations and missionaries.' ''
    It is too early to say how this legislative amendment and 
directive will be interpreted by regional and local authorities 
who have been the most zealous in denying registration, 
harassing, and liquidating unregistered religious communities, 
including Roman Catholics, Mormons, Baptists, Seventh-Day-
Adventists, Jehovah's Witnesses, and even Orthodox Old 
Believers. The liquidation of unregistered religious 
communities after December 31 of this year would have 
particularly grievous consequences for hundreds, if not 
thousands, of small religious groups. The Commission has 
therefore recommended that the U.S. Government continue, as a 
major diplomatic priority, to make efforts to ensure that 
legitimate religious groups that have not registered by January 
1, 2001 are not liquidated.
    Regional and local authorities have not only interfered in 
practice with the religious freedoms of unregistered groups. 
One-third of Russia's constituent regions have enacted 
regulations that are plainly unconstitutional. Central 
authorities have, however, in most cases failed to enforce 
those aspects of Federal law that protect religious freedom 
and, in many instances, have themselves been guilty of 
violating both national and international human rights 
standards.
    In its report, the Commission observed that in Russia the 
inadequacies of law are exacerbated by three widely shared 
traditional attitudes.
    First, many hold prejudices against ethnic and religious 
minorities, including Muslims, Jews, and various Christian 
groups other than the Russian Orthodox Church.
    Second, among many Russians, longstanding nationalistic 
resentment against foreign influences affects the treatment of 
religious groups that are perceived to have strong foreign 
ties, such as Roman Catholics, Protestants, and some Muslim 
groups.
    Third, is the related belief among some of the members of 
the Russian Orthodox Church and the traditional religions of 
Russia that they should be accorded special privileges and 
protection in contrast to the smaller, newer, and foreign 
religious groups.
    The Commission, having had staff and offices for only 4 
months, had neither time nor opportunity to investigate in 
greater detail the religious situation in the Russian 
Federation, a formidable task considering that country's size, 
the heterogeneity of its population, and the number of 
religious groups active within it. Given the persistent threat 
to religious freedom in Russia and the recurring instances of 
the violation of that freedom, particularly in regions loosely 
supervised by the Federal Government, the Commission will 
monitor and recommend that the U.S. Government continue to 
monitor conditions of religious freedom in Russia.
    The Commission is particularly concerned about local and 
regional regulations enacted in violation of the Russian 
constitution. Such regulations provide provincial authorities 
with a convenient cover, giving the appearance of legitimacy to 
unconstitutional acts. Instances of official harassment have 
been reported from a number of localities in central Russia, in 
Tatarstan, Siberia, and elsewhere.
    Religious, cultural, and ethnic or racial prejudices 
unfortunately exist in all societies. Russia has had a long 
history of virulent anti-Semitism that has varied in intensity 
from place to place and from time to time. Although Judaism has 
been accorded the status of a traditional religion, popular 
anti-Semitism has not disappeared and should be carefully 
watched. Islam is another faith accorded the status of 
traditional religion in Russia. Yet anti-Muslim feelings are 
quite widespread there. The ferocity of the war in Chechnya has 
undoubtedly been exacerbated by the religious element.
    The Commission has noted that: ``While the conflict in the 
Caucasus is primarily political and ethnic in nature, religion 
appears to play a role on both sides of the conflict. Islam 
forms the basis of Caucasian Muslim identity, and it is a 
significant element of resistance to dominance by Moscow. 
Russian authorities, meanwhile, have played upon deep-seated 
and historic prejudices against Muslims to rally domestic 
support for the war.''
    The Commission has recommended that the State Department 
make the humanitarian and human rights crisis in Chechnya a 
high priority issue in its bilateral relations with Russia and 
that Congress continue to include the Smith amendment in its 
appropriations bills until it becomes clear that the Putin 
administration will ensure that Russian laws do not 
discriminate on the basis of religion.
    Ultimately, religious freedom must be assured to the 
peoples of the Russian Federation by its own citizens through 
their own government. Tolerance, the acceptance of religious 
diversity, freedom from ethnic and religious prejudice are not 
easily achieved in any society, let alone in a society that has 
freshly emerged from decades of officially sponsored 
intolerance. Fortunately, Russian culture is not devoid of such 
qualities. One has only to mention the names of Herzen, 
Tolstoy, Solovyev, Chekhov, or Berdyaev to make the point.
    The Commission has recommended, therefore, that: ``the U.S. 
Government should actively promote religious tolerance in 
Russia by providing support to willing non-governmental 
organizations, journalists, and academic institutions engaged 
in programs aimed at preventing intolerance and discrimination 
and supporting international standards on freedom of religion 
and belief. The U.S. Government should also promote religious 
tolerance through appropriate activities such as exhibits, 
conferences, and media and Internet broadcasting, particularly 
in regions where numerous manifestations of intolerance have 
occurred.''
    Unfortunately, religious intolerance is not confined to 
government or secular nationalist groups. Within Russia's 
traditional religious communities that have lived for decades, 
or even centuries, in relative isolation, there is much 
suspicion and at times open antagonism toward the so-called 
foreign religious and newer movements. A number of leaders of 
major religious communities have supported or even promoted the 
Religion Law of 1997, invoking the power or the state to 
protect themselves from the intrusion of unfamiliar ideas.
    To increase mutual understanding through personal contacts, 
the Commission has recommended that: ``the U.S. Government 
should promote contacts with leaders of the Russian Orthodox 
Church and members of other religious communities who may 
benefit from traveling to the United States and meeting with 
American political and religious leaders.''
    In spite of many defects, the Russian legal system provides 
many opportunities to defend human rights and religious 
freedom. In many instances, the courts have put a liberal 
interpretation on the Religion Law of 1997 and have protected 
individual believers and religious communities. Recognizing the 
importance of effective legal advocacy, the Commission has 
recommended that the U.S. Government support ``the activities 
of Russian public interest organizations that defend the right 
of freedom of religion or belief in Russian courts.''
    Russia is a signatory to the Universal Declaration of Human 
Rights and the various covenants that establish freedom of 
religion or belief as a universal standard. It is therefore 
appropriate for the United Nations Commission on Human Rights 
to monitor the status of religious freedom in that country. Yet 
the U.N.'s Special Rapporteur on Religious Intolerance stated 
in his 2000 report to the UNCHR that his request for a site 
visit has not been answered. The Commission, therefore, has 
recommended that the U.S. Government ``encourage the Government 
of Russia to agree to the request of the U.N. Special 
Rapporteur on Religious Intolerance to visit Russia.''
    The Commission believes that the implementation of these 
recommendations would have a positive effect on religious 
freedom in Russia.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Kazemzadeh follows:]

               Prepared Statement of Dr. Firuz Kazemzadeh

    Mr. Chairman, honorable Members of the Committee:
    My name is Firuz Kazemzadeh. I am Professor Emeritus of Russian 
History at Yale University and a member of the United States Commission 
on International Religious Freedom.
    On the first of May the Commission presented to the Congress its 
Report that included a brief analysis of the state of religious freedom 
in Russia, and several recommendations. The Commission noted that today 
Russia enjoys an incomparably greater degree of religious freedom than 
she did under the Soviet regime. The Russian government, the Report 
says, ``has taken some positive steps to promote religious freedom.'' 
The Constitution of the Russian Federation guarantees freedom of 
religion within a secular state, and the federal government has by and 
large adhered to these constitutional guarantees.
    Regrettably, in 1997, the Duma passed the so-called Religion Law 
that ``creates a hierarchy of religious organizations and effectively 
restricts the rights, powers and privileges of smaller, newer, and 
foreign religious communities. It also establishes an onerous and 
intrusive registration process and other mechanism of state 
interference with the activities of religious organizations.''
    On March 26 President Putin signed the little noticed amendment to 
the 1997 Religion Law, extending by one year the deadline for the 
registration of religious organizations that had not been able to 
register by December 31, 1999. This positive measure was accompanied, 
however, by a negative one, requiring that unregistered groups be 
``liquidated'' after December 31, 2000. ``In addition,'' the Commission 
reports, ``in January 2000, President Putin signed an important 
directive specifying that one of the measures necessary to protect 
Russian national security is a `state policy to maintain the 
population's spiritual and moral welfare and counter the adverse impact 
of foreign religious organizations and missionaries.' ''
    It is too early to say how this directive will be interpreted by 
regional and local authorities who have been the most zealous in 
denying registration, harassing, and liquidating unregistered religious 
communities including Roman Catholics, Mormons, Baptists, Seventh-day-
Adventists, Jehovah's Witnesses, and even Orthodox Old Believers. The 
liquidation of unregistered religious communities after December 31 of 
this year would have particularly grievous consequences for hundreds if 
not thousands of small religious groups. The Commission has therefore 
recommended that the United States government continue, as a major 
diplomatic priority, to make efforts to insure that legitimate 
religious groups that have not registered by January 1, 2001 are not 
liquidated.
    Regional and local authorities have not only interfered in practice 
with the religious freedoms of unregistered groups. One-third of 
Russia's constituent regions have enacted regulations that are plainly 
unconstitutional. Central authorities, however, have in most cases 
failed to enforce federal law and in many instances have themselves 
been guilty of violating both national and international human rights 
standards.
    In its Report the Commission observed that in Russia the 
inadequacies of law are exacerbated by three widely shared traditional 
attitudes:
    First, many hold prejudices against ethnic and religious 
minorities, including
. . . Muslims, Jews, and various Christian groups other than the 
Russian Orthodox Church. Second, among many Russians, longstanding 
nationalistic resentment against ``foreign influences'' affects the 
treatment of religious groups that are perceived to have strong foreign 
ties (such as Roman Catholics, Protestants, and some Muslim groups). 
Third is the related belief among some that the Russian Orthodox Church 
or the ``traditional'' religions of Russia should be accorded special 
privileges and protection in contrast to smaller, newer, and 
``foreign'' religious groups.
    The Commission, having been in existence less than a year, had 
neither time nor opportunity to investigate in greater detail the 
religious situation in the Russian Federation, a formidable task 
considering that country's size, the heterogeneity of its population, 
and the number of religious groups active within it. Given the 
persistent threat to religious freedom in Russia and the recurring 
instances of violation of that freedom, particularly in regions loosely 
supervised by the federal government, the Commission will monitor, and 
recommends that the United States government continue to monitor 
conditions of religious freedom in Russia.
    The Commission is particularly concerned about local and regional 
regulations enacted in violation of the Russian Constitution. Such 
regulations provide provincial authorities with a convenient cover, 
giving the appearance of legitimacy to unconstitutional acts. Instances 
of official harassment have reported from a number of localities in 
central Russia, in Tatarstan, Siberia, and elsewhere. This has prompted 
the Commission to recommend that the United States government ``urge 
the Russian government to monitor the actions of regional and local 
officials that interfere with the right to freedom of religion or 
belief and to take steps to bring local laws and regulations on 
religious activities into conformity with the Russian Constitution and 
the international human rights standards.''
    Religious, cultural, and ethnic or racial prejudices unfortunately 
exist in all societies, Russia has had a long history of virulent anti-
Semitism that has varied in intensity from place to place and from time 
to time. Although Judaism has been accorded the status of a 
``traditional religion,'' popular anti-Semitism has not disappeared and 
should be carefully watched. Islam is another faith accorded the status 
of ``traditional religion'' in Russia. Yet anti-Muslim feelings are 
quite widespread there. The ferocity of the war in Chechnya has 
undoubtedly been exacerbated by the religious element. The Commission 
has noted that:

          While the conflict in the Caucasus is primarily political and 
        ethnic in nature, religion appears to play a role on both sides 
        of the conflict. Islam forms the basis of Caucasian Muslim 
        identity, and it is a significant element of resistance to 
        domination by Moscow. Russian authorities, meanwhile, have 
        played upon deep-seated and historic prejudices against Muslims 
        to rally domestic support for the war, which in turn has fueled 
        anti-Muslim attitudes in Russia by making Islam and Muslims 
        synonymous with terrorism and extremism. These actions have 
        apparently had a direct impact on the religious freedom of 
        Muslims who are independent of the officially sanctioned Muslim 
        organizations.

    The Commission has recommended that the State Department make the 
humanitarian and human rights crisis in Chechnya a high priority issue 
in its bilateral relations with Russia and that Congress continue to 
include the ``Smith Amendment'' in its appropriations bills.
    Ultimately religious freedom must be assured to the peoples of the 
Russian Federation by its own citizens through their own government. 
Tolerance, the acceptance of religious diversity, freedom from ethnic 
and religious prejudice are not easily achieved in any society, let 
alone in a society that has freshly emerged from decades of officially 
sponsored intolerance. Fortunately Russian culture is not devoid of 
such qualities. One has only to mention the names of Herzen, Tolstoy, 
Solovyev, Chekhov, or Berdyaev to make the point. The Commission has 
recommended that:

          The United States government should actively promote 
        religious tolerance in Russia by providing support to willing 
        non-governmental organizations, journalists, and academic 
        institutions engaged in programs aimed at preventing 
        intolerance and discrimination and supporting international 
        standards on freedom of religion or belief. The United States 
        government should also promote religious tolerance through 
        appropriate activities such as exhibits, conferences, and media 
        and Internet broadcasting, particularly in regions where 
        numerous manifestations of intolerance have occurred.

    Unfortunately religious intolerance is not confined to the 
government or secular nationalist groups. Within Russia's traditional 
religious communities, that have lived for decades or even centuries in 
relative isolation, there is much suspicion of and at times open 
antagonism toward so called foreign religions and newer movements. A 
number of leaders of major religious communities have supported, or 
even promoted, the Religion Law of 1997, invoking the power of the 
state to protect themselves from the intrusion of unfamiliar ideas. To 
increase mutual understanding through personal contacts and dialogue, 
the Commission has recommended that:

          The United States government should promote contacts with 
        leaders of the Russian Orthodox Church and members of other 
        religious communities in Russia who may benefit from traveling 
        to the United States and meeting with American political and 
        religious leaders. The U.S. government also should encourage 
        appropriate American religious leaders and seminarians in 
        traveling to Russia to discuss issues of tolerance and 
        religious freedom.

    In spite of its many defects the Russian legal system provides many 
opportunities to defend human rights and religious freedom. In many 
instances the courts have put a liberal interpretation on the Religion 
Law of 1997 and have protected individual believers and religious 
communities from overzealous officials. Recognizing the importance of 
effective legal advocacy for the protection of religious freedom in 
Russia, the Commission has recommended that the United States 
government support ``the activities of Russian public interest 
organizations that defend the right to freedom of religion or belief in 
Russian courts. The U.S. government should promote exchanges between 
Russian judges, lawyers, and legal rights organizations with their 
counterparts in the United States.''
    Russia is a signatory to the Universal Declaration of Human Rights 
and the various covenants that establish freedom of religion or belief 
as a universal standard. It is therefore appropriate for the United 
Nations Commission on Human Rights to monitor the status of religious 
freedom in that country. Yet the UN's Special Rapporteur for Religious 
Intolerance stated in his 2000 report to the UNCHR that his request for 
a site visit has not been answered. The Commission therefore has 
recommended that the U.S. government ``encourage the government of 
Russia to agree to the request of the UN Special Rapporteur on 
Religious Intolerance to visit Russia.''
    The Commission believes that the implementation of these 
recommendations would have a positive effect on religious freedom in 
the Russian Federation.
    Thank you, Mr. Chairman and Members of the Committee.

    Senator Brownback. Thank you very much. Thank you for the 
testimony and your thoughts. I look forward to some questions.
    Ms. Nina Shea, thank you very much for joining us.

      STATEMENT OF NINA SHEA, MEMBER, U.S. COMMISSION ON 
   INTERNATIONAL RELIGIOUS FREEDOM; AND DIRECTOR, CENTER FOR 
        RELIGIOUS FREEDOM, FREEDOM HOUSE, WASHINGTON, DC

    Ms. Shea. Thank you, Mr. Chairman. I know you have 
profoundly reflected on what to do about Sudan, having risked 
your life to go there yourself, of course, your staff member, 
Sharon Payt, having survived a bombing raid personally in the 
Nuba Mountains last year. So, I am honored and humbled to be 
here, and I thank you very much for inviting me on behalf of 
the Commission to testify about Sudan.
    Mr. Chairman, the U.S. Commission on International 
Religious Freedom decided to focus on Sudan because we have 
found that the Government of Sudan is the world's most violent 
abuser of the right to freedom of religion and belief. The 
civil war has raged in Sudan for 17 years, a war that ignited 
when the regime in Khartoum attempted to impose Shari'a, or 
Islamic law, on the non-Muslim south, and in which religion 
continues to be a major factor.
    Last January Commissioner Elliott Abrams traveled to Sudan 
and interviewed a church leader who concluded that the 
government would like to remove the church from Sudan, to 
``blow out the candle,'' as he put it so poignantly. Moreover, 
``this persecution is intensifying, making even worse the 
security problems the church faces from the war itself,'' he 
said. ``Islam is the crux,'' he said. The government wants all 
the resources in its hands and wants to use them to create a 
fully Islamic country.
    As it prosecutes its side of the war, the Government of 
Sudan is carrying out genocidal practices against its religious 
and ethnic minorities. Such practices include aerial 
bombardment, scorched earth campaigns, massacre, slavery--and 
recently the Congressional Black Caucus gave estimates that 
between 20,000 and 100,000 women and children are enslaved in 
Sudan--forcible conversion and its most lethal tactic, what 
Senator Frist has termed ``calculated starvation,'' which in 
1998 alone brought 2.6 million to the brink of starvation and 
100,000 did die. This calculated starvation is achieved by 
using brutal means to drive entire communities off their land. 
That is creating vast numbers of internal refugees who are 
dependent on humanitarian relief for survival, while at the 
same time barring international relief flights from delivering 
aid. Estimated at 4.5 million, they number the largest 
internally displaced population in the world. In fact, they 
amount to, according to Mr. Holbrooke's figures, about a 
quarter of the world's total of internal refugees.
    As a direct result of the conflict, some 2 million persons 
have been killed, mostly Christians and followers of 
traditional beliefs in south and central Sudan. This is more 
than Bosnia, Kosovo, Rwanda, and Sierra Leone combined.
    That the Government of Sudan has not yet prevailed in the 
war may be due to the fact that until last year it has been 
financially strapped and in default to the IMF and other 
international lenders. Last August, oil developed in south 
Sudan by foreign companies in a joint venture partnership with 
the Khartoum government came on stream and has begun to provide 
windfall profits for the regime, as well as a critical source 
of new international respectability. As Secretary of State 
Albright acknowledged, the proceeds from the oil revenues will 
be use to support the Sudanese military actions and human 
tragedy in Sudan is likely to become worse.
    There is ample evidence that this is already happening. 
Since February, a Catholic primary school in the Nuba Mountains 
has been bombed, Samaritan's Purse hospital near Juba, operated 
by the family of Rev. Billy Graham, has been bombed five times, 
a clinic at the Voice of the Martyrs, a clinic of Irish 
Concerns, and other relief centers, churches and civilian 
targets in south Sudan have all been bombed by the government 
in one of the most relentless bombing raids of the war.
    A few days after the Nuba Catholic school was bombed, its 
founder, Bishop Macram Gassis, testified before the Commission. 
I wish to share his words, and I quote. ``On February 7th and 
8th, two Russian-built Antinov bombers targeted the heavily 
populated areas around Kuada. The Catholic Church has set up 
the only well-established school in the area with more than 360 
students. Fourteen of these students were killed outright in 
the raid and the number of wounded is yet to be fully 
determined.'' Incidentally, the total killed there was 19 in 
the end.
    The Bishop said, ``Truly this is a slaughter of the 
innocent and an unbridled attempt to destroy the Nubas' hope 
and indeed their future by destroying their children. I have 
tried time and again to tell the world that the National 
Islamic Front regime in Khartoum has been and is conducting a 
campaign of genocide aimed at exterminating the Christian, 
African, and non-Arab populations of Sudan in order to 
establish a uniform Arab Islamic fundamentalist free state in 
the heart of Africa. This terrible heart-breaking incident is 
yet another piece of evidence. If more were still needed, that 
the war in Sudan is a religious--and I underline it is 
religious--and ethnic war launched by Khartoum and aimed at the 
destruction of my people. We cannot take back the 14 martyred 
children under the trees in Kuada. There are many Rachels today 
in the Nuba weeping for the children. What we can do is call 
upon the international community to refuse to stand by idly 
while the African and Christian peoples of the Sudan are 
exterminated.''
    Mr. Chairman, in addition to the conflict which the 
Sudanese Government declares to be a jihad against both non-
Muslims and dissident Muslims, the regime is responsible for 
other forms of religious persecution throughout the country. 
These concern the Commission as well. Muslims who do not 
subscribe to the government's extremist interpretation of Islam 
are persecuted. They are forced to conform in their dress, 
their prayers, their practices, and in their sermons to the 
regime's strict interpretation of Islam. Other Muslims are 
perceived as disloyal to the regime and thus are declared 
apostate and targeted for death.
    Christian schools were nationalized in 1992. Christian 
churches and prayer centers continue to be demolished in the 
north, and the government has not granted permission to build 
or repair a church in the area controlled in over 30 years. The 
regime suppresses Christian and African traditional religions 
in a variety of ways.
    The scope of the humanitarian tragedy of Sudan dwarfs all 
those of other recent conflicts, and yet Sudan receives far 
less international attention. Neither the international 
community nor the United States has any plan to address the 
mounting tragedy in Sudan. Although the United States has 
imposed against Sudan trade and financial sanctions for 
American companies and provides massive amounts of humanitarian 
relief, these steps do not respond to the underlying 
catastrophe in Sudan. Nor does current policy address the 
question of whether the Sudanese Government's actions 
constitute not only war crimes and crimes against humanity, but 
actually amount to genocide.
    Mr. Chairman, in its report, the Commission proposes a 
comprehensive set of policy options to significantly strengthen 
the United States' response to the crisis in Sudan. The 
Commission's recommendations provide both disincentives and 
incentives for the Sudanese Government to comport with 
international standards of religious freedom and other basic 
human rights. These include bringing world moral opprobrium to 
bear upon the genocidal regime by raising the profile of the 
atrocities in Sudan, by giving them greater priority, and 
determining whether it is a genocide. They also include 
providing nonlethal aid to opposition groups in order to 
strengthen the defenses of the vulnerable civilian populations, 
once certain conditions are met.
    In addition, the Commission recommends increasing economic 
pressure on the regime, especially by restricting foreign 
companies involved in Khartoum's strategic oil industry from 
raising money in U.S. capital markets. The Commission calls for 
greater transparency and disclosure for foreign companies 
engaged in Sudan's oil sector that are seeking to obtain 
capital in the U.S. markets.
    Mr. Chairman, you and other Members of Congress asked the 
SEC for a 90-day cooling down period to review the filing of 
PetroChina, before it had its IPO, in order to examine the 
implications of it entering the market. But we are aware that 
the SEC rejected that request. We believe that more 
clarification and disclosure is needed about whether the 
proceeds from that IPO will find their way to Sudan.
    And also because of the extremely egregious, in fact 
genocidal, nature of the religious persecution in Sudan, the 
Commission urges that access to U.S. stock and bond markets be 
restricted in this specific case, and that is to those foreign 
companies engaged in business with a designated sanction entity 
in Sudan, which is itself sanctioned. What I am talking about 
is the Greater Nile Oil Project.
    In undeveloped countries, such as Sudan, is the sanctioning 
of investment rather than trade that will bring real pressure 
upon the regime. Last year overall foreign activity in the U.S. 
securities markets was twice the level of 1995, and we are 
entering a new era in which Sudan is poised to obtain more 
resources from American investors than from the IMF.
    I would like to at this point acknowledge the tremendous 
contribution of Roger Robinson of the Casey Institute who is 
sitting behind me today and who has testified before the 
Commission, for Mr. Robinson really pioneered this area by 
drawing attention to the need for greater transparency in U.S. 
capital markets.
    Because the regime continues its genocidal practices, the 
Commission's recommendations also set forth measures to 
ameliorate the agony of the targeted populations in south and 
central Sudan. These include ensuring food aid reaches starving 
communities by channeling more aid outside the U.N. system, 
supporting through peaceful means a military no-fly zone, and 
strengthening an infrastructure to sustain civilian life.
    The Commission's recommendations, for the most part, are 
based on the same principles that proved so effective in ending 
apartheid in South Africa during the 1980's; that is, 
identifying the Sudanese Government as a pariah state and 
intensifying its economic isolation. None of the Commission's 
recommendations call for the involvement of U.S. troops or U.N. 
peacekeeping forces. They do not risk involving the United 
States in a dangerous quagmire of financial and military 
obligations. They do require American resolve and leadership.
    In the half century since the ratification of the 
Convention on the Prevention and Punishment of the Crime of 
Genocide, the world community has rarely invoked it or applied 
its definitions. Typically when it has been used, it has been 
used years after the fact, after the killing has stopped and 
the mass graves have been exhumed, as was the case in Cambodia, 
or when it has helped to justify a decision to intervene 
militarily, such as in Bosnia and Kosovo. These past 
occurrences of genocide fill the pages of our newspapers to 
this day, and they continue to haunt our policy leaders. The 
Commission's recommendations are intended to help while lives 
remain to be saved and to do so through peaceful means.
    Mr. Chairman, that concludes my testimony. The further 
details of the Commission's recommendations are included in the 
report itself and in my written testimony.
    Thank you very much.
    [The prepared statement of Ms. Shea follows:]

                    Prepared Statement of Nina Shea

    Mr. Chairman and Members of the Committee:
    On behalf of the U.S. Commission on International Religious 
Freedom, on which I serve, I wish to thank the Committee for inviting 
me to testify before you today about religious freedom in Sudan.
    Mr. Chairman, the U.S. Commission on International Religious 
Freedom decided to focus on Sudan because we have found that the 
government of Sudan is the world's most violent abuser of the right to 
freedom of religion and belief. As it prosecutes its side of a 17-year-
old civil war--a war that ignited when the regime in Khartoum attempted 
to impose Sharia, or Islamic law, on the non-Muslim south and in which 
religion continues to be a major factor--the government of Sudan is 
carrying out genocidal practices against its religious and ethnic 
minorities. Such practices include aerial bombardment, scorched earth 
campaigns, massacres, slavery, forcible conversion, and its most lethal 
tactic, what Senator Frist has termed ``calculated starvation.'' (The 
latter is achieved by creating through brutal means vast numbers of 
internally displaced persons--estimated at 4.5 million they number the 
largest internal refugee population in the world--who are dependent on 
humanitarian relief for survival, while barring international relief 
flights from delivering aid.) As a direct result of the conflict, some 
two million persons have been killed, mostly Christians and followers 
of traditional beliefs in south and central Sudan.
    That the government of Sudan has not yet prevailed in the war may 
be due to the fact that, until last year, it has been financially 
strapped, and in default to the IMF and other international lenders. 
Last August, oil developed in south Sudan by foreign companies in a 
joint venture partnership with the Khartoum government came on stream, 
and has begun to provide windfall profits for the regime, as well as a 
critical source of new international respectability. The proceeds from 
the oil revenues will be used to support the Sudanese military's 
actions, and the human tragedy in Sudan is likely to become worse. 
There is ample evidence that this is already happening: since February, 
a Catholic primary school in the Nuba mountains, Samaritan's Purse 
hospital, near Juba, operated by the family of Rev. Billy Graham, a 
clinic of Voice of the Martyrs, a clinic of Irish Concern, and other 
relief centers, churches and civilian targets in south Sudan have been 
bombed by the government in one of the most relentless bombing raids of 
the war.
    In addition to the conflict, which the Sudanese government declares 
to be a jihad (against both non-Muslims and dissident Muslims), the 
regime is responsible for other forms of religious persecution 
throughout the country. These concern the Commission as well. Muslims 
who do not subscribe to the government's extremist interpretation of 
Islam are persecuted. Christian schools were nationalized in 1992. 
Christian churches and prayer centers continue to be demolished, and 
the government has not granted permission to build or repair a church 
in over 30 years. The regime suppresses Christian and African 
traditional religions in a variety of ways.
    Neither the international community nor the United States has any 
plan to address the mounting tragedy in Sudan. Although the United 
States has imposed against Sudan trade and financial sanctions for 
American companies, and provides massive amounts of humanitarian 
relief, these steps do not respond to the underlying catastrophe in 
Sudan. Nor does current policy address the question of whether the 
Sudanese government's actions constitute not only war crimes and crimes 
against humanity, but actually amount to genocide.
    Mr. Chairman, distinguished Senators, in its report, the Commission 
proposes a comprehensive set of policy options to significantly 
strengthen the United States' response to the crises in Sudan. The 
Commission's recommendations emphasize the need for an intensive 
diplomatic effort over the next 12 months to stop genocidal actions and 
human rights abuses, providing both disincentives and incentives for 
the Sudanese government to comply with international standards of 
religious freedom and other basic human rights. These include bringing 
world moral opprobrium to bear upon the genocidal regime and providing 
non-lethal aid to opposition groups in order to strengthen the defenses 
of the vulnerable civilian populations.
    In addition, the Commission recommends increasing economic pressure 
on the regime, especially by restricting foreign companies involved in 
Khartoum's strategic oil industry from raising money in U.S. capital 
markets. The Commission calls for greater transparency and disclosure 
for foreign companies engaged in the development of the oil and gas 
fields in Sudan that are seeking to obtain capital in U.S. markets, but 
also, because of the extremely egregious, in fact genocidal, nature of 
the religious persecution in Sudan, the Commission urges that access to 
U.S. stock and bond markets be restricted in this specific case. In an 
underdeveloped country such as Sudan, it is the sanctioning of 
investment rather than trade that will bring real pressure upon the 
regime. Last year, overall foreign activity in U.S. securities markets 
was twice the level of 1995, and we are entering a new era in which 
Sudan is poised to obtain more resources from American investors than 
from the IMF.
    Because the regime continues its genocidal practices, the 
recommendations also set forth measures to ameliorate the agony of the 
targeted population in south and central Sudan. These include ensuring 
food aid reaches starving communities by channeling more aid outside 
the United Nations' system, supporting through peaceful means a 
``military no-fly zone,'' and strengthening an infrastructure to 
sustain and stabilize civilian life.
    The Commission's recommendations for the most part are based on the 
same principle--intensifying the economic isolation of the Sudanese 
government as a pariah state--that proved so effective in ending 
apartheid in South Africa during the 1980s. None of the Commission's 
recommendations calls for the involvement of U.S. troops or UN 
peacekeeping forces. They do not risk involving the United States in a 
dangerous quagmire of financial and military obligations. They do 
require American resolve and leadership. In the half century since the 
ratification of the Convention on the Prevention and Punishment of the 
Crime of Genocide, the world community has rarely invoked it or applied 
its definitions. Typically, when it has been used, it has been years 
after the fact, after the killing has stopped and the mass graves have 
been exhumed, as was the case in Cambodia, or when it has helped to 
justify a decision to intervene militarily, such as in Bosnia and 
Kosovo. These past occurrences of genocide fill the pages of our 
newspapers to this day and they continue to haunt our policy leaders. 
The Commission's recommendations are intended to help in time to save 
lives, and to do so through peaceful means.
    In reaching these recommendations, the Commission made an on-site 
visit to southern Sudan, conducted its own hearings and research, met 
with religious and other non-governmental organizations (``NGOs''), 
reviewed the public reports of the State Department and obtained 
information from other agencies. The State Department has withheld 
certain documents relating to the application of economic sanctions on 
Sudan on grounds of executive privilege, and more importantly resisted 
on the same grounds making available to the Commission embassy cables, 
even though Commissioners and senior staff hold the requisite security 
clearances.
    A more detailed discussion of the Commission's concerns and 
recommendations regarding Sudan follows:

                      1. THE HUMANITARIAN TRAGEDY
    Since 1983, when the second phase of the civil war began, almost 2 
million people have died in Sudan as a direct result of the war, most 
of whom died from starvation.\1\ Another 4.5 million have been 
displaced inside the country.\2\ This amounts to nearly a quarter of 
all such internal refugees worldwide. There are 1.5 million internally 
displaced persons (IDPs) in Khartoum alone. Many internal refugees live 
in squalid conditions in what the government of Sudan euphemistically 
calls ``peace camps.'' These refugee camps have only primitive 
sanitation facilities, are largely dependent on food supplied by the 
United Nations, and provide their inhabitants with virtually no means 
of self-support. In some camps, the inmates are forced to convert to 
Islam before they or their children can receive food and medicine.
---------------------------------------------------------------------------
    \1\ UN Special Rapporteur for Sudan, Situation of human rights in 
the Sudan: Addendum, May 17, 1999, para. 42.
    \2\ Ibid.
---------------------------------------------------------------------------
    Despite the desperate needs of the Sudanese people, the government 
of Sudan prohibits international relief missions from bringing food to 
many who are seriously affected. Although Operation Lifeline Sudan 
(OLS), the United Nations humanitarian relief mission for Sudan, sought 
to provide food relief for the starving population, the government 
continued its ``no flight'' ban on these famine areas and advised that 
it would shoot down any UN or NGO plane attempting to make humanitarian 
flights to the region. OLS and many NGOs agreed to the conditions 
imposed by the government. Recently, the World Food Programme issued an 
urgent notice that a serious famine is expected to strike Sudan this 
year (2000) in the hard-hit regions of Bahr al-Ghazal and Darfur. The 
government continues to veto food delivery flights in various areas. 
There are several NGOs that step into the breach and deliver food and 
other aid to areas covered by the flight ban imposed by the Sudanese 
government. These ``non-OLS'' NGOs run the risk of being attacked and 
shot down by the government's armed forces.
    At the same time, attacks on civilians continue unabated. On 
February 8, 2000, three weeks after the Sudanese government declared a 
cease-fire, one of its planes dropped between three and six bombs on 
the Comboni Primary School, a Catholic missionary school in the Nuba 
Mountains. The bombs immediately killed 14 children and a 22-year-old 
teacher. The survivors of the attack carried 18 wounded children, some 
with limbs blown off, to a nearby German medical facility, one of many 
such makeshift medical facilities operating in hazardous locations 
throughout Sudan. A videotape recorded the aftermath of the 
slaughter.\3\ Five of the wounded children later died of their 
injuries.\4\ Bishop Macram (Max) Gassis, whose diocese includes the 
Comboni School, testified before the U.S. Commission on International 
Religious Freedom's hearing on Sudan just one week after the attack: 
``Truly, this is a slaughter of innocents, an unbridled attempt to 
destroy the Nubas' hope and indeed their future by destroying their 
children.'' \5\ The Commission has documented several such cases during 
the first quarter of this year.
---------------------------------------------------------------------------
    \3\ When shown the videotape of the Comboni school bombing, a 
Sudanese government official in Nairobi, Dirdieiy Ahmed, responded that 
``the bombs landed where they were supposed to land. The bombs landed 
into a military camp. The SPLA has pulled people into this military 
camp.'' Godfrey Mutizwa, Reuters, ``Sudan school still in shock after 
fatal air strike,'' February 11, 2000. Days later, Sudanese Foreign 
Minister Mostaf Osman Ismail accused rebel forces of amassing troops in 
the target area and stated, ``If there were civilian groups there, then 
this was a regrettable matter and the Sudanese government hopes that 
this will not happen again.'' Associated Press, ``Government says 
rebels had troops in area where school was bombed,'' February 14, 2000. 
A few weeks later, Justice Minister Mi Mohamed Osman Yassin, told U.S. 
envoy Harry Johnston, who was then in Khartoum, that the bombing of the 
school and the killing of the children was a ``mistake.'' Reuters, 
``Report: Sudan tells U.S. Nuba Raid was `Mistake,' '' March 6, 2000. 
But even as Mr. Yassin disavowed the motives behind the Comboni attack, 
the Sudanese military was bombing the Samaritan's Purse hospital. Linda 
Slobodian, ``No Excuses for Bombing,'' Calgary Sun, March 7, 2000. For 
other examples of recent bombings of civilian targets, see Sudan 
Appendix I below.
    \4\ Gabriel Meyer, ``Sudan After the Bombs,'' National Catholic 
Register, March 26-April 1, 2000. The Comboni Primary School is a 
Catholic school, named after Daniel Comboni (1831-1881), the first 
Roman Catholic Bishop of Khartoum.
    \5\ USCIRF, Hearing on Sudan (Gassis testimony), 19. On February 
15, 2000, the U.S. Commission on International Religious Freedom held a 
day-long hearing on Sudan. The hearing was designed to elicit evidence 
for Commissioners on the situation in Sudan as it relates to religious 
persecution. The Commission heard testimony from various witnesses, 
including human rights activists, humanitarian relief workers, 
religious leaders and others--Sudanese and non-Sudanese--with direct 
knowledge of the situation in Sudan. Hearing testimonies, in addition 
to numerous interviews with other experts by Commission staff, which 
are included throughout this memorandum, have been instrumental in the 
development of the Commission's findings and recommendations.
---------------------------------------------------------------------------
    By any reasonable application of international law, the persons 
responsible for these attacks on civilian populations and humanitarian 
workers are guilty of ``committing crimes against humanity'' and should 
be held accountable by all civilized governments of the world. The 
Commission has concluded that by the nature of its actions, the 
government of Sudan has engaged in genocidal activity, and includes 
among its policy recommendations a request that the U.S. State 
Department determine whether Khartoum has violated the 1948 Genocide 
Convention.
    The issue of slavery and slavery-like practices is a terrible 
problem in Sudan. While the practices of inter-tribal raids, abductions 
and ransoming have historical roots in Sudan, as the Secretary of State 
stated before the UN Commission on Human Rights last March, the 
government of Sudan itself is responsible for slavery. The most 
flagrant example of the government's support for the practice of 
slavery takes place along the 445 kilometer railroad track from 
Babanusa (Western Kordofan) through Aweil to Wau (Bahr al-Ghazal), in 
the form of raids on villages by government-backed murahalin 
militiamen. The murahalin are mostly Arabic-speaking and Muslim Baggara 
tribesman, who are traditional rivals of the indigenous Dinka tribes 
that live near the railway in northern Bahr al-Ghazal. The government 
arms (although it does not pay) the murahalin to protect the government 
supply train which leads to the garrison town of Wau. Jemera Rone of 
Human Rights Watch/Africa explains:

          The muraheleen descend on civilian villages on horseback, 
        armed with the government's automatic weapons. The raids are 
        conducted where there is no SPLA presence; the objective is not 
        to kill enemy troops but to enslave ``enemy'' civilians and 
        weaken the Dinka, economically and socially. The Dinka are 
        outgunned and horseless; they cannot protect their women, 
        children, or cattle. Those who resist are killed.\6\
---------------------------------------------------------------------------
    \6\ U.S. Congress, House Committee on International Relations, 
Subcommittee on International Operations and Human Rights and 
Subcommittee on Africa, Crises in Sudan and Northern Uganda, 105th 
Cong., 2d Sess., 1998.

    Thus, rather than limiting their work to protecting the train from 
rebels, these armed militias terrorize and intimidate Dinka villagers. 
The exact number of those abducted and enslaved is not known. The 
Congressional Black Caucus estimates that tens of thousands of women 
and children, mainly from Bahr al-Ghazal, have been abducted and raped, 
remain in captivity, and are used as slaves.\7\ There are reports by 
human rights groups that those enslaved are frequently abused and 
mistreated, and that local law enforcement authorities regularly fail 
to assist families of abducted individuals or to prosecute those 
responsible.\8\ This led Human Rights Watch to conclude that ``the 
government of Sudan is guilty not only of knowingly arming, 
transporting and assisting the slave-raiding militia, it also is guilty 
of not enforcing its own laws against kidnaping, assault, and forced 
labor.'' \9\
---------------------------------------------------------------------------
    \7\ Congressional Record, 106th Cong., 146, H1753.
    \8\ Human Rights Watch, Background Paper on Slavery and Slavery 
Redemption in the Sudan, March 12, 1999.
    \9\ Human Rights Watch, Background Paper on Slavery.
---------------------------------------------------------------------------
         2. persecution of christians and traditional believers
    Since the NIF-backed coup of 1989, discrimination and serious 
violations of religious freedom increased dramatically. Non-Muslims in 
Sudan, both Christians and followers of traditional beliefs, in essence 
have become second-class citizens subject to a wide range of 
violations, including the misapplication of hudud, legal and social 
discrimination, forcible conversions to Islam and religious coercion, 
restrictions on religious institutions, harassment of religious 
personnel, and persecution.
    In spite of the government's rhetoric claiming that it respects the 
rights of followers of the ``revealed religions,'' Christians of all 
denominations and backgrounds in Sudan are subjected to repression, 
discrimination, and persecution. These include restrictions on 
operations of their churches and on church personnel, harassment, and 
persecution. The government has not allowed the building or repair of 
churches in Khartoum since 1969.\10\ According to Human Rights Watch, 
between 30 and 50 Christian schools, centers and churches have been 
demolished by government authorities in Khartoum state since 1989 
ostensibly because they lacked the proper permits.\11\ According to 
Bishop Macram Gassis, a total of 750 Christian schools have already 
been confiscated by the government.\12\ The government rarely grants 
building permits to Christian institutions, while permits for mosques 
and other Islamic institutions are readily attainable.\13\ Numerous 
churches and church properties have been bulldozed or confiscated on 
the grounds of not fulfilling rigid requirements, or of any other 
pretext supplied by Sudanese authorities. In June 1999, the government 
served eviction notices on the Episcopal bishop and all other church 
personnel of the Episcopal diocese in Omdurman, and ordered them to 
vacate the headquarters, Afler ecumenical demonstrations, the 
government returned the headquarters.\14\ Government authorities 
confiscated the Catholic Club in Khartoum. In some areas, such as the 
province of Damazin, Christian preaching has been outlawed 
altogether.\15\ The government also intimidates and harasses Christian 
leaders critical of the regime by charging them with both ordinary and 
security-related crimes. For example, in 1998, a military court tried 
Fr. Hilary Boma and Fr. Leno Sebit, chancellor of the Archdiocese of 
Khartoum, along with 24 others for ``conspiracy and sabotage.'' The 
government released Boma and Sebit in December 1999, following 
international pressure.
---------------------------------------------------------------------------
    \10\ Boyle and Sheen, Freedom of Religion, 75; UN Special 
Rapporteur on Religious Intolerance, Implementation of the Declaration, 
November 11, 1996, para. 94.
    \11\ Human Rights Watch, World Report 2000, 78.
    \12\ USCIRF Hearing on Sudan (Gassis testimony), 21.
    \13\ Human Rights Watch, World Report 2000, 78.
    \14\ Abel Alier, interview with Commission staff, U.S. Commission 
on International Religious Freedom, Washington, D.C., February 8, 2000.
    \15\ USCIRF, Hearing on Sudan (Biro testimony), 29.
---------------------------------------------------------------------------
    At the same time, Sudanese regimes, past and present, have made no 
secret of the their designs to eventually integrate the southern 
populations through a systematic program of Islamization. Differences 
between the current military regime and previous governments, thus are 
in degree rather than substance. The current government of Sudan, like 
all those before it, does not recognize the legitimacy of traditional-
indigenous beliefs and views the south largely as a ``blank slate'' to 
be converted to Islam.\16\ The regime has sought to eliminate 
traditional-indigenous religions, particularly in the ``frontier 
zones'' bordering the south such as the Nuba Mountains and the 
Ingessana Hills.
---------------------------------------------------------------------------
    \16\ See Badal, ``Religion and Conflict,'' 263, 267.
---------------------------------------------------------------------------
    There are reports of individuals being forcibly or otherwise 
coercively converted to Islam. Forcible or coercive actions have 
occurred among the Nuba of Southern Kordofan and the Gamk of the 
Ingessana Hills in Southern Blue Nile, and elsewhere in the south such 
as Bahr al-Ghazal. Much of this religious coercion takes place in so-
called ``peace villages''--a cynical euphemism employed by the 
government officials to describe camps for the mostly non-Muslim 
Sudanese who have been forcibly removed from their homes and villages 
by government or government-backed militia forces. Nearly one-third of 
the Nuba population have been forcibly removed from their homes and 
villages and resettled in the peace villages.\17\ In addition to 
government-backed militias, semi-official relief organizations are also 
reported to be involved in religious coercion of non-Muslims. The Dawah 
Islamiyya, for example, which operates in a number of refugee camps, is 
reported to distribute food aid ``in a selective fashion, either to 
Muslims or to those who agree to embrace Islam.'' \18\ Meanwhile, the 
1991 Penal Code criminalized apostasy, and subsequent court rulings 
have rendered it a capital offense. \19\ Conversion from another 
religion to Islam, however, is not considered ``apostasy,'' but rather 
is promoted as a matter of policy by the government of Sudan.
---------------------------------------------------------------------------
    \17\ Lesch, Sudan, 163. See also Mark Bradbury, ``International 
Responses to War in the Nuba Mountains,'' Review of African Political 
Economy 25, no. 77 (September 1998): 463-474, 465. For a quantitative 
account of forcible resettlement, see Millard Burr, Working Document 
II: Quantifying Genocide in Southern Sudan and the Nuba Mountains, 
1983-1998 (December 1998).
    \18\ Bulad, ``Triple Genocide,'' 22.
    \19\ UN Special Rapporteur on Religious Intolerance, Implementation 
of the Declaration, November 11, 1996, para. 20.
---------------------------------------------------------------------------

                       3. PERSECUTION OF MUSLIMS
    Muslims in Sudan are not immune to religious repression by the 
regime. The government of Sudan violates the religious freedom rights 
of Muslims in Sudan primarily in two ways. The first is through the 
compulsory enforcement of Muslim religious observance as interpreted by 
the government. The regime has thus sought to monopolize the discourse 
on Islam to the exclusion of all other views. As many Muslim critics 
point out, despite Quranic injunctions against ``compulsion in 
religion'' (Quran 2:256), in many instances the government has made 
otherwise personal religious observances, such as daily prayers and 
fasting, compulsory. For example, government employees are required to 
attend congregational prayers and women are not given the option of 
whether or not they choose to wear the Islamic head scarf (hijab).\20\ 
At the same time, Friday sermons in the mosques must first be vetted by 
a government commission. Imams who refuse to comply are prevented from 
preaching. The regime pressures Muslim preachers to preach loyalty to 
the regime and they may be replaced, harassed, or otherwise ill-treated 
if they refuse to do so.
---------------------------------------------------------------------------
    \20\ Lawyers Committee for Human Rights, Beset by Contradictions, 
23. See also Julie Flint, ``In the Name of Islam,'' Africa Report (May-
June 1995): 34-37, 37.
---------------------------------------------------------------------------
    Second, the Sudanese government targets Muslim groups and ``sects'' 
who are seen as part of the military and political opposition to the 
government. These include traditional sectarian movements such as the 
Khatimiyya, Ansar, Ansar al-Sunnah, and Samaniyya, as well as Muslim 
communities in the ``frontier zones'' (Nuba Mountains, Darfur, Red Sea, 
and Ingessana) who are either suspected of collaborating with rebels of 
the Sudanese People's Liberation Army or of practicing a form of Islam 
that is not deemed to be ``pure.'' \21\
---------------------------------------------------------------------------
    \21\ According to Abdelfattah Amor, the Special Rapporteur on 
Religious Intolerance, it is the official policy of the Sudanese to 
impose ``its truth regarding Islam on an erroneous local version of 
Islam,'' UN Special Rapporteur on Religious Intolerance, Implementation 
of the Declaration, November 11, 1996, para. 116.
---------------------------------------------------------------------------
    The government of Sudan has particularly attacked the Khatimiyya 
and the Ansar, which are linked to the banned Democratic Unionist Party 
(DUP) and (until recently) Umma Party respectively. During the past few 
years, the DUP and Umma have been the two largest Muslim opposition 
movements.\22\
---------------------------------------------------------------------------
    \22\ In addition to posing challenges to the political hegemony of 
the Islamists, both the Khatimiyya and the Ansar are rooted in Sufism, 
Islamic mysticism, and are philosophically in opposition to the NIF. 
The NIF and its parent organization the Muslim Brotherhood are of the 
Salafi orthodox trend that is hostile to both traditionalism and 
mysticism.
---------------------------------------------------------------------------
    In 1993 the government of Sudan secured a religious edict (fatwa) 
declaring all those who oppose the regime to be ``apostates.'' 
Government forces were thereby granted license to attack Muslims of the 
Nuba and other areas at will and the regime's forces have destroyed or 
desecrated numerous mosques and Muslim institutions. Attacks on Muslims 
in the Nuba Mountains, whether by government aerial bombardment or by 
gangs acting on behalf of the regime, became so common that many Nuba 
leaders believe that the regime has attacked more mosques than it has 
churches.\23\
---------------------------------------------------------------------------
    \23\ African Rights, Facing Genocide, 293; Burr, Quantifying 
Genocide, 20-36.
---------------------------------------------------------------------------

                       4. OIL AND CAPITAL MARKETS
    The terrible situation in Sudan is likely to become worse. The 
Sudanese government, which has been waging a campaign of death and 
destruction against its own people, is now receiving windfall profits 
from oil fields in south central Sudan. Sudan has proven oil reserves 
of 262 million barrels and estimated reserves of more than eight 
billion barrels. With the completion in mid-1999 of an oil pipeline 
from south-central Sudan to the Red Sea, Sudan's daily crude output 
rose dramatically from an estimated 12,000 barrels in 1998 to 150,000 
barrels in 1999, and is expected to reach 250,000 barrels in 2000.\24\ 
Experts estimate that the Sudanese government will derive approximately 
$300-400 million annually from the new pipeline.\25\ These oil profits 
will provide the government with funds to increase its purchases of 
military equipment, which will in turn be used to further its campaigns 
against religious, racial, and ethnic minorities.
---------------------------------------------------------------------------
    \24\ Energy Information Administration, ``Sudan,'' (November 1999), 
(http://www.eia.doe.gov/cabs/sudan.html accessed April 29, 2000).
    \25\ USCIRF, Hearing on Sudan (Reeves testimony), 104.
---------------------------------------------------------------------------
    There is a critical linkage between oil and gas production and 
human rights violations in Sudan. The government of Sudan destroyed a 
number of villages surrounding the Bentiu oil fields in order to rid 
them of human habitation. The proceeds from the oil revenues will, in 
turn, continue to be used to support the Sudanese military's actions 
against other regions of the country. The Harker investigation feared 
that oil extraction may be contributing to the ``forced relocation'' of 
civilian populations living near the oil fields and concluded that, 
``[i]t is difficult to imagine a cease-fire while extraction continues. 
. . .'' \26\ The State Department echoed that sentiment through 
Secretary Albright's then-spokesman James Rubin, who noted that new oil 
revenues ``provided a new source of hard currency for a regime that has 
been responsible for massive human-rights abuses and sponsoring 
terrorism outside Sudan,'' and added that the United States is ``very 
concerned that investment in the Sudanese oil sector strengthens the 
capacity of the Khartoum regime to maintain and intensify its brutal 
war against its own people.'' \27\
---------------------------------------------------------------------------
    \26\ Harker, Human Security in Sudan, 16.
    \27\ Jeff Sallot and Steven Chase, ``U.S. rebukes Ottawa on Sudan: 
Axworthy backs down on threat to impose sanctions against Talisman for 
fueling civil war,'' Globe and Mail, February 15, 2000.
---------------------------------------------------------------------------
    In this context, the Commission was alarmed by reports in late 
1999, that the China National Petroleum Company (CNPC), a 40 percent 
stakeholder in a joint venture to develop the Sudanese oil and gas 
fields, was poised to obtain additional funds from the U.S. capital 
markets on a huge scale. According to those reports, CNPC was planning 
to make an initial public offering (IPO) of equity shares in the amount 
of $10-12 billion. At that level, the IPO would have been one of the 
largest ones ever made on the New York Stock Exchange.
    In response, the Commission studied the applicability of the 
President's economic sanctions and the disclosure requirements of the 
Securities and Exchange Commission (SEC) to such an IPO, in 
consultation with the Department of the Treasury's Office of Foreign 
Assets Control (OFAC) and the SEC. In October 1999, the Commission 
urged President Clinton and top White House officials to prevent the 
IPO. The Commission also focused a substantial part of its February 14, 
2000 hearing on Sudan on this sort of use of our capital markets.
    In the face of the issues raised by the Commission and others, CNPC 
restructured itself, placing its domestic operations in a wholly-owned 
subsidiary, PetroChina Company Limited, and retaining its international 
operations. On the basis of a registration statement filed by 
PetroChina with the SEC, PetroChina and CNPC each offered and sold 
PetroChina shares on the U.S. market in early April 2000. The 
registration statement said that some of CNPC's proceeds might go into 
retirement of its debt, but left unclear whether any of that debt was 
incurred in developing the Sudan oil fields. OFAC, which administers 
the Sudanese Sanctions Regulations, opined that these shares could be 
purchased so long as there was no ``clear statement'' that CNPC would 
use the proceeds to retire Sudan-related debt. As a result, millions of 
those dollars from CNPC's sale of PetroChina shares may well end up 
benefitting GNPOC. Also, this and other interpretations by OFAC have 
clarified that a foreign-organized company may engage in revenue-
generating activities in both Sudan and the United States without 
violating the sanctions regulations.

               5. FINAL OBSERVATIONS AND RECOMMENDATIONS
    During the last several months, the Commission met with, and heard 
in its hearings from, foreign policy experts, humanitarian 
organizations doing work in Sudan, Sudanese religious leaders, other 
leaders from the beleaguered areas, legal experts on war crimes, and a 
variety of experts on the use of sanctions. In this process, the 
Commission learned that U.S. government attempts to enhance religious 
freedom depended on the effectiveness of our policies in addressing the 
broader conflict in that nation. And it was equally clear that efforts 
to help end the civil war needed a new impetus.
    Toward that end, the Commission has proposed a comprehensive 12-
month plan to significantly strengthen the United States' response to 
this crisis. In addition, the Commission recommends increasing economic 
pressure on Khartoum by tightening the current U.S. sanctions on the 
Khartoum government and constricting the ability of foreign-organized 
firms doing business with Sudan to raise money in U.S. capital markets. 
The Commission met with President Clinton in October 1999 to brief him 
on its work and to ask him to strengthen U.S. efforts to address the 
urgent issues of Sudan and its violations of human rights and religious 
freedom.
Recommendations on Sudan
    <bullet> The United States should continue to increase its 
humanitarian aid to the people of Sudan and, in particular, increase 
the percentage of that aid that flows outside the United Nations' food 
program, and should engage in vigorous multilateral and bilateral 
efforts to encourage other governments to follow suit.

    <bullet> The United States should begin a 12-month plan of 
incentives and disincentives to pressure Sudan's government to improve 
human rights. If there is not measurable improvement in religious 
freedom in Sudan at the end of that period, the United States should be 
prepared to provide non-lethal and humanitarian aid to appropriate 
opposition groups. During the 12 months, the United States should:

          (a) launch a vigorous campaign, led by the President, to 
        inform the world of Sudan's war crimes, crimes against 
        humanity, and genocidal activities;

          (b) engage in vigorous multilateral and bilateral efforts to 
        increase economic and other pressure on the Sudanese 
        government;

          (c) identify specific criteria to measure the Sudanese 
        government's actions and create linkages between Sudan's 
        actions and the United States' responses;

          (d) include specific criteria for measuring whether 
        opposition groups have made identifiable efforts to adhere to 
        international human rights norms;

          (e) if after 12 months Sudan has not made measurable progress 
        toward ending human rights violations and if opposition groups 
        have taken steps to improve their human rights record, provide 
        direct non-lethal aid to appropriate opposition groups; and

          (f) be prepared to provide aid sooner if the situation 
        deteriorates markedly.

    <bullet> The Administration should increase its financial and 
diplomatic support for the Intergovernmental Authority on Development 
(IGAD) peace negotiations and persuade Egypt to participate.

    <bullet> The U.S. government should earmark additional humanitarian 
aid for building public works (such as roads and bridges) and civil 
government in southern Sudan.

    <bullet> The U.S. government should work toward a ``military no-fly 
zone'' over Sudan using peaceful means.

    <bullet> The United States government should formally request an 
investigation into whether Sudanese government forces have used 
chemical weapons in violation of international law.

    <bullet> The Department of State should give Congress its opinion 
on whether Sudan's government has committed and is committing 
``genocide'' as defined by international law.

    <bullet> The United States government should prohibit any foreign 
corporation from seeking to obtain capital in the U.S. market as long 
as it is participating in Sudanese oil-field development.

    <bullet> The United States government should require any foreign 
corporation that is engaged in the development of the oil and gas 
fields in Sudan to disclose fully, before it may proceed with an IPO in 
the United States, whether it intends to use the proceeds from the IPO 
for the development of those oil and gas fields.

    <bullet> The United States government should require any company 
that is engaged in both the development of the oil and gas fields in 
Sudan and revenue-generating activities in the United States to submit 
public reports from time to time on the nature and extent of both of 
those activities.

    <bullet> OFAC should investigate: (a) how much of the debt that 
China National Petroleum Company intends to retire arose from its 
Sudanese activities; (b) what criteria CNPC will use to decide whether 
to retire Sudan-related debt from the proceeds of its recent sale of 
PetroChina shares in the U.S. capital market; (c) whether prior to the 
sale CNPC earmarked any of the proceeds for use in retiring Sudan-
related debt; and (d) whether U.S. underwriters knew or should have 
known of any such earmarking.

    <bullet> OFAC should call on the parties to the sale of PetroChina 
stock to inform it if CNPC does retire Sudan-related debt and explain 
how U.S. sanctions against Sudan relate to that debt retirement.

    <bullet> OFAC should inform the Commission and the Congress of the 
results of its investigation, initiate appropriate enforcement action, 
and adjust its interpretations of the regulations as appropriate.

    <bullet> The SEC should be especially careful to investigate the 
adequacy and reliability of representations made in any filings related 
to the recent sale by CNPC and PetroChina of PetroChina shares.

    Mr. Chairman, on behalf of the U.S. Commission on International 
Religious Freedom, I would like to thank you for inviting me to address 
the Committee.

    Senator Brownback. Thank you and I want to thank the 
overall Commission, Mr. Chairman, as well. You have done an 
excellent job I think in taking on a very big, very difficult 
subject that has a lot of people's lives and souls at stake. It 
just seems like you can go around the globe and point to 
various places of where people are being persecuted, where they 
are being killed for practicing their faith, just on a regular 
and continuous basis. So, your work is leading the country and 
leading the world on our recognizing and dealing with and 
hopefully in the future greater assurance to people that they 
will be able to practice their faith, whatever that might be, 
however they might choose to practice that. So, thank you for 
doing it.
    I want to focus my initial questions on the Sudan, and I 
have got several others as well.
    I am delighted to have Senator Sarbanes joining us at this 
time too.
    The group recommends a number of specific action items on 
the Sudan, which I am appreciative of, and I am delighted you 
take a very practical focus on this of what can be done. You 
note in one of your recommendations, Mr. Chairman or Ms. Shea, 
whoever would decide to address this, recommendation 1.2, 
comprehensive plan for the solution of the tragedy in Sudan, 
calling for the Sudanese Government behavior--if it does not 
improve in measurable ways, the U.S. Government should, 
following a 12-month preparation period, provide nonlethal and 
humanitarian aid to Sudanese opposition groups that have 
developed procedures to comply with verifiable international 
human rights standards.
    Now, I take it from what you were saying earlier, that was 
either a unanimous or a consensual agreement of everybody on 
the Commission. Is that correct?
    Rabbi Saperstein. That was one of the places there was a 
single dissent.
    Senator Brownback. There was a single dissent on this one.
    Rabbi Saperstein. Right. Other than that, there was 
consensus on the recommendation.
    Senator Brownback. Good. I am hopeful that that is 
something we can provide the administration with the authority 
to do that as one of those preparatory steps that we send a 
signal to the Sudanese Government. Look, if things do not 
improve, the relationship with the United States is going to 
change; it is going to materially change. And I am glad you put 
that forward.
    You also noted later in the report a creation of a military 
no-fly zone, that the U.S. Government should advocate within 
the international for a military no-fly zone over Sudan and for 
taking steps to prevent civilians from being hurt by Sudanese 
bombing attacks.
    What was the Commission's thinking on that particular 
recommendation, either Rabbi or Ms. Shea if you want to address 
that because that is one that has been talked about some, and I 
would like to hear the Commission's thinking on that.
    Ms. Shea. Well, we came to that conclusion after our 
hearing in which witness after witness really came forward and 
said this is quite needed. We spoke with a number of other 
church leaders from Sudan, human rights people from Sudan who 
were just talking about the sort of haplessness with which the 
civilian population was being bombed. There was absolutely 
nothing to defend them, no bomb shelters. There was nothing.
    So, we decided to make this recommendation and to do it 
using peaceful means, and that is by providing civilian leaders 
in targeted areas with communication and tracking equipment 
that can help provide early warning of the military flights, by 
making a bigger push within IGAD to call for a moratorium on 
the military flights over Sudan, and then finally by appealing 
to the Organization of African Unity and the U.N. Security 
Council to call for a moratorium and internationally enforced 
ban. Those internationally enforced measures would be up to 
those bodies, of course, but it could range from economic 
pressures, diplomatic pressures, that sort of thing.
    Rabbi Saperstein. Let me add just a word to this. There is 
a central theme of the Sudan section that is obvious to some 
and not obvious to others, although we tried to say it as 
explicitly as we could. It is impossible to disentangle 
religious components of the civil strife from economic, ethnic, 
political, military components of the strife that is going on 
there. The only way to deal with religious freedom or the way 
most effectively to deal with religious freedom is to deal with 
some of the macro problems, in particular, the civil war and 
the devastation that is wrought on civilian population centers. 
So, we cast many of our recommendations much more broadly than 
on the narrow issue of religious freedom because you simply 
cannot deal with it outside the context of the broader issues.
    However, in every one of the areas that we dealt with, 
every one of the experts we met with, and every one of the 
witnesses that testified we asked questions specifically about 
religious freedom. As Nina Shea just pointed out, one of the 
most common responses was anytime the bombing stops for a few 
months, it is extraordinary to see how quickly the civilian 
population gets their act together and begins to rebuild the 
basic components of civil society there, within the economic 
and functional limitations that are available. One of the first 
things that happens is that churches reopen. Religious life 
begins to resume. The traditional religionists are much freer 
in terms of living their lives openly within the cultural and 
religious norms of their traditions as well.
    We tried to extrapolate from that constant insight that 
witnesses gave us the recommendation that one of the best 
things we can do until we end the civil war is to try and push 
to protect more effectively for the civilian infrastructure. 
So, there are actually several recommendations that go to it. 
This is one. Another one is urging that in addition to food 
relief, the international community begin to help rebuild some 
of the infrastructure components in that area of the country, 
all of it aimed at allowing normal civilian life to resume 
because that is the sine qua non for the beginnings of 
religious life to live itself out freely again.
    Senator Brownback. That was certainly my experience in 
being there in Yei, Sudan. You go around and off some of the 
side streets and other places, people just dug basically holes 
for when they hear planes coming over. Indeed, when they heard 
our plane coming in, people started heading for the holes, but 
they were just kind of craters in the ground that people would 
dive into when they would hear the planes coming by. It just is 
a real paralyzing thing for civil society.
    I still remember one gentleman coming up to me and just 
simply asking the question: ``What are we supposed to do?'' Are 
we all supposed to convert? Is that what you are saying to us 
by not providing any protection or support to people? Is that 
what message you are trying to send us? I think of beleaguered 
populations around the world with that simple question. What 
are we supposed to do? It is one we should not make them 
choose; that sort of question.
    I think the no-fly zone is a very good suggestion for being 
able to bring back a civil society. It is one that is going to 
have to take place somehow.
    I want to look at China for a minute. Mr. Abrams, in 
particular on China, it has already been noted the dispute on 
permanent normal trade relations and the recommendations you 
have here.
    First, either Mr. Abrams or the chairman, you were denied 
visas to travel to China for examination on religious 
persecution. Is that correct?
    Rabbi Saperstein. I think more technically is we wrote 
asking for permission to go and they never responded, rather 
than that there was an outright denial. Despite our efforts to 
followup on that, they simply refused to respond to our request 
rather than our having received a formal denial.
    Senator Brownback. Well, I would be happy to request from 
our office as well the official permission that you would be 
able to receive visas to travel to China. When I meet with 
Chinese officials, they continue to tell me, well, we would be 
happy to see people come into our country and to examine. So, I 
think you should certainly be allowed to go and to travel to 
China, and we will be happy to make that as a formal request as 
well on behalf of the Commission.
    Rabbi Saperstein. I think for any of the leaders of the 
Senate Foreign Relations Committee to make that request along 
with you would have significant weight. So, we are deeply 
appreciative of that.
    Senator Brownback. Mr. Abrams, on human rights, we have 
pursued diplomatic engagement, but it does seem as if the 
reports continue to show a situation that is not substantially 
improved. Why have we had so little apparent impact on China 
given the focus that has been put on this? Even with that, 
there have been crackdowns. I have noted the crackdown about 
including repression of Christian worship outside of the 
government-approved patriotic association churches, repression 
of the Falun Gong. We have talked specifically about repression 
of Tibetan Buddhists and of Muslim faiths in certain regions.
    What is wrong with our approach that things have not 
improved in these fundamental areas?
    Mr. Abrams. I do not know that anyone has the answer to 
that question. My own theory would be that as the regime loses 
legitimacy because that legitimacy is based on a Marxist-
Leninist theory that hardly anybody in China believes anymore, 
it becomes increasingly resistant to the propagation of 
alternative theories of life, alternative belief systems, 
whether those are new ones like Falun Gong or very old ones, 
old even in the context of China, religions like Buddhism or 
Christianity. So, they resist. They become more and more 
hostile to these alternatives.
    But our thought was there are things that can be done to 
show the Chinese Government how strongly we feel about this. 
One example is the U.N. Human Rights Commission resolution in 
Geneva where I think our track record is not so good, and we 
ought to learn the lesson that we need to start earlier and 
push it at a far higher level if we are going to get the votes 
together. We seem to be starting late in what is obviously a 
hotly controversial matter for many governments.
    But we came up with this list of things that the U.S. 
Government might do and might try to get the Chinese to do 
because we thought there are some more pragmatic suggestions 
here that perhaps we have not tried.
    Senator Brownback. I am hopeful we can try some other 
approaches because it does not seem as if we have really had 
the effect that we would want to have.
    A final point I would make, I note that some staffers from 
the Foreign Relations Committee met with an underground 
Catholic bishop in Shanghai in January, and they were informing 
me that he lives in utter squalor. He was monitored by a camera 
across the hall from his apartment. Security forces visited him 
before the staffers called on him. He is an elderly clergyman. 
He is nearly 80 years old--to the point that when they visited 
with him beforehand, he almost refused to meet with the 
staffers. Then afterwards, he was interrogated about what he 
had told them. You kind of wonder how an 80-year-old man 
holding religious services in his home can be a threat to the 
regime, how that could threaten. I just really wonder about how 
that could be perceived as any sort of threat at all.
    Mr. Abrams. Well, it strikes me that it does show how 
illegitimate the regime feels itself to be in the eyes of the 
Chinese people. If they interpret the religious practices of an 
80-year-old as a potential threat to the regime, they must feel 
remarkably fragile and weak in their hold on the hearts and 
minds of the Chinese people.
    Senator Brownback. Dr. Kazemzadeh, the final question and 
then I will go to Senator Sarbanes. The Commission report notes 
that the 1997 Religion Law requires an onerous and intrusive 
registration process for religious organizations within Russia. 
I note as well your concern that it is about Russia, but it is 
also about its leadership role within the region to a number of 
countries that is deeply troubling. Although groups now have 
until December 31, 2000 to register, could you explain why so 
many religious groups have not registered and some of the 
difficulties that they are experiencing in doing so?
    Dr. Kazemzadeh. There are several reasons. Some of these 
religious groups have not even been properly informed. In 
outlying areas of Russia, in isolation, they may not even have 
known all the legal facts which were necessary.
    In many instances, they could not obtain legal advice. 
There have been cases where these groups have tried to register 
without consulting a lawyer, and the papers that they would 
present to the local authorities would be rejected on 
procedural grounds. In some instances, these groups did not 
have sufficient funds to hire lawyers.
    In some instances, the local authorities simply gave them a 
classical runaround--come tomorrow or the next day--and finally 
the time expires and they are not registered.
    So, there is a combination of factors working, and there 
are literally thousands of such groups that still remain 
unregistered.
    Senator Brownback. I hope it is something that they can get 
registered so that they can be able to practice.
    Rabbi Saperstein. Let me just add to that that one of the 
things that we most strongly have urged the President to do 
directly is, in his meetings with Mr. Putin, to urge him to 
suspend that deadline, or at least urge him to suspend the 
mandatory requirement that the groups that have not registered 
be liquidated.
    That decree issued by Mr. Putin slipped by the media. It 
was not really noted. It should have sent shock waves through 
this country here. We think that the moment of leverage that we 
have now, with this new President and our President meeting 
together in the coming months, should be an opportunity which 
is taken advantage of. That would at least give it some 
breathing time to begin to work through some of the more 
systemic problems that Dr. Kazemzadeh had indicated.
    Senator Brownback. Very good.
    Senator Sarbanes.
    Senator Sarbanes. Mr. Chairman, is this an opportune time 
to make an opening statement? I was not sure of what process 
you follow.
    Senator Brownback. Yes, if you would like to.
    Senator Sarbanes. Well, first of all, I want to thank you 
for holding this important hearing. I especially want to thank 
the Commission members for coming and forming this very 
important panel. I have known Rabbi Saperstein and Dr. 
Kazemzadeh for many, many years, and I am really very pleased 
that they have taken on this responsibility and that they could 
be here with us today. Of course, Elliott Abrams was at one 
time the Assistant Secretary for Human Rights and Humanitarian 
Affairs. And Nina Shea has worked in this area for many, many 
years now. I will refrain from identifying exactly how many.
    I want to start off by saying that I think one of the most 
significant acts enacted by the Congress in the last few years 
was the International Religious Freedom Act which the President 
signed into law in October 1998. This act does several 
important things. It places the issue of international 
religious freedom at the forefront of our country's human 
rights policy. It allows the Commission to make policy 
recommendations to the President and the Secretary of State in 
an independent fashion. So, it in effect gives the Commission a 
screening, as it were, so they can act independently. It serves 
notice to countries around the world how deeply the United 
States cares about the right of religious freedom, and that an 
important component of our foreign relations with these 
countries will be, in part, how they respect this right.
    I have to say I am impressed with the work of Ambassador 
Robert Seiple and, of course, with the work of the Commission, 
chaired by Rabbi Saperstein.
    I think the Department's 1999 Annual Report on Religious 
Freedom was a thorough job in examining the situation of 
religious freedom around the globe. The Commission's report, of 
course, is focused on three countries of particular concern, 
and it brought a very focused spotlight to the questions in 
those countries and made a number of useful recommendations in 
terms of U.S. foreign policy.
    I ought to note that the Annual Report on International 
Religious Freedom aptly notes that while religious liberty is 
an essential component of our own Constitution, that the 
International Religious Freedom Act does not attempt to impose 
the American way on other nations. Rather, it draws on the 
internationally accepted belief of inviolable dignity of the 
human person and of universal rights that flow from that 
belief. These rights are reflected in international covenants 
which are, in turn, cited in the act as key standards on 
religious freedom by which governments, including the U.S. 
Government for that matter, must be judged. So, the basis for 
this has an international underpinning, and I think it is 
important to underscore that as we hold this hearing and 
consider this report.
    Of course, we are anxious that all countries should apply 
these international standards of religious freedom so that 
people can exercise freedom of religion without fear, 
intimidation, persecution, or in some instances even death. So, 
I think this is a very important hearing. I am glad it is being 
held in such a timely fashion, and we are very appreciative to 
the Commission for its very fine work.
    Now, in that regard, I want to put one question to the 
chairman of the Commission. It is obviously important that the 
Commission's work continue in a sort of sustained and elevated 
fashion. There is sometimes a tendency in the Congress to act 
as follows: you get the first report in and you make the first 
appropriation, and then everyone turns their attention 
somewhere else. Thus, this very significant initiative that has 
been launched can lose its momentum.
    So, we ought to try to get on the record where are you in 
your funding process. I guess it would be for the fiscal year 
beginning next October 1. You are funded for this fiscal year 
at a level of $3 million.
    Rabbi Saperstein. Right. In the original legislation, there 
had been an authorization, to the best of my recollection, for 
the life of the Commission of $3 million a year. When the 
correcting legislation was done over the summer here--because 
when it was passed and appropriated, it did not have those 
magic words ``and the Commission can spend it to further its 
purposes.'' So, the money was at GSA but we could not access 
it. So, there was correcting legislation that was issued. There 
the multi-year authorization was dropped. So, we need to go 
through the process every year. One possibility would be 
somehow to put back the language from the original bill.
    But in terms of this particular year, we have made a 
request that is less than the $3 million, in part because we 
have money left over from the first year, and in part because 
we now have a better idea of what it will take to run our 
operation, and we are trying to keep it as tight as possible. 
The request was for $2.5 million this year.
    A letter went from Senator Nichols and Senator Lieberman I 
believe recently asking that it be part of the CJS 
appropriations for this year. We have not heard definitely that 
that issue has been resolved where this actually goes. That 
would be the obvious place for it here. Beyond that, we are not 
aware of problems with it other than we need to have focused 
attention on it, and several of the offices represented here 
have been helpful in trying to see that that moves along here. 
But that is all I know at this point and our staff that is 
charged with relations with the Hill is monitoring that 
carefully and asking Senators if there is more that needs to be 
done.
    Whatever you can do to help facilitate that appropriation 
would be invaluable to us. The concept that you bring to bear 
here, that there needs to be a sustained, consistent level of 
involvement, is for us the indispensable key to the success of 
the Commission. This is not a 1-year project. It will take 
several years. We are very gratified by the changes that have 
been made in a year within the way the Government does its 
work, and we talked about that earlier. But it is clear we have 
a long way to go. So, your help in this would be deeply, deeply 
appreciated.
    Senator Sarbanes. Mr. Chairman, that is probably the single 
most important contribution we can make to the work of the 
Commission to ensure that they do not run into either an 
authorization or an appropriation problem as they move forward 
into the next fiscal year. Perhaps subsequently we can discuss 
that and think of ways we might be of further assistance to 
them in trying to move forward.
    Rabbi Saperstein. Thank you, Senator Sarbanes.
    Senator Sarbanes. What staffing level do you envision for 
the Commission once you have sort of settled into a more 
permanent pattern?
    Rabbi Saperstein. We have staff of approximately 20 people. 
There are several people that are focused on work with the 
media in furthering the cause and attention to the cause that 
we are charged to represent; two, perhaps three people, that 
are focused on working closely with the Hill and the 
administration here, and then a very strong research staff that 
combines research on the law with what the facts are on the 
ground, although that crosses over into Ambassador Seiple's 
report as well.
    We are also charged to analyze policy very seriously. Let 
us take a look at policy. What has been tried? What has worked? 
Why? What has not worked? Why? We want to set the context for 
the policy recommendations that we are doing. So, we have a 
strong research staff in that area as well and then obviously a 
very small administrative staff together with the executive 
director of our Commission, Steve McFarland, sitting behind me, 
who oversees the whole thing. So, we are a little below 20 in 
terms of the numbers that we have.
    Some of these people come on a 1-year fellowship or 
opportunities like that. We are doing things to try and keep 
the costs as tight as possible, but that is about where we are, 
a staff of about 20 people.
    Senator Sarbanes. Now, how well is the religious community 
in this country interacting with the Commission?
    Rabbi Saperstein. There has been fairly strong interaction 
with the religious community across the board. There have been 
meetings with representatives of well over a dozen major 
religious groupings, not just regarding the traditional kind of 
Christian and Jewish community involvement in this, but 
meetings with a number of groups with small numbers here in the 
United States, but very much larger numbers in other areas 
across the globe. So, there have been ongoing communications 
with these groups, and we have in our plans an expansion of 
some of those efforts in the coming year. We hope not only to 
educate ourselves on what they are doing, but to talk with them 
about ways they could be more effective in the struggle for 
religious freedom across the globe as well. So, that is a very 
crucial part of our work.
    Senator Sarbanes. Now, does that include groups abroad that 
are concerned with this issue, as well as in this country?
    Rabbi Saperstein. It includes groups abroad. We have visits 
where we have entertained probably a dozen delegations of 
various religious groups from across the globe. As I am doing 
the count in my head, I actually think quite a bit more than 
that. We have also had a number of individuals who come 
formally to our hearings representing religious groups in the 
countries about which we are holding hearings. We have had 
meetings, both formal and off-the-record, with leaders of 
religious groups. In addition, we have had many more informal 
meetings with foreign delegations who have come through and who 
make repeated requests to us to get together so they can talk 
about their problems.
    These meetings have helped our work immeasurably. It has 
brought to our attention the plight of some of the situations 
you talked about earlier, Senator Brownback, which at the 
beginning we might not have been fully aware of. It gives us 
access to people who are on the ground in those areas and know 
firsthand what is going on. Because of these meetings, we are 
at the receiving end of the information that we then utilize to 
develop our reports and recommendations.
    With the American groups, we see them, in terms of our 
role, as being charged to help make policy recommendations for 
this country. They, of course, under the first amendment have 
the right, and I would say on a religious basis the obligation, 
to share their views on that as well. So, we want them to be 
familiar.
    So, there is an overlap between the domestic religious 
groups and the international religious groups. There have been 
quite extensive conversations. As I said, it has really been 
invaluable to us. We have learned immensely from the visits of 
religious groups from across the globe.
    Senator Sarbanes. Is there any counterpart to your 
Commission working in any other country?
    Rabbi Saperstein. The United States is the first to begin 
this. One of the gratifying aspects of this--and this has come 
up in some conversations. I am really glad you asked this 
question--has been the response of some of the other nations 
across the world. Some of the affected nations respond in one 
way and sometimes in a positive way, saying, we see what you 
are doing. We do not want to be on your list. What can we do to 
make things better? And on that level, the process has some 
benefit.
    But what has happened from some countries that are 
committed to religious freedom is they have approached 
Ambassador Seiple. They have approached the Commission and 
asked, tell us about your work. We want to think about doing 
something similar. So, let me give you one example.
    Ambassador Seiple and I traveled to five or six countries 
in Europe, to Rumania and Bosnia. We spoke at the Human Rights 
Conference in Geneva, met with the Vatican. At the request and 
invitation of the Government of The Netherlands, we flew to 
meet with their top officials dealing with human rights 
concerns. They were particularly interested in the way we were 
working, wanted to find ways for us to work more closely 
together. One of the things that they indicated there they are 
going to do now is routinely take the country reports, both 
from our report and Ambassador Seiple's, send it to their 
staff, ask them to take a look into these matters and to work 
with the American Embassies and the Foreign Service officers 
there more cooperatively, and we are going to try to share 
information back and forth.
    This is exactly the kind of impact that we want now because 
the EU countries are working more closely together as a common 
whole. They hope to use that as a leverage to move the EU 
community more broadly on this issue as well. So, we were very 
gratified by those kinds of responses to the vision embodied in 
the IRFA legislation.
    Senator Sarbanes. Yes, I think that is very encouraging. As 
I perceive it, the way the Commission is working, you 
established this concept of international religious freedom as 
sort of a prevailing principle, and to some extent, that takes 
it out of the context of one particular religion fighting 
another particular religion in a country where they often have 
religious strife, and moves it to a different level. I think to 
the extent you can encourage this kind of development that you 
talked about in The Netherlands--and I guess maybe England 
would be a prime possibility for something like that--it would 
be very helpful in moving the whole process forward.
    Well, Mr. Chairman, thank you very much for holding the 
hearing, and I want to express my very deep appreciation to the 
members of the Commission who are here and their colleagues who 
are not present. I had a chance to look through your report. I 
confess I have not thoroughly studied it, but I am impressed 
with the work, and we really encourage you on. Thank you.
    Rabbi Saperstein. Thank you.
    Senator Brownback. Thank you, Senator Sarbanes. Those were 
excellent thoughts and questions put forward.
    I too am very appreciative of your work and your trend-
setting that you are doing not only for this country, but for 
the rest of the world. I look forward to the day hopefully in 
the near future when all people, wherever they may be located, 
can practice their faith in full freedom and without fear of 
repression, reprisals, death, or whatever else. Unfortunately, 
that day is not yet but let us keep vigilant till it is.
    I may be talking with the chairman about doing a followup 
hearing on this in a couple of months. So, Senator Sarbanes, 
your point about losing momentum, we establish and launch and 
then we go on somewhere else, was a good one. We may try to do 
this sort of hearing again in 3 or 4 months to see how your 
recommendations are proceeding.
    Rabbi Saperstein. That is the kind of relationship we 
really envision having with the Congress. So, we are very 
heartened by that idea. Thank you.
    Senator Brownback. Thank you very much. The hearing is 
adjourned.
    [Whereupon, at 12 p.m., the committee was adjourned.]

                              ----------                              


           Dissent to Testimony on Religious Freedom in Sudan


           Presented by Laila Al-Marayati, MD, Commissioner,

           U.S. Commission on International Religious Freedom

    This statement is written in objection to segments of the testimony 
delivered before this committee on May 16, 2000.
    First, the testimony fails to acknowledge my previously written 
dissent (as documented in the May 1 report) regarding the Commission's 
recommendation for non-lethal aid to opposition groups. I am opposed to 
such measures for the following reasons: (1) The Sudanese People's 
Liberation Army (SPLA), which would be the major opposition group to 
benefit from aid, is responsible for numerous human rights abuses in 
southern Sudan. (2) The U.S. Government has not exerted enough effort 
to date in bringing an end to the conflict through peaceful means and 
intense negotiations. These measures should be exhausted before 
considering aid to rebel forces. (3) By promoting one of the major 
antagonists in the civil war, the U.S. Government would actually be 
contributing to the prolongation of the conflict and the subsequent 
suffering of millions of Sudanese. (4) The distinction between lethal 
and non-lethal aid is artificial such that any U.S. assistance to rebel 
groups may be perceived by the Sudanese government as an act of 
aggression and a declaration of war which could have severe and violent 
repercussions for Americans in Sudan and elsewhere.
    Next, while the testimony often refers to the ``genocidal'' nature 
of the Sudanese government's actions, it should be noted for the record 
that the Commission has not unanimously agreed that the Government of 
Sudan is deliberately carrying out a campaign of genocide. One of the 
recommendations of our report is that the State Department determine if 
indeed the situation in Sudan meets the criteria for such a definition 
which would require a specific response based on international law.


                   RELIGIOUS PERSECUTION IN THE WORLD

                              ----------                              


                      THURSDAY, SEPTEMBER 7, 2000

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:46 a.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Sam Brownback 
presiding.
    Present: Senators Brownback.
    Senator Brownback. The hearing will come to order. Thank 
you all for joining us. I apologize for being late. I had 
another commitment where I was detained, so I apologize for 
starting the hearing late. We have two votes scheduled for just 
before 10 o'clock. Ambassador Seiple and those in attendance, 
we should go as long as we can, take a break for those two 
votes then continue the hearing after the votes.
    It's my pleasure to chair this second hearing in the full 
Senate Foreign Relations Committee to examine religious 
persecution worldwide and in particular a new religious liberty 
report issued by the State Department. I would like to thank 
Senator Helms for scheduling this hearing. This follows up on 
our first hearing held on May 16, which examined the 
persecution report issued by the Commission on International 
Religious Freedom that included the three countries of China, 
Sudan, and Russia.
    This morning our primary focus will be the religious 
liberty report which covers countries worldwide. It was issued 
September 5 by the State Department. We will examine some of 
the issues included in that report issued on September 5.
    Our first testimony will be from the Ambassador at Large 
for International Religious Freedom, Robert Seiple, who 
announced this year's selected list of countries of particular 
concern regarding religious persecution.
    This is also a good opportunity to acknowledge the imminent 
departure of Ambassador Seiple, which I am sorry to say. He is 
the first Ambassador at Large for International Religious 
Freedom for America, the first of many, I would presume, and I 
think he's set quite a distinguished record for this important 
post.
    This is both a substantive and symbolic achievement, which 
has given hope to persecuted religious minorities worldwide. 
Therefore, I thank you, Ambassador Seiple, for your excellent 
efforts in enhancing religious freedom internationally. His 
efforts have included obtaining the release of religious 
prisoners in hostile countries, which is particularly near to 
my heart. I hope he takes this chance to review his tenure and 
note some lessons for posterity and for future incumbents to 
this office.
    Following Ambassador Seiple are three members of the 
Religious Freedom Commission, including the new Vice Chairman, 
Dr. Firuz Kazemzadeh, who is also the secretary for External 
Affairs for the National Spiritual Assembly of the Baha'is of 
the United States. Dr. Kazemzadeh will deliver the oral 
presentation. The two following Commissioners will field 
questions: Commissioner Michael Young, who is also the dean of 
the George Washington Law School; and Commissioner John Bolton, 
who is also the senior vice president of the American 
Enterprise Institute.
    I note that the State Department report only lists two 
countries which have made notable improvements in the area of 
religious liberty worldwide. I wanted to particularly point out 
this positive aspect within the report. One of these countries 
is Azerbaijan, the other country is Laos. I commend President 
Aliyev of Azerbaijan, who has stuck by the promise he made to 
the entire nation through public addresses last year that 
Azerbaijan would uphold religious liberty and ``not go back to 
the dark ages.''
    I think it is also important that, while we view the 
troubles in a number of countries, we also review the progress 
of some nations and highlight and extol that as well. I am 
hopeful that such progress will continue to be made throughout 
that entire region and throughout the world.
    Since the passage of the International Freedom Act 2 years 
ago, increased focus has been given to religious persecution as 
never before, from the grassroots to the Halls of Congress, 
religious liberty has been inserted into the foreign policy 
debate. This, in turn, has already helped expand freedoms for 
embattled believers worldwide, as well as jump-start individual 
campaigns of awareness over hellish situations such as that in 
the Sudan.
    In closing, I want to acknowledge the people who inspired 
these reports and list in the first place. They are the simple 
people of faith who stand against terrible odds in hostile 
countries. Many are forced to wage individual battles for this 
precious personal freedom. They stand with great courage 
against terrible odds.
    I am proud that we are having this hearing because it is 
one more stone in the path to establishing religious freedom as 
a universal right for all of these embattled believers 
everywhere in the world, wherever they might be. Particularly 
since our Nation is blessed with incredible freedom, I consider 
this to be our reasonable duty.
    Ambassador Seiple, I am delighted to have you here. I am 
delighted to know you as a friend. I am pleased with the work 
that you have done in helping to establish this as a 
fundamental human right. With that, welcome to the committee 
and the floor is yours.
    [The following statement was submitted for the record.]

           Prepared Statement of Senator Russell D. Feingold

    Ambassador Seiple, I want to thank you for being here today, and 
for all of your hard work over the last couple of years. I also want to 
recognize the members of the U.S. Commission for International 
Religious Freedom that are here to testify and to thank them for their 
efforts.
    I have consistently expressed my view that basic human rights are 
at the core of our national identity and at the heart of our national 
interests. Freedom of religion stands with other basic rights, like 
freedom of expression and association, as one of the bedrock principles 
of American democracy. These rights inform our national values and 
shape our national character.
    Basic human rights are also critical to our national interests 
abroad. History has shown that unjust regimes tend to rot from within, 
often disintegrating into chaos. The pursuit of basic human rights is 
critical to our quest for a more stable world. It is only appropriate 
that our commitment to the basic rights of men and women should guide 
the U.S. abroad.

  STATEMENT OF HON. ROBERT A. SEIPLE, AMBASSADOR AT LARGE FOR 
     INTERNATIONAL RELIGIOUS FREEDOM, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Seiple. Thank you very much. I appreciate the 
nomenclature of friend and friendship and certainly appreciate 
the leadership that you have shown on this issue and many other 
issues of values in your tenure here in the Senate.
    I would say in the beginning that we have a larger report, 
testimony, that should be given to the record in the interest 
of time and maybe a couple of votes. I will speak from a much 
truncated version.
    Senator Brownback. We will accept the entire report in the 
record.
    Ambassador Seiple. Again, I am honored to appear before you 
on the occasion of the issuance of our annual report. As I 
prepare to depart the position of Ambassador at Large after 2 
years of service, I want to express to you again, Mr. Chairman, 
my gratitude for the support that you and your staff, and in 
particular Ms. Sharon Payt, have given to the Office of 
International Religious Freedom and to the cause of religious 
freedom around the world.
    Mr. Chairman, I have two goals this morning. The first is 
to formally present the second annual Report on International 
Religious Freedom 2000 \1\, and to inform you of the 
Secretary's decision with respect to countries of particular 
concern under the International Religious Freedom Act. The 
second is to give you my sense of where things stand with 
respect to religious freedom worldwide.
---------------------------------------------------------------------------
    \1\ The report can be accessed at the Department of State Website: 
<www.state.gov>. It will also be available in print from the Committee 
on Foreign Relations in November 2000.
---------------------------------------------------------------------------
    During the course of the past 12 months, my office has 
monitored carefully the status of religious freedom worldwide. 
We have traveled to many of the countries in which religious 
liberty is at risk. We have had access to the large and growing 
volume of press and NGO reporting on religious freedom. Last, 
but perhaps most importantly, we have reviewed the excellent 
reporting from the U.S. missions abroad.
    U.S. diplomatic reporting on religious freedom has always 
been good, but it has become better under the tenure of 
Secretary Albright, who made it a point of emphasis soon after 
her arrival in the Department. Some folks read the New York 
Times, the Wall Street Journal. We read the reports of a whole 
host of really top-flight bright young people who manage the 
Foreign Service posts around the world on behalf of people of 
faith.
    This year's report covers the period from July 1, 1999, to 
June 30, 2000, contains 194 country chapters, an introduction, 
and an executive summary. This year the executive summary 
highlights improvements, as you mention, in religious freedom. 
We have provided this section because it is prescribed by the 
act, but also because we think it is terrifically important 
that the United States encourage improvements. I am proud to 
present the second annual report on International Religious 
Freedom 2000, all 1,200 pages of it.
    Now a word on designations under the act. Mr. Chairman, as 
you know, the IRF Act has established a very high standard for 
this designation. In order to be designated, the government of 
a country must have engaged in or tolerated particularly severe 
violations of religious freedom. As we apply the act's criteria 
in deciding what action to take, we try to place them in the 
context of diplomacy: Is diplomacy working? Are there trends in 
one direction or another? Is a particular action likely to help 
or to hinder our diplomatic efforts to improve the situation? 
None of these is determinative, but all are important as we 
decide how to proceed with any given country.
    With respect to the Secretary's decisions this year, let me 
first note that she has decided to redesignate the five 
countries designated last year. They are Burma, Iran, Iraq, 
Sudan, and China. In addition, she is renewing her 
identification of Serbia and the Taliban of Afghanistan as 
particularly severe violators. Neither constitutes a 
``country'' as envisioned by the act.
    During the course of the year my office reviewed the 
records of all other countries which we believed might approach 
the designation standard. After carefully reviewing these 
records, I have concluded that no other countries reach that 
standard. I reviewed this matter with the Secretary. She has 
approved my recommendation, and of course I will be happy to 
answer any questions that you have on any one country that 
might come to mind.
    Let me now give you a brief assessment of my office's work 
and a few thoughts on the status of religious freedom. I 
believe that we are implementing the terms of the IRF Act of 
1998 in an effective way, faithful to the intent of the 
Congress, the President, the Secretary of State. The Office of 
International Religious Freedom is well integrated into the 
Bureau of Democracy, Human Rights, and Labor, thanks in part to 
my friend Assistant Secretary Harold Koh.
    The process of producing the annual report has itself 
played a major role in integrating our office and the issue 
into the mainstream of U.S. foreign policy. The report has 
become a focal point for the discussion of religious freedom 
and has dramatically increased public awareness of our mission. 
Our mandate has also caused us to reach out to American 
religious communities. I am very proud of our outreach programs 
to the Muslim community. I consider this program a success and 
my office intends to expand it to other American religious 
communities.
    My ex officio membership in the U.S. Commission on 
International Religious Freedom has been a productive and 
pleasant one. The Commission brings a separate set of eyes and 
a sharp focus to our common task of promoting religious 
freedom.
    With the support of Assistant Secretary Koh, my office has 
grown to a staff of five officers other than myself and we are 
in the process of recruiting three more. Their workload is 
heavy and growing, and it involves some of the most 
invigorating work in the field of diplomacy. We are met almost 
daily with a new challenge--a refugee family fleeing religious 
persecution needing our help, a new draft law that restricts 
minority religions, new arrests, deportations, or executions of 
religious people.
    We have had some small but important victories. Our office 
has had the opportunity to improve the lives and fortunes of a 
few families and individuals suffering for their religious 
beliefs. These are the things, Mr. Chairman, that give us hope 
and make us even more determined to persevere in the promotion 
of religious freedom.
    But in all candor, I must also tell you that we have made a 
very modest beginning in attacking the root causes of religious 
persecution and discrimination. The problem has no simple 
solution. The annual report provides a measure of the problem 
and shines a spotlight on it. On balance, it is a critical tool 
in our goal of promoting religious freedom.
    But to get to the root causes of persecution, we must go 
beyond the spotlight, the designations, and the sanctions. We 
must convince governments that religious belief is not 
something to be feared, but a source of social and cultural 
strength. We must build bridges between religions, attacking 
the sources of fear and distrust that feed violence. We must 
encourage believers of all stripes to summon the best in their 
traditions.
    Every world religion, Mr. Chairman, has some version of the 
Golden Rule. For example, the monotheistic religions believe 
that every human being, religious or not, believer or infidel, 
is created in the image of the Creator. To defile another human 
being, to destroy a person's dignity, to live without respect 
for human life, these are attacks on the very nature of things 
and on the divine source of that life.
    Every religious tradition is plagued by men and women who 
exploit and abuse the sacred, expropriating it as a divine 
license for persecution and violence against others. In their 
hands, religion becomes a mobilizing vehicle for nationalist or 
ethnic actions. We have seen this outrage played out on stages 
from Afghanistan to Serbia to Sudan.
    But we must not view the actions of such impostors and 
hypocrites as representative of any true religion. Religion can 
be, ought to be, a source of conciliation and hope, of unity 
and respect. The authors of our Constitution knew that 
religious freedom touches upon the most fundamental and 
universal attributes of humanity--the quest for ultimate 
meaning and purpose that is shared by every human being. In 
this, we are truly one human family.
    So, Mr. Chairman, I am proud to have been the first 
Ambassador at Large for International Religious Freedom. I am 
satisfied that our office has done its job well, not only 
complying with the law, but laying the groundwork for future 
progress as well. When all is said and done, our work will be 
judged not by the denunciations we make or the sanctions we 
imposed, but by the people we help. As far as I am concerned, 
that endeavor lies at the heart of what it means to believe.
    Thank you for having me here today and I will be happy to 
take any and all questions.
    [The prepared statement of Ambassador Seiple follows:]

              Prepared Statement of Hon. Robert A. Seiple

    Mr. Chairman and members of the Committee, I want to thank you for 
holding this hearing. I am honored to appear before you on the occasion 
of the issuance of our Annual Report.
    As I prepare to depart the position of Ambassador at Large after 
two years of service, I want to express to you, Mr. Chairman, my 
gratitude for the support you and your staff--in particular Ms. Sharon 
Payt--have given to the Office of International Religious Freedom, and 
to the cause of religious freedom internationally.
    Mr. Chairman, I have two goals this morning. The first is formally 
to present the second Annual Report on International Religious Freedom, 
and to inform you of the Secretary's decision with respect to countries 
of particular concern under the International Religious Freedom Act. 
The second is to give you a brief retrospective of the past two years, 
and my sense of where things stand with respect to religious freedom 
worldwide.

          THE ANNUAL REPORT ON INTERNATIONAL RELIGIOUS FREEDOM
    During the course of the past twelve months, my office has 
monitored carefully the status of religious freedom worldwide. We have 
traveled to many of the countries in which religious liberty is at 
risk, and I have testified before Congress on the problems faced by 
religious minorities in Russia, China and Western Europe. We have 
talked to dozens of government officials, religious leaders, human 
rights groups and NGOs, as well as believers from many religious 
traditions, both here and abroad. We have had access to the large and 
growing volume of press and NGO reporting on religious freedom. Last, 
but perhaps most importantly, we have reviewed the excellent reporting 
from U.S. missions abroad.
    U.S. diplomatic reporting on religious freedom has always been 
good, but it has become better under the tenure of Secretary Albright, 
who made it a point of emphasis soon after her arrival in the 
Department. We have some of the best minds in the business out there, 
Mr. Chairman, and their cables on religious freedom are the morning 
fare of my office. Some people read the New York Times or the Wall 
Street Journal. We read the reports of Embassy Moscow, Embassy Cairo, 
or Embassy Tashkent, or the other bright minds of the Foreign Service 
posted throughout the world.
    These men and women report on religious freedom issues throughout 
the year, and it is they who do the initial drafts of the country 
chapters for the Annual Report. These drafts are then compiled and 
edited, in close consultation with my staff and the country desks, by 
the Office of Country Reports and Asylum Affairs in the Bureau of 
Democracy, Human Rights and Labor.
    This year's report covers the period from July 1, 1999 through June 
30, 2000. It contains 194 country chapters, an Introduction and an 
Executive Summary. The Introduction contains a brief account of the 
Act, and how the issue of religious freedom reached such prominence in 
U.S. policy. It also discusses the contribution that religious freedom 
makes to democratic governance, and vice versa.
    The Executive Summary details various categories of abuses of 
religious freedom and U.S. efforts to deal with those abuses. It also 
contains a section that highlights certain improvements in religious 
freedom. We have provided an improvements section because it is 
prescribed by the Act, but also because we think it is terrifically 
important that the United States encourage improvements. Some will 
criticize this section because it appears to praise countries that have 
horrific human rights records in areas other than religious freedom, or 
because incremental improvements in the treatment of certain religions 
are not replicated in others. I recognize this problem, but nonetheless 
believe that we must use the report to acknowledge positive changes 
whenever we can.
    Finally, the annexes to the Report provide texts of relevant 
international instruments, and a variety of information on U.S. 
religious freedom policy and practice.
    I am proud to present the second Annual Report on International 
Religious Freedom.

                    COUNTRIES OF PARTICULAR CONCERN
    Now a word on designations under the Act. As we sifted through the 
enormous amount of information at our disposal, we began to identify 
countries that needed closer examination in order to determine whether 
they should be designated as ``countries of particular concern.'' Mr. 
Chairman, as you know, the IRF Act has established a very high standard 
for this designation, which entails consideration of economic sanctions 
and requires some action by the United States government. In order to 
be designated, the government of a country must have engaged in or 
tolerated ``particularly severe violations'' of religious freedom. Such 
violations are defined as ``systematic, ongoing, egregious violations 
of religious freedom accompanied by flagrant denials of the right to 
life, liberty and security of persons, such as torture, enforced and 
arbitrary disappearances, or arbitrary prolonged detention.''
    As we apply these criteria in deciding what action to take, we try 
to place them in the context of diplomacy. Is diplomacy working? Are 
there trends in one direction or another? Is a particular action likely 
to help, or to hinder, our diplomatic efforts to improve the situation? 
None of these is determinative, but all are important as we decide how 
to proceed with any given country.
    With respect to the Secretary's decisions this year, let me first 
note that she has decided to redesignate the five countries designated 
last year. They are Burma, China, Iran, Iraq, and Sudan. In addition, 
she is renewing her identification of Serbia and the Taliban of 
Afghanistan as ``particularly severe violators.'' Neither constitutes a 
``country'' as envisioned by the Act.
    During the course of the year, my office reviewed the records of 
all other countries which we believed might approach the designation 
standard. After carefully reviewing these records, I have concluded 
that no other countries reach that standard. I have reviewed this 
matter with the Secretary, and she has approved my recommendation. I 
will be happy to answer any questions you have on this subject.

                    THE STATUS OF RELIGIOUS FREEDOM
    Let me now give you a brief assessment of my office's work, and a 
few thoughts on the status of religious freedom.
    I believe that we are implementing the terms of the IRF Act of 1998 
in an effective way, faithful to the intent of the Congress, the 
President and the Secretary of State. As you know, the Act gave my 
office the mission of promoting religious freedom abroad. Carrying out 
that mission has required us to integrate the office into the work of 
the Department; to monitor religious persecution and discrimination on 
a daily basis; to meet with NGOs, human rights groups and religious 
groups here and abroad; and to advocate freedom of religion and 
conscience with foreign governments.
    The Office of International Religious Freedom is well integrated 
into the Bureau of Democracy, Human Rights and Labor--thanks in great 
part to my friend, Assistant Secretary Harold Hongju Koh--and into the 
Department as a whole. Within our bureau, I want to note in particular 
the contributions of the Office of Country Reports and Asylum Affairs 
and the Office of Bilateral Affairs. We work closely with our 
colleagues in the regional bureaus, both to address problems and to 
develop policy. We communicate frequently with our embassies and 
consulates abroad. When we travel--and we have visited 26 countries, 
some of them more than once--we meet with U.S. Ambassadors and mission 
staff to discuss our policy and to hear their recommendations and their 
concerns.
    The process of producing the Annual Report has itself played a 
major role in integrating our office, and the issue, into the 
mainstream of U.S. foreign policy. The Report has become a focal point 
for discussion of religious freedom--in conferences and journals for 
example--and has dramatically increased public awareness of mission. 
The Report also requires our embassies abroad to monitor religious 
freedom year-round. It encourages their development of sources of 
information among local communities of religious believers, NGOs, human 
rights groups and government officials. And it taps the impressive 
analytical skills of our officers, causing them to delve more 
completely into religious beliefs and customs that may be alien to 
them.
    Our mandate has also caused us to reach out to American religious 
communities. I am very proud of our outreach program to the Muslim 
community. For a year and a half, we have met periodically with 
American Muslim leaders to brief them on our efforts and to hear their 
concerns. I consider this program a real success, and my office intends 
to expand it to other American religious communities.
    In conjunction with the Department's Bureau of Intelligence and 
Research, we are sponsoring a series of conferences on religious 
freedom and foreign policy, including segments that focus on the 
teachings of particular religious traditions. We have found a 
tremendous interest in this subject, and intend to continue and expand 
our conferences. We also attend conferences as participants as 
frequently as we can, contributing to the international dialogue on 
religious freedom.
    My ex officio membership in the U.S. Commission on International 
Religious Freedom has been a productive one. The Commission brings a 
separate set of eyes and a sharp focus to our common task of promoting 
religious freedom. It has been a pleasure to work with the 
Commissioners. I should also note that the working relationship between 
the Commission's staff and my own is an excellent one that continues to 
prove fruitful.
    With the support of Assistant Secretary Koh, my office has grown to 
a staff of five officers (other than myself), and we are in the process 
of recruiting three more. Our existing staff comes from the foreign and 
civil services; one is a military chaplain. Their workload is heavy and 
growing, and it involves some of the most daunting, invigorating work 
in the field of diplomacy. We are met almost daily with a new 
challenge--a refugee family fleeing religious persecution and needing 
our help; a new draft law that restricts minority religions; new 
arrests, deportations or executions of religious people.
    And we have had some small, but invigorating victories. I am proud 
to tell you that our office has had the opportunity to improve the 
lives and fortunes of a few families and individuals suffering for 
their religious beliefs. These are the things, Mr. Chairman, that give 
us hope, and make us even more determined to persevere in the promotion 
of religious freedom.
    But in all candor, I must also tell you that we have made oniy a 
very modest beginning in attacking the root causes of religious 
persecution and discrimination. The problem has no simple solution. The 
Annual Report provides a measure of the problem, and shines a spotlight 
on it. Evidence in the Report provides a starting point for diplomacy--
a basis for discussion. On balance, it is a critical tool and an 
important step in our goal of promoting freedom of religion and 
conscience.
    It is, however, a step that must be followed with others. To get at 
the root causes of persecution, we must go beyond the spotlight, the 
designations and the sanctions. We must convince governments that 
religious belief is not something to be feared, but can be a source of 
social and cultural strength. And we must build bridges between and 
among religions, attacking the sources of fear and distrust that feed 
violence. We must encourage believers of all stripes to summon the best 
in their traditions.
    Every world religion, Mr. Chairman, has some version of the Golden 
Rule For example, the monotheistic religions believe that every human 
being--religious or not, believer or infidel--is created in the image 
of the Creator. To defile another human being, to destroy a person's 
dignity, to live without respect for human life--these are attacks on 
the very nature of things, and on the divine source of that life.
    Every religious tradition is plagued by men and women who exploit 
and abuse the sacred, expropriating it as a divine license for 
persecution and violence against others. In their hands religion 
becomes a mobilizing vehicle for nationalist or ethnic passions. We 
have seen this outrage played out on stages from Afghanistan to Serbia 
to Sudan.
    But we must not view the actions of such impostors and hypocrites 
as representative of any true religion. Religion can be--ought to be--a 
source of reconciliation and hope, of unity and respect. The authors of 
our Constitution, and of the 1948 Universal Declaration of Human 
Rights, understood that protecting freedom of religion and conscience 
provided no warrant for hatred. Rather, they knew that religious 
freedom protects an individual's right to pursue his or her quest for 
ultimate meaning and purpose, a quest that is shared by so many. In 
this, we are truly one human family.
    And so, Mr. Chairman, I am proud to have been the first Ambassador 
at Large for International Religious Freedom. I am satisfied that our 
office has done its job well, not only complying with the law, but in 
laying the groundwork for future progress as well. When all is said and 
done, our work will be judged not by the denunciations we make or the 
sanctions we impose, but by the people we help. And, as far as I am 
concerned, that endeavor lies at the heart of what it means to believe.
    Thank you for having me here today. I'll be happy to take your 
questions.

    Senator Brownback. Thank you very much, Ambassador Seiple. 
I appreciate your statement and your highmindedness. I think 
that is absolutely appropriate and the right track to take. I 
hope following ambassadors in your position will take such a 
view.
    In January of this year, I traveled to Nepal and I met with 
a number of Tibetan refugees that had walked over the Himalayas 
in the winter to get to freedom. I personally interviewed 
somewhere between 15 and 20 of these Tibetans. There was 
probably about 150 to 200 people who had traversed over the 
Himalayas over that month. They were at a station in Kathmandu, 
Nepal, to build up some strength before going on to a more 
permanent site.
    Virtually all of them told some story of persecution within 
Tibet, such as being jailed, or beaten. Only one lady had taken 
a public means of transportation, but the rest had secretly 
escaped to make it out. Many told of imprisonments, and 
beatings that had taken place during that period.
    Reportedly, religious freedom has declined substantially in 
China lately. Could you give me your view of this from your 
report and your personal experience of what is taking place in 
China? In contrast, you also hear others say that religious 
freedom, in some areas of China, has grown substantially.
    Last December, I was in southern China, before going to 
Nepal, and saw what seemed to be a great deal of religious 
freedom. Please share your perspective on China.
    Ambassador Seiple. Well, maybe I can begin with a question: 
Why has religion grown, the interest in religion grown in 
China? I think there are two reasons. I think the people of 
China have been betrayed twice, one by a bankrupt Communist 
ideology that absolutely has not delivered on any promises that 
it has made; and then second with the opening on the economic 
side, where more money was made available, more people came 
above the poverty line, the people of China realized that this 
in itself is not going to satisfy the deep longing of the 
heart.
    There are a lot of concerns in China, macro concerns, and 
they are being played out in the lives of individual people who 
are searching for some sort of meaning other than the meaning 
that the government has established. The government, it is a 50 
year old government. People talk about this is different, this 
is Asia, this is a culture that we have to begin to understand. 
The Communist government is the interloper here. The Asian 
culture has gone back millennia, but the interloper, the 
carpetbagger, if you will, is communism, and it has not worked. 
It has not worked anyplace else. There is no reason to expect 
it to work there.
    But more than that, it has betrayed its promise to the 
people. Lots of problems and the people are turning to faith. 
The Falun Gong movement is an example. The house church growth 
is an example. The situation that you mention in Tibet, where 
people will risk life and limb and children, and many of them 
have left dead children on the hillsides as they came out in 
the course of the winter.
    The Kermapa escapes--that is the language--escaped Tibet. 
Now, this is his territory. This is his homeland. These are his 
monasteries. What does it mean to have to escape all that? 
Something dramatic and terrible is wrong right now.
    I am not quite sure how it gets fixed. I think ultimately 
it is going to take people from the inside, and these kinds of 
changes are going to have to happen from the inside. During 
that time period, I think it is our responsibility from the 
outside to maintain faith with those people who this day are 
suffering because of their faith.
    Senator Brownback. I have traveled to the Sudan. I have met 
with Sudanese refugees. They speak pointedly about, not being 
forced into one religious mode they do not share. I have met 
with individuals who have tried to flee out of the Sudan.
    A gentleman started out with 30,000 refugees that were 
moving from Sudan to try to get to Ethiopia. They were 
intercepted by the military several times and at the end only 
500 got out. He spoke to me about walking over dead bodies, 
hiding under dead bodies, using the blood of his fellow 
compatriots who were with him to look as if dead himself, to be 
able to flee from that. It is a religious persecution of an 
enormous scale that is taking place.
    Why isn't more action being taken by our government when we 
know what is happening there? The President recently traveled 
to Africa a second time. Why aren't we seeing more statements 
about this genocide that is so well documented? Why are we not 
speaking out more?
    Ambassador Seiple. Sudan is both simple and terribly 
complicated. If it were easy, however, it would not have gone 
on for 17 years with the killing of 2 million plus people, most 
of them noncombatants. It also has been, unfortunately, a war 
without heroes in the south, certainly in the north. So it has 
been difficult sometimes to take sides and to know that the 
issues are going to be resolved.
    There have been in this 17-year period upwards of 20 
different militia working throughout the south. It has been 
said by other experts that more people probably have been 
killed in the south by southerners than by the north, just to 
give you a sense of the complications. This is no apology for 
the Khartoum Government.
    The Khartoum Government has engaged, as you know, 
indiscriminately in bombing, systematic bombing, bombing of 
churches, bombing of hospitals, bombing of refugee sites. They 
have done that even while we have been in talks, in dialog with 
the diplomats, our interlocutors in Khartoum.
    There is a major gap between what was being told to us and 
what is being done in the field. As long as that gap is there, 
it is going to be difficult to resolve the issue. It has to be 
named for what it is. It has to be seen for what it is, and the 
entire world, not just the United States, because frankly we 
have done about everything we can do in terms of sanctions, 
including throwing Tomahawk missiles at Khartoum, on the 
sanctions side.
    But it is going to need a concerted effort from our allies 
working with ourselves across the board. Now, a special envoy 
has been appointed. Those discussions, the IGAD process, has 
continued, has been renewed and been revitalized. We are going 
to take steps forward. We are going to see steps taken 
backward. It is not going to be easy.
    Ultimately, at the end of the day there has got to be a way 
to increase the gain or increase the pain to stop the conflict. 
Quite frankly, when they brought oil on line and had a revenue 
source, it made even that much more difficult to achieve.
    Senator Brownback. I would ask the administration not to 
open the embassy in Khartoum. I know people are considering 
moving in, and it appears to be some sort of beginning of a 
relationship. Even though the Government in Khartoum has much 
blood on its hands. The President previously traveled to Africa 
and says in Rwanda ``Never again,'' and yet we have 2 million 
people killed in Sudan. We have U.N. planes that have been 
bombed by the Khartoum Government. We have the bombing of 
civilian hospitals. I have personally spoken to witnesses who 
saw their hospitals and their schools having been bombed.
    We could provide direct development assistance to the 
south. We as a Government could do that. Also, we should speak 
out more forcefully and certainly not open up the embassy in 
Khartoum. We should protest their awful human rights abuses 
based around ethnic and religious persecution. Millions of 
people that have been killed and hundreds of thousands have 
been purposely starved when food aid waits at the borders.
    I think there is more that we can do in the Sudan, and 
there are some steps that we must take to send the signal that 
their ``charm offensive'' is not working. It is hard to 
showcase murder as charming.
    Ambassador Seiple. Well, we certainly are in agreement 
there on the charm offensive. There is no one in greater 
agreement in terms of all that you have just said than Susan 
Rice, our Assistant Secretary of State for African Affairs.
    Again, we wish we had a silver bullet here. We wish we had 
an answer. We wish we had something that would work yesterday. 
I can assure you that it has engaged our building, our 
Department. Folks are working day and night to try to figure 
out how to proceed.
    In terms of the issues that are opening up in Khartoum, of 
course, as you alluded to, the embassy really never was closed. 
It just was vacated after the situation with our two embassies 
in August 1998. Since that time we have had people coming and 
going. There is symbolism that is at play and there is reality 
at play, and sometimes one is the other.
    We will continue to work with you. We know your passion on 
this issue. We know the passions on the Hill. We have got to 
find solutions that will endure, that will see through the 
symbolism, see through the charm offensives, and that 
essentially stop the carnage that has been going on over 17 
years.
    Senator Brownback. I am going to put us into recess for a 
period of time for me to do these two votes that have been 
called. Then we will come back, I would hope, within 15 
minutes, and start back up, then go to the second panel. We are 
in recess.
    [Whereupon, at 10:11 a.m., the committee was recessed, then 
reconvened at 10:35 a.m.]
    Senator Brownback. I call the hearing back to order. I 
apologize about the time away for the votes.
    Ambassador Seiple, one of the other areas of jurisdiction I 
have is the Near Eastern and South Asian Affairs Subcommittee. 
I was curious in your report you did not--you cited a couple of 
countries within that jurisdiction, Iraq and Iran, did not make 
mention publicly, at least here, of countries of concern of 
Saudi Arabia that you do hear a number of comments about, and 
also some other countries in that region.
    I would appreciate your oral thoughts and comments about 
religious freedom, religious persecution in Saudi Arabia and in 
some of the other Middle East countries in that region that 
were not cited as countries of particular concern.
    Ambassador Seiple. Well, we have major problems on the 
human rights side in general, but also in terms of religious 
freedom, in any number of those countries. Let me say that 
there are some that are much more tolerant than others. Jordan 
would fit into that characterization, although we have some 
issues that we are working to resolve there, that have not 
gotten resolved this past year.
    We have other areas where we have seen some improvements in 
methodology of dealing with them. Egypt was a case in point. We 
have an El Kush I and an El Kush II and the differences in how 
they treated those two crises is fairly remarkable.
    There are no countries where I think you are going to see 
linear progression. Saudi Arabia would be a case in point. They 
work and they force us to work within some very narrow 
confines. That is a kingdom. It is the guardian of two of the 
three high holy sites for Islam. And they do not have a chip on 
their shoulder about this, but they are absolutely dug in.
    What we have been able to do in the last 2 years is to get 
them to agree that non-Muslim worship can take place if it is 
done discretely and privately, without interference of the 
Mutawwa. Now, where we have had worship taking place 
discretely, which is a function of numbers and noise and how 
many people are there and so on, how long it goes on, we have 
had them step forward and do the right thing.
    In fact, this past year Prince Turki made the statement in 
the Geneva Human Rights Commission that this was now a part of 
their policy, and it was promulgated widely within Saudi 
Arabia. That is very important because the Mutawwas sometimes 
seem to operate without anyone holding them accountable. So we 
have had fewer problems.
    Now, again this is a situation where we wish things were 
different. We have a long way to go. We are working these 
issues at all levels with an ally. Saudi Arabia is certainly 
that. But at the same time, we have been very, very clear in 
the report: There is no religious freedom in Saudi Arabia.
    Does it pass the bar for a country of particular concern? 
Well, it is systematic and it is ongoing, there is a pattern, 
there is an intentionality to it. But being egregious, in the 
term that we use of persecution--kidnapings and killings and so 
on in the period of our report this past year--no, that did not 
happen, and so they were not designated.
    Senator Brownback. But Afghanistan is not listed as a 
country of particular concern.
    Ambassador Seiple. The Taliban, which is not a government, 
but they occupy 88, 90 percent of the land, has been 
redesignated as a gross violator. That was done a year ago and 
we have done that again this year. Primarily, a year ago that 
was done on the basis of an intra-Muslim conflict between Sunni 
and Shia, but a genocide of sorts up in the northern part, in 
Sharif, the village up there where systematically the Taliban 
went through and executed people.
    So there are some terrible things that go on. You will see 
if you read the Iraqi report some terrible listing, recounting 
of abuses against the Shia in southern Iraq. We have had some 
improvements in Iran and frankly, looking forward, I hope that 
they continue, because we may see a major breakthrough there in 
the years ahead.
    We have to be careful how we play that. We can throw it off 
course if our diplomacy is too visible, too overt. At the same 
time, there are some positive things happening. My friend Firuz 
Kazemzadeh can talk specifically about what they have done that 
play in a positive way in favor of the Biha'is, which have been 
very persecuted in Iran.
    These are difficult countries. My office spends a great 
deal of time working very hard to prove Sam Huntington wrong. 
There does not have to be a clash of kingdoms, there does not 
have to be a clash of civilizations. Islam is not monolithic. 
You see various expressions of it, various expressions of 
Sharia law throughout the Middle East. We do a disservice when 
we superficially stereotype it. But we need to learn more about 
it, because we do not know much. Speaking of the collective 
``we,'' we do not know much about Islam in that part of the 
world and the impact that it has had historically and could 
have in the future, as we should. It is incumbent upon us to do 
those teachings and learnings.
    Senator Brownback. How about in Russia? The Commission 
report had cited Sudan, China, and Russia, the International 
Religious Freedom Commission. It expressed concern about some 
of the changes that have taken place in Russia. What is your 
viewpoint?
    Ambassador Seiple. Let me say in general with the 
Commission report, we have had Susan Rice speak to the sections 
on Sudan with the Commission and there is a great deal of 
parallelism in what the Commission has recommended in the 
methodology of a way forward and what is being promulgated 
inside the State Department as policy there. In China there has 
been a major difference on PNTR. That was the major difference 
in the Commission and our findings.
    In Russia, I think we are again of one mind. We have got 
some enormous macro events that have hit Russia, a relatively 
new country coming out of the Soviet era. But there has been 
political turmoil, there has been obviously the large economic 
turmoil. In the middle of that chaos, you always worry about 
scapegoating, anti-semitism. Although it has not been prevalent 
in the period of this report, it lies underneath the surface.
    There is something akin to a Putin watch. We do not know 
all that we would like to know about this person. We now have 
some of his works. We have a few of his actions. But it is 
going to take a while to come to understand this person in 
terms of his own dedication.
    We are seeing some troubling issues relative to 
missionaries, missionaries that are being forced out of Russia. 
There are pockets of these. Russia is a big place and there are 
thousands of Western missionaries in Russia. But still, there 
is some troubling aspects to it. Of course, monitoring the 1997 
law, which we felt at the time was a giant step backward in the 
judicial system. There is uneven implementation of the 
legislation, the fact that they do not control the hinterlands 
in many respects, the Governors of some of these provinces.
    You have all the potential for a chilling effect on the 
people who want to worship because of how they believe or who 
they believe, and can they do it under this particular system. 
So this is not a bad report on Russia, but we would neglect 
what could happen potentially in Russia at considerable peril.
    So the Smith amendment, for instance, that we have to make 
sure that the 1997 legislation does not do damage to minority 
faiths, is good legislation that we probably need to continue. 
I hope there comes a day when we can do the same with just the 
IRF report and our office.
    But until we know more about what is going to happen, the 
registration process--what happens at the end of this year? A 
lot of these churches and mosques and synagogues and the 
Orthodox church itself, they are not going to be registered. 
The bureaucracy does not allow the fast moving of that. Are 
they going to be liquidated? Is the time going to be extended? 
Is it going to be a license for people to discriminate against 
people of faith? We are not sure.
    So we are cautious, I think properly so, and we continue 
our points of discussion with them on these issues.
    Senator Brownback. I appreciate your service in the job, 
your statements, and your comments here, and I hope you will be 
available for future consultation. The only point of view that 
I would dispute with you is on the Sudan, not that you listed 
them as a country of particular concern. I think they deserve 
that designation. But I believe we must do more. I think we 
should not open the embassy. I think that the civilian bombing 
must stop now.
    The gentleman who took me to Sudan last year, says I could 
not go in now because the bombing has increased that much on 
civilian targets.
    We want to provide direct development assistance to the 
south. The President must include Sudan on his Africa list, 
where he says: ``Never again.'' I think there are some obvious 
steps the administration has not taken on the Sudan. I 
appreciate your mentioning them as a country of particular 
concern. I do not think our actions have stepped up to plate. I 
know there is pressure to not get involved in Sudan, but this 
is a brutalized population. It is ethnic and religious 
persecution, and I think there is more that we could do.
    Ambassador Seiple. Let me just say, as someone who was 
kicked out of the north in 1988 as the head of World Vision and 
having to work illegally in the South since 1988, there is 
nothing I would like to see more than a resolution of the 
conflict in a way that a solution is put together that endures.
    I find it a very humbling place. Yes, there is probably 
more we could do. We need all the help we can get. We are 
grateful for yours. I say that on behalf of the State 
Department. We have got to find a way that has an acceptable 
end game and a solution to the conflict that will stand the 
test of time.
    So many things in Africa, unfortunately, have unraveled. We 
have not gotten it either right or we were applying Band-Aids 
to symptoms. This is as complicated and as humbling as it gets. 
I said before, if it were easy it would not have taken us 17 
years to get to this point. So we do indeed need your help on 
this. I do not think there is a lot of disagreement on the 
facts. It is just the methodology forward. At this point there 
are maybe some differences, but we should not stop talking on 
the subject.
    Senator Brownback. God speed to you, Ambassador Seiple. You 
have been a wonderful, wonderful person for the administration, 
and I think you have left a record of integrity and honor. 
Thank you very much.
    Ambassador Seiple. Thank you very much, Senator.
    Senator Brownback. I will call up our next panel, which 
includes other members of the Commission. If you would please 
come forward. I believe one will testify and the other two will 
answer questions.
    Dr. Kazemzadeh, welcome. Good to see you again. I 
understand you will be providing testimony and the other two 
Commissioners will be answering questions. Delighted to have 
you here today.

 STATEMENT OF FIRUZ KAZEMZADEH, VICE CHAIRMAN, U.S. COMMISSION 
 ON INTERNATIONAL RELIGIOUS FREEDOM, AND SECRETARY OF EXTERNAL 
  AFFAIRS, NATIONAL SPIRITUAL ASSEMBLY OF THE BAHA'IS OF THE 
 UNITED STATES, ALTA LOMA, CA; ACCOMPANIED BY: HON. MICHAEL K. 
YOUNG, COMMISSION MEMBER AND DEAN, GEORGE WASHINGTON UNIVERSITY 
 LAW SCHOOL, WASHINGTON, DC; AND HON. JOHN BOLTON, COMMISSION 
MEMBER AND SENIOR VICE PRESIDENT, AMERICAN ENTERPRISE INSTITUTE 
               FOR PUBLIC POLICY, WASHINGTON, DC

    Dr. Kazemzadeh. Thank you, Mr. Chairman. My name is Firuz 
Kazemzadeh and I am honored to serve as Vice Chairman of the 
U.S. Commission on International Religious Freedom. I wish to 
thank the committee for inviting a representative of the 
Commission to testify before you today on the annual report on 
International Religious Freedom. I ask that my complete written 
statement be made part of the hearing record.
    Senator Brownback. Without objection.
    I note that Senator Wellstone may be joining us later, 
although he caught me on the floor and said he was carrying an 
amendment about religious freedom in China associated with 
PNTR. So, while he would love to be here at the hearing, he was 
doing the work on the floor, so he could not join us. He may 
join us later, though.
    Dr. Kazemzadeh. I also want to thank the committee for 
holding this hearing because it is through holding hearings 
like this that the issue of international religious freedom can 
become an integral part of this Nation's foreign policy agenda. 
That, after all, is one of the guiding principles and purposes 
behind the International Religious Freedom Act, the statutory 
basis for the State Department's annual International Religious 
Freedom report.
    The annual report is important to keep religious freedom 
high on the foreign policy agenda and an important tool to 
promote religious freedom abroad. It brings to light the facts 
on the ground and, perhaps just as significant, it describes 
what the U.S. Government is doing to promote religious freedom 
around the world.
    The International Religious Freedom report is not only a 
report to the world, but also to the Members of Congress. The 
Commission urges Congress to take special note of what the 
report says about U.S. policy toward violators of religious 
freedom and activities designed to promote the protection of 
religious freedom.
    In the International Religious Freedom Act, Congress stated 
that it was the policy of the United States to oppose 
violations of religious freedom engaged in or tolerated by 
governments of foreign countries and to promote religious 
freedom, among other things, specific mandated actions 
targeting violators. In other words, the law requires the U.S. 
foreign policy to take into account the nature and severity of 
religious freedom violations. This report therefore is a 
yardstick with which to measure our progress in meeting the 
goals of the statute.
    I would like to take a moment to speak about Ambassador 
Seiple. The Commission commends the hard work that Ambassador 
Seiple and his staff have put into not only the annual 
international religious freedom report, but also their 
substantial efforts throughout the year to keep religious 
freedom on the foreign policy agenda. Ambassador Seiple has 
made a significant contribution to the work of the Commission, 
on which he sat as an ex officio, nonvoting member, and we 
value him as a colleague. We very much regret his departure.
    The Commission will strongly urge the next President to 
move quickly to fill the vacancy with a person as knowledgeable 
and distinguished as Ambassador Seiple. It will also urge the 
new Congress to impress upon the new President the importance 
of doing so.
    As the Commission noted in its own first annual report, 
released in May, as important as the report itself is the 
impact that its preparation has had on the State Department and 
on our embassies. This year's report generally shows more 
complete understanding of religious freedom issues and 
extensive factfinding and verification. It reflects hard work 
on the ground.
    In other respects as well, this year's report is an 
improvement over last year, and I note with pleasure that some 
of the recommendations that the Commission made in its annual 
report appear to have been adopted by the Department. Each 
country report now has an introduction generally identifying 
the most significant religious freedom problems in that 
country.
    There is a separate subsection detailing relevant law. Our 
review of the Department's instruction cable sent to the 
embassies earlier this year also shows that the Department 
incorporated many of the Commission's suggestions in which 
information it solicited from embassy officials. However, 
problems remain. In some of the reports, the main thrust of 
what is happening and why is lost in detail and through 
omission of important context.
    For example, the report focuses in a dozen or so pages 
relating to Sudan mainly on the policies and practices of the 
Sudanese Government with respect to religious freedom per se, 
giving only a page to atrocities being committed as part of the 
civil war, including for example aerial bombing of hospitals 
and schools, abduction of women and children, and the burning 
and looting of villages. There are, moreover, significant gaps.
    For example, the report fails to describe the pivotal role 
that oil extraction is having, especially in enhancing the 
ability of the Government of Sudan to continue in its criminal 
behavior. Similarly, it does not focus on the delivery of 
humanitarian aid, for instance the longstanding refusal of the 
Sudanese Government to allow humanitarian aid to reach some 
regions. In short, the report fails to give the behavior of the 
Government of Sudan the attention it deserves.
    Another problem is that this year's report includes a 
section in the executive summary entitled ``Improvements in 
International Religious Freedom,'' which are also reported in 
the individual country chapters. The Commission believes that 
the reporting of such ``improvements'' must be carefully 
handled in order to avoid misrepresentation of the conditions 
of religious freedom.
    Labeling what are positive developments--and such 
developments deserve to be noted--labeling them as improvements 
confounds positive steps with real and fundamental progress in 
eliminating religious persecution. The mention of such positive 
steps in the executive summary can overshadow an overall 
negative situation. The executive summary should be the place 
to report on fundamental lasting change in the protection of 
religious freedom, as may be the case in Azerbaijan, but not 
particular events that may be positive.
    Several persecutors can make a positive gesture without 
improving the overall conditions of religious freedom. On 
occasion, they do it to deflect criticism and to mislead 
foreign observers.
    In the case of Sudan, for instance, the positive 
developments highlighted in the executive summary are changes 
of a shallow nature and not the type of developments that would 
signal a change in the regime under which religious believers 
suffer horribly. Another example is Laos, where the release of 
religious prisoners, a welcome event, is characterized in the 
executive summary as significant improvement. But the Laos 
section noted ``the government's already poor record for 
religious freedom deteriorated in some aspects.'' These 
contradictory messages are found in the report's discussion of 
Vietnam as well.
    The Commission is pleased that the State Department has 
listed for a second year Burma, China, Iran, Iraq, and Sudan as 
``countries of particular concern,'' [CPC's] as well as the 
Taliban regime of Afghanistan and the Government of Serbia. 
This year's annual report affirms that the conditions in these 
countries have not changed significantly. The Commission is 
very disappointed, however, that the Secretary has not named 
Laos, North Korea, Saudi Arabia, and Turkmenistan as CPC's.
    On July 28, 2000, the Commission wrote to the Secretary of 
State concluding that the governments of each of these four 
countries have engaged in particularly severe violations of 
religious freedom and thus meet the statutory threshold for 
designation as CPC's. I have attached this letter to my written 
statement for inclusion in the hearing record.
    Senator Brownback. Without objection, it will be included 
in the record.
    Dr. Kazemzadeh. The Commission's conclusion was based on 
the information that was available to us at that time. The 
information contained in the 2000 annual report only confirms 
that these countries should be designated as CPC's. The label 
of ``CPC'' is important. It brings into the spotlight the 
egregious violators. But the act of labeling is only one aspect 
of the situation. The act requires policy responses and again 
the International Religious Freedom report is a report on U.S. 
action or actions to promote religious freedom and not only 
report on facts and circumstances.
    I would like to focus for a moment on actions taken in 
response to CPC designations and then speak more broadly to 
U.S. policy initiatives in certain countries that are of 
concern to the Commission. Nowhere in the report did the State 
Department mention the sanctions it may have imposed as a 
result of a country's designation as a CPC. This is consistent 
with State's previous practice. It has to our knowledge done 
nothing to publicize the sanctions imposed under IRFA and at 
times appears to go out of its way to avoid mentioning them.
    In the cases of Sudan and China, the sanctions that the 
State Department identified are inadequate and ineffective. 
Regarding Sudan, the Department stated last October that in 
order to satisfy the sanction requirement of IRFA the Secretary 
of State also uses the voice and vote of the United States to 
oppose any loan or other use of funds of international 
financial institutions to or for Sudan pursuant to the 
International Financial Institutions Act. More effective action 
that the Commission has recommended included the closing of 
U.S. capital markets to companies that participate in the 
Sudanese oil fields and taking steps to end Sudan's ability to 
control foreign food aid and use it as a weapon of war.
    Regarding China, the Department stated that the Secretary 
of State restricts exports of crime control and detection 
instruments and equipment. It is difficult to believe that this 
sanction sends a strong message to Beijing on religious 
freedom.
    I would also note that under IRFA the President must take 
action or issue a waiver of the requirement to take such action 
with regard to all countries the governments of which engage in 
or tolerate violations of religious freedom and not only the 
CPC's. These actions do not appear to be so recorded in the 
annual report.
    In general, the report shows that U.S. Embassy personnel in 
a number of countries have been working to raise the issue of 
religious freedom with their foreign counterparts. Embassy 
personnel have also made inquiries and sought to monitor the 
legal proceedings of some religious detainees. Ambassador 
Seiple and his staff have traveled widely to reinforce the 
message of the importance of religious freedom to the United 
States.
    The Commission applauds these actions. However, progress in 
the promotion of religious freedom also requires that steps be 
taken at the highest level of interaction between the United 
States and foreign governments.
    As a parenthetical point, I would like to note that in the 
executive summary of this year's report actions taken by the 
Commission itself are listed in the section on what the U.S. 
Government has done with respect to a number of countries. This 
practice should not be continued. The Commission is not 
empowered to implement U.S. foreign policy, but to make policy 
recommendations. Congress has required the Commission to report 
on its activities separately from the State Department. 
Including Commission actions in the annual report may blur the 
distinction between it and the State Department in the minds of 
the American public, NGO's, victim communities, and foreign 
governments.
    The report shows a number of countries where a 
deterioration in the conditions of religious freedom has not 
resulted in the adjustment of U.S. policy toward them. In the 
case of China, the report bluntly states, and rightly so, that 
the Chinese Government's attitude toward religious freedom has 
deteriorated and the persecution of several religious 
minorities has increased.
    The report reflects the situation in almost excruciating 
detail. Arrests of Falun Gong and Zhong Gong practitioners and 
Christian worshippers in unregistered groups have accelerated 
dramatically since June last year. At least eight Uigher 
Muslims from Xinjiang Autonomous Region have been executed in 
June and July on charges of splitting the country.
    The receptivity of the Chinese Government to U.S. concerns 
about religious freedom in China also appears to have 
deteriorated. The Chinese Government has refused to reinstate 
official bilateral dialog on human rights and religious 
freedom. Government officials have refused to meet with U.S. 
Embassy officials who intended to raise religious freedom 
issues with them. The Department's Special Coordinator for 
Tibet and a member of her staff were denied visas for travel to 
Tibet.
    It is distressing that the administration and the majority 
of the House of Representatives are willing to overlook all of 
this in pursuing their campaign for permanent normal trade 
relation status for China.
    Turkmenistan is another example of where the State 
Department concludes that conditions of religious freedom have 
worsened and yet the reported U.S. actions do not appear to 
reflect any change in the U.S. policy. A promise by President 
Niyazov to the State Department to allow minority religious 
groups to register, thus legalizing their actions, has yet to 
be realized.
    A third example is France, where the report describes in 
detail some disturbing recent events that threatened the 
protection of religious freedom of minority religious groups. 
In particular, the National Assembly in June of this year 
passed a bill targeting the so-called ``sects'' for dissolution 
and establishing a new crime of ``mental manipulation.'' It is 
now pending in France's Senate.
    The report also illustrates a number of instances where 
U.S. policy does not appear to be in line with the gravity of 
religious freedom problems in a particular country. The report 
on Sudan does not display any coherent, concentrated plan on 
the part of the U.S. Government for dealing with the atrocities 
being committed there.
    When the Commission studied that situation over the past 
year, we were struck by the huge disparity between the scale of 
atrocities being committed by the Government of Sudan and the 
response of the President and the Secretary of State. Yes, 
event by event the administration has expressed outrage and 
disapproval, but we have not seen evidence of the sort of 
concentrated and coherent policy that would have any hope of 
success.
    Consequently, in May of this year, as a key part of our 
recommendations on Sudan, we laid out a specific 12-month plan 
of action for the President, urging particularly that he 
personally launch a vigorous campaign to inform the world of 
Sudan's war crimes, crimes against humanity, and genocidal 
activities. In addition, the Commission has raised with the 
State Department and the National Security Advisor the issues 
of delivery of humanitarian aid in the face of continued 
indifference by the Sudanese Government and oil extraction 
enhancing the ability of the Sudanese Government to prosecute 
the civil war.
    The Commission has asked Mr. Berger to investigate reports 
that the Commission received from credible sources, Anglican 
and Catholic bishops in the Sudan, that the U.N.-provided 
humanitarian aid for Sudan, including U.S. aid, is being 
manipulated to force religious conversions among the country's 
displaced and needy religious minorities. I have attached a 
copy of the Commission's August 14, 2000, letter to the 
National Security Advisor to my written statement for inclusion 
in the hearing record.
    Senator Brownback. It will be included in the record.
    Dr. Kazemzadeh. With regard to North Korea, the report 
notes that the United States does not have diplomatic relations 
with that country. Nevertheless, the U.S. does have a policy 
with respect to North Korea and one that is undergoing 
significant changes, including the announcement of the lifting 
of certain sanctions against the country.
    We are not taking a position on the wisdom of these 
actions. However, it is apparent from the report that human 
rights and religious freedoms have not played a role in the 
development of policy with respect to one of the world's worst 
religious freedom violators.
    With respect to Iran, again a country with which the United 
States has no diplomatic relations and where there have been 
significant developments in U.S. policy during the last year, 
it is reported that the U.S. officials have raised religious 
freedom issues and problems facing religious minorities in 
international forums and in public statements at the highest 
level. However, the United States can and should make clear to 
Iran that respect for human rights and religious freedom is 
among the necessary elements of improved ties between the two 
countries.
    The 2000 annual report states a sobering fact: Much of the 
world's population lives in countries in which the right to 
religious freedom is restricted or prohibited. As the richest 
and most powerful nation on Earth, the United States can do 
significantly more to vindicate this right abroad. As the 
freest nation on Earth, it must do more.
    On behalf of the U.S. Commission on International Religious 
Freedom, thank you again, Mr. Chairman, for the invitation to 
present the Commission's perspective.
    [The prepared statement of Dr. Kazemzadeh follows:]

               Prepared Statement of Dr. Firuz Kazemzadeh

                              INTRODUCTION
    Thank you and good afternoon, Mr. Chairman and members of the 
Senate Foreign Relations Committee. My name is Firuz Kazemzadeh and I 
am honored to serve as Vice-Chairman of the U.S. Commission on 
International Religious Freedom. I wish to thank the Committee for 
inviting a representative of the Commission to testify before you today 
on the Annual Report on International Religious Freedom. I ask that my 
complete written statement be made part of the hearing record.
    I also want to thank the Committee for holding this hearing, 
because it is through holding hearings like this that the issue of 
international religious freedom can become an integral part of this 
nation's foreign policy agenda. And that, after all, is one of the 
guiding purposes and principles behind the International Religious 
Freedom Act, the statutory basis for the State Department's Annual 
International Religious Freedom Report.

    IMPORTANCE OF THE ANNUAL INTERNATIONAL RELIGIOUS FREEDOM REPORT
    The Annual International Religious Freedom Report is important to 
keep religious freedom high on the foreign policy agenda and an 
important tool to promote religious freedom abroad. It brings to light 
the facts on the ground, and--perhaps just as significant--it describes 
what the U.S. government is doing to promote religious freedom around 
the world. The International Religious Freedom Report is not only a 
report to the world, but also a report to the Members of Congress. The 
Commission urges Congress to take special note of what the Report says 
about U.S. policy toward violators of religious freedom and activities 
designed to promote the protection of religious freedom. In the 
International Religious Freedom Act, Congress stated that it was the 
policy of the United States to oppose violations of religious freedom 
engaged in or tolerated by governments of foreign countries and to 
promote religious freedom, through, among other things, specific 
mandated actions targeting violators. In other words, the law requires 
that U.S. foreign policy take into account the nature and severity of 
religious freedom violations, and be adjusted accordingly. This report 
is the yardstick with which to measure our progress in meeting the 
goals of the statute.
    I would like to take a moment to speak about Ambassador Seiple. The 
Commission commends the hard work that Ambassador Seiple and his staff 
have put into the Annual International Religious Freedom Reports, but 
also their substantial efforts throughout the year to keep religious 
freedom on the foreign policy agenda. Ambassador Seiple has also made a 
significant contribution to the work of the Commission, on which he has 
sat as an ex-officio nonvoting member, and we value him as a colleague. 
The Commission regrets his departure. The Ambassador at Large for 
International Religious Freedom is a very important part of U.S. policy 
initiatives to promote religious freedom abroad--the State Department 
2000 Annual Report calls his office ``the fulcrum of the effort to 
promote religious freedom.'' A prolonged vacancy in this crucial 
position threatens U.S. progress in promoting religious freedom. The 
Commission will strongly urge the next president to move quickly to 
fill the vacancy with a person as knowledgeable and distinguished as 
Ambassador Seiple. It will also urge the new Congress to impress upon 
the new president the importance of doing so.

     REPORTING ON THE FACTS AND CIRCUMSTANCES OF RELIGIOUS FREEDOM
    A few words on the Annual Report's reporting of the facts and 
circumstances of religious freedom.
    Although we have not had the time to review Tuesday's thousand-page 
report in its entirety, it is apparent that the Department has done a 
highly commendable job of telling the tragic story of religious freedom 
around the globe. As the Commission noted in its own first annual 
report released in May, as important as the report itself is the impact 
that its preparation has had on the State Department and our embassies. 
This year's report generally shows more complete understanding of 
religious freedom issues and extensive fact-finding and verification. 
It reflects hard work on the ground.
    In other respects as well this year's report is an improvement over 
last year, and I note with pleasure that some of the recommendations 
that the Commission made in its annual report appear to have been 
adopted by the Department. Each country report now has an introduction 
generally identifying the most significant religious-freedom problems 
in that country. There is a separate sub-section detailing relevant 
law. Our review of the Department's instruction cable sent to the 
embassies earlier this year also shows that the Department incorporated 
many of the Commission's suggestions in what information it solicited 
from embassy officials.
    However, problems remain. In some of the reports, the main thrust 
of what is happening, and why, is lost in detail and through omissions 
of important context.
    For example, the Report focuses, in its dozen or so pages relating 
to Sudan, mainly on the policies and practices of the Sudanese 
government with respect to religious freedom per se, giving only a page 
to atrocities being committed as part of the civil war, including for 
example, aerial bombing of hospitals and schools, abduction of women 
and children, and the burning and looting of villages. There are, 
moreover, significant gaps. For example, the Report fails to describe 
the pivotal role that oil extraction is having--especially in enhancing 
the ability of the government of Sudan to continue in its criminal 
behavior. Similarly, it does not focus on the delivery of humanitarian 
aid--for instance, the long-standing refusal of the Sudanese government 
to allow humanitarian aid to reach some regions. In short, the Report 
fails to give the behavior of the government of Sudan the attention it 
deserves.
    Another notable problem is that this year's report includes a 
section in the executive summary entitled ``Improvements in 
International Religious Freedom,'' which are also reported in the 
individual country chapters. The Commission believes that the reporting 
of such ``improvements'' must be carefully handled in order to avoid 
misrepresentation of the conditions of religious freedom. Labeling what 
are really positive developments--and such positive developments 
deserve to be noted--as ``improvements'' confounds positive steps with 
real and fundamental progress in eliminating religious persecution. The 
mention of such positive steps in the executive summary can overshadow 
an overall negative situation. The executive summary should be the 
place to report on fundamental, lasting change in the protection of 
religious freedom, as may be the case in Azerbaijan, but not particular 
events that may be positive. Severe persecutors can make a positive 
gesture without improving the overall conditions of religious freedom. 
On occasion they do it to deflect criticism and mislead foreign 
observers.
    In the case of Sudan, for instance, the positive developments 
highlighted in the executive summary are changes of a shallow nature, 
and not the type of developments that would signal a change in the 
regime under which religious believers suffer horribly. Another example 
is Laos, where the release of religious prisoners--a welcome event--is 
characterized in the executive summary as ``significant improvement.'' 
But the Laos section noted that ``the government's already poor record 
for religious freedom deteriorated in some aspects.'' These 
contradictory messages are found in the report's discussion of Vietnam 
as well.

                    COUNTRIES OF PARTICULAR CONCERN
    The Commission is pleased that the State Department has listed for 
a second year Burma, China, Iran, Iraq, and Sudan as ``countries of 
particular concern,'' (CPCs) as well as the Taliban regime in 
Afghanistan and the government of Serbia--which, while not recognized 
states, also remain ``particularly severe violators of religious 
freedom.'' This year's Annual Report affirms that the conditions in 
those countries have not changed sufficiently so as to warrant a change 
in designation.
    The Commission is very disappointed, however, that the Secretary 
has not named Laos, North Korea, Saudi Arabia, and Turkmenistan as 
CPCs. On July 28, 2000 the Commission wrote to the Secretary concluding 
that the governments of each of these four countries have engaged in 
particularly severe violations of religious freedom and thus meet the 
statutory threshold for designation as CPCs.\1\ The Commission's 
conclusion was based on the information that was available to us at 
that time. The information contained in the 2000 Annual Report only 
affirms that these countries should be designated as CPCs.
---------------------------------------------------------------------------
    \1\ I have attached this letter to my written statement for 
inclusion in the hearing record.
---------------------------------------------------------------------------
    In Laos, during the last 12 months, increasing numbers of 
Protestants, Baha'is and Catholics have been subjected to detention, 
arrest and harassment, and over 50 persons have been reportedly 
imprisoned for the peaceful practice of their faith.
    In North Korea, notwithstanding the difficulty of obtaining 
reliable information on conditions in the country, it is apparent that 
religious freedom is non-existent. As this year's report states: 
``Genuine religious freedom does not exist.'' The government has 
imprisoned religious believers and apparently suppresses all organized 
religious activity except that which serves the interests of the state. 
Not identifying this repressive government as a CPC effectively rewards 
it for suffocating free speech, press and travel so thoroughly that 
information on religious persecution is limited.
    In Saudi Arabia, the government brazenly denies religious freedom 
and vigorously enforces its prohibition against all forms of public 
religious expression other than that of Wahhabi Muslims. Numerous 
Christians and Shi'a Muslims continue to be detained, imprisoned and 
deported. As both the Department's 1999 and 2000 Annual Reports bluntly 
summarize: ``Freedom of religion does not exist.'' How then can Saudi 
Arabia not be deemed a country of particular concern?
    In Turkmenistan, where the ruling regime is reminiscent of Stalins, 
only the official Soviet-era Sunni Muslim Board and the Russian 
Orthodox Church are recognized by the state as legal religious 
communities. Members of unregistered communities--including Baha'is, 
Christians, Hare Krishnas, and independent Muslims--have been 
reportedly detained, imprisoned, deported, harassed, fined, and have 
had their services disrupted, congregations dispersed, religious 
literature confiscated, and places of worship destroyed. This year's 
report notes a decline in the Turkmenistan government's overall respect 
for religious freedom, and notes ``severe restrictions'' on minority 
religious groups.
    In addition to the four countries that the Commission recommended 
be named as CPCs, the Commission advised the Secretary of State that 
another four governments are close to earning the CPC label. India, 
Pakistan, Uzbekistan, and Vietnam are among those countries that have 
attracted the Commission's particular scrutiny, and they deserve the 
Department's as well. Its own report bears this out.

         REPORTING ON U.S. ACTIONS TO PROMOTE RELIGIOUS FREEDOM
    The label of CPC is important; it brings into the spotlight the 
egregious violators. But the act of labeling is only one aspect of the 
statute. IRFA requires policy responses and, again, the International 
Religious Freedom Report is a report on U.S. actions to promote 
religious freedom and not only a report on facts and circumstances.
    I would like to focus for a moment on actions taken in response to 
CPC designation, and then speak more broadly to U.S. policy initiatives 
in certain countries that are of concern to the Commission.

              U.S. ACTIONS IN RESPONSE TO CPC DESIGNATION
    Nowhere in the report did the State Department mention the 
sanctions it may have imposed as a result of a country's designation as 
a ``country of particular concern.'' This is consistent with State's 
previous practice: it has, to our knowledge, done nothing to publicize 
the sanctions imposed under IRFA and at times appears to go out of its 
way to avoid mentioning them. In the cases of Sudan and China, the 
sanctions the Department of State identified are inadequate and 
ineffective. Regarding Sudan, the Department stated last October that 
``in order to satisfy the sanction requirements of the IRFA, the 
Secretary of State also uses the voice and vote of the United States to 
oppose any loan or other use of funds of international financial 
institutions to or for Sudan pursuant to the International Financial 
Institutions Act.'' More-effective actions that the Commission has 
recommend include closing U.S. capital markets to companies that 
participate in the Sudanese oil fields (the revenue from which helps to 
fund the Sudanese government's war effort) and taking steps to end 
Sudan's ability to control foreign food aid and use it as a weapon of 
war. Regarding China, the Department stated that the Secretary of State 
``restricts exports of crime control and detection instruments and 
equipment.'' It is difficult to believe that this sanction sends a 
strong message to Beijing on religious freedom.
    I would also note that under IRFA, the President must take action 
(or issue a waiver of the requirement to take such action) with regard 
to all countries the government of which engages in or tolerates 
violations of religious freedom, and not only CPCs. These actions do 
not appear to be so recorded in the Annual Report.

            U.S. ACTIONS TAKEN TO PROMOTE RELIGIOUS FREEDOM
    In general, the report shows that U.S. embassy personnel in a 
number of countries have been working to raise the issue of religious 
freedom with their foreign counterparts. Embassy personnel have also 
made inquiries and sought to monitor the legal proceedings of some 
religious detainees. Ambassador Seiple and his staff have traveled 
widely to reinforce the message of the importance of religious freedom 
to the United States.
    The Commission applauds these actions. However, progress in the 
promotion of religious freedom also requires that steps be taken at the 
highest levels of interaction between the U.S. and foreign governments. 
Religious prisoners and persecution must be prominently raised in 
virtually every meeting between American diplomats and violator 
governments.
    As a parenthetical point, I would like to note that in the 
executive summary of this year's report, actions taken by the 
Commission itself are listed in the section on what the U.S. government 
has done with respect to a number of countries. This practice should 
not be continued. The Commission is not empowered by Congress to 
implement U.S. foreign policy, but to make policy recommendations. 
Congress has required the Commission to report on its activities 
separately from the State Department. Including Commission actions in 
the Annual Report may blur the distinction between it and the State 
Department--in the minds of the American public, NGOs, victim 
communities and foreign governments.
    The report shows a number of countries where a deterioration in the 
conditions of religious freedom have not resulted in an adjustment in 
U.S. policy toward those countries.
    In the case of China, the report bluntly states, and rightly so, 
that the Chinese government's attitude toward religious freedom has 
deteriorated and persecution of several religious minorities has 
increased. The report reflects this situation in almost excruciating 
detail. Arrests of Falun Gong and Zhong Gong practitioners and 
Christians worshiping in unregistered groups have accelerated 
dramatically since June of last year. At least eight Uigher Muslims 
from the Xinjiang Autonomous Region were executed in June and July on 
charges of ``splitting the country.'' The receptivity of the Chinese 
government to U.S. concerns about religious freedom in China also 
appears to have deteriorated. The Chinese government has refused to 
reinstate official bilateral dialogue on human rights and religious 
freedom. Government officials have refused to meet with U.S. embassy 
officials who intended to raise religious freedom issues with them. The 
Department's Special Coordinator for Tibet and a member of her staff 
were denied visas for travel to Tibet. It is distressing that the 
Administration and a majority of the House of Representatives is 
willing to overlook all of this in pursuing its campaign for Permanent 
Normal Trade Relations status for China.
    Turkmenistan is another example of where the State Department 
concludes that conditions of religious freedom have worsened, and yet 
the reported U.S. actions do not appear to reflect any change in U.S. 
policy. A promise by President Niyazov to the State Department to allow 
minority religious groups to register, thus legalizing their 
activities, has yet to be realized.
    A third example is France, where the report describes in detail 
some disturbing recent events that threaten the protection of religious 
freedom of minority religious groups in that country. In particular, 
the National Assembly in June of this year passed a bill targeting so-
called ``sects'' for dissolution and establishing a new crime of 
``mental manipulation.'' It is now pending in France's Senate. However, 
a comparison of this year's report on what the U.S. has done, in 
comparison to last year's report on what the U.S. did, shows that 
despite worsening conditions, the U.S. appears to have done less. This 
deserves an explanation.
    The report also illustrates a number of instances where U.S. policy 
does not appear to be in line with the gravity of religious freedom 
problems in a particular country.
    The Report on Sudan does not display any coherent, concentrated 
plan on the part of the U.S. government for dealing with the atrocities 
being committed there. When the Commission studied that situation over 
the past year, we were struck by the huge disparity between the scale 
of atrocities being committed by the government of Sudan and the 
response of the President and the Secretary of State. Yes, event-by-
event, the Administration has expressed outrage and disapproval. But we 
have not seen evidence of the sort of concentrated and coherent policy 
that would have any hope of success. Consequently, in May of this year, 
as a key part of our recommendations on Sudan, we laid out a specific 
12-month plan of action for the President--urging particularly that he 
personally launch ``a vigorous campaign
. . . to inform the world of Sudan's war crimes, crimes against 
humanity, and genocidal activities.'' In addition, the Commission has 
raised with the State Department and the National Security Advisor the 
issues of delivery of humanitarian aid in the face of continued 
interference by the Sudanese government and oil extraction enhancing 
the ability of the Sudanese government to prosecute the civil war. The 
Commission has asked Mr. Berger to investigate reports that the 
Commission received from credible sources--Anglican and Catholic 
bishops in Sudan--that U.N.-provided humanitarian aid for Sudan, 
including U.S. aid, is being manipulated to force religious conversions 
among the country's displaced and needy religious minorities. I have 
attached a copy of the Commission's August 14, 2000 letter to the 
National Security Advisor to my written statement for inclusion in the 
hearing record.
    With regard to North Korea, the report notes that the U.S. does not 
have diplomatic relations with that country. Nevertheless, the U.S. 
does have a policy with respect to North Korea, and one that has 
undergone significant change in the last year, including the 
announcement of the lifting of certain sanctions against the country. 
We are not taking a position on the wisdom of those actions. However, 
it is apparent from the report that human rights and religious freedom 
have not played a role in the development of policy with respect to one 
of the world's worst religious freedom violators.
    With respect to Iran, again a country with which the U.S. has no 
diplomatic relations and where there have been significant developments 
in U.S. policy during the last year, it is reported that U.S. officials 
have raised religious freedom issues and problems facing religious 
minorities in international forums and in public statements at the 
highest levels. However, the United States can and should make clear to 
Iran that respect for human rights and religious freedom is among the 
necessary elements for improved ties between our two countries.

                               CONCLUSION
    The 2000 Annual Report states a sobering fact: ``Much of the 
world's population lives in countries in which the right to religious 
freedom is restricted or prohibited.'' As the richest and most powerful 
nation on Earth, the United States can do significantly more to 
vindicate this right abroad. As the freest nation on Earth, it must do 
more.
    On behalf of the U.S. Commission on International Religious 
Freedom, thank you again, Mr. Chairman, for the invitation to present 
the Commission's perspective.

[Enclosures.]

U.S. Commission on International Religious Freedom,
                                  800 North Capitol Street,
                                     Washington, DC, July 28, 2000.

The Honorable Madeleine K. Albright
Secretary of State,
U.S. Department of State,
Washington, DC.

Re: Recommendations for Presidential Designation of Severe Violators of 
Religious Freedom

    Dear Madam Secretary:

    In its first year of operations, the U.S. Commission on 
International Religious Freedom has investigated violations of 
religious freedom engaged in or tolerated by governments of a number of 
countries, using information from victims, religious groups and other 
private organizations, the United States government, and others. 
Although it continues to be denied access to embassy cable traffic, the 
Commission has carefully reviewed the Department's Annual Report on 
International Religious Freedom--1999 and its Country Reports on Human 
Rights Practices--1999.
    Based on this information, the Commission concludes that the 
governments of Laos, North Korea, Saudi Arabia, and Turkmenistan have 
engaged in particularly severe violations of religious freedom, and 
therefore recommends that the President designate these four countries 
as ``countries of particular concern'' (``CPCs''), for purposes of 
Section 402(b) of the International Religious Freedom Act of 1998 
(``IRFA'') [22 U.S.C. Sec.  6442(b)].'' \1\
---------------------------------------------------------------------------
    \1\ Commissioner John Bolton voted ``no'' on the vote to include 
Saudi Arabia, and Commissioner Laila Al Marayati abstained.
---------------------------------------------------------------------------
    In Laos, during the last 12 months, increasing numbers of 
Protestants, Baha'is and Catholics have been subjected to detention, 
arrest and harassment, and over 50 persons have been reportedly 
imprisoned for the peaceful practice of their faith.
    In North Korea, notwithstanding the difficulty of obtaining 
reliable information on conditions in the country, it is apparent that 
religious freedom is non-existent. The government has imprisoned 
religious believers and suppresses all organized religious activity 
except that which serves the interests of the state. Not to identify 
this repressive government as a CPC would effectively reward it for 
suffocating free speech, press and travel so thoroughly that 
information on religious persecution is limited.
    In Saudi Arabia, the government brazenly denies religious freedom 
and vigorously enforces its prohibition against all forms of public 
religious expression other than that of Wahabi Muslims. Numerous 
Christians and Shi'a Muslims continue to be detained, imprisoned and 
deported. As the Department's 1999 Annual Report bluntly summarized: 
``Freedom of religion does not exist.''
    In Turkmenistan, where the ruling regime is reminiscent of 
Stalin's, only the official Soviet-era Sunni Muslim Board and the 
Russian Orthodox Church are recognized by the state as legal religious 
communities. Members of unregistered communities--including Baha'is, 
Christians, Hare Krishnas, and Muslims operating independently of the 
Sunni Muslim Board--have been reportedly detained, imprisoned, 
deported, harassed, fined, and have had their services disrupted, 
congregations dispersed, religious literature confiscated, and places 
of worship destroyed.
    The Commission further concludes that all of the seven governments 
or entities named by the President last October as CPCs--Burma, China, 
Iran, Iraq, Serbia, Sudan, and the Taliban in Afghanistan--continue to 
engage in particularly severe violations of religious freedom, and 
therefore should continue to be designated as CPCs.
    The Commission also notes grave violations of religious freedom 
engaged in or tolerated by the governments of India, Pakistan, 
Uzbekistan, and Vietnam. The actions of the governments of these 
countries may not meet the statutory threshold necessary for 
designation as CPCs. Nevertheless, the Commission notes that under 
IRFA, the President must take action (or issue a waiver of the 
requirement to take such action) with regard to all countries the 
government of which engages in or tolerates violations of religious 
freedom (and not only CPCs) [Sec. 401(b)(1), 22 U.S.C. 6441(b)(1)]. 
Because of the seriousness of the violations in these four countries, 
the Commission urges the Department to closely monitor religious 
freedom in these countries during the upcoming year, and to respond 
vigorously to further violations there (including CPC designation later 
in the year, if appropriate).
    In India, the central government appears unable (and possibly 
unwilling) to control growing violence by self-proclaimed Hindu 
nationalists targeting religious minorities, particularly Muslims and 
Christians. Priests and missionaries have been murdered, nuns 
assaulted, churches bombed, and converts intimidated in scores of 
violent incidents over the past year.
    In Pakistan, large numbers of Sunni Muslims, Ahmadis and Christians 
have been harassed, detained, and imprisoned on account of their 
religion under laws that prohibit blasphemy and essentially criminalize 
adherence to the Almadi faith. In April of this year, the military 
government abandoned its expressed intent to soften the blasphemy laws.
    In Uzbekistan, scores of Muslims worshipping independently of the 
state-controlled Muslim organization have been detained on account of 
their religious piety. Several religious leaders--including Muslims, 
Jehovah's Witnesses and Evangelical Christians--have apparently 
disappeared under mysterious circumstances, died from mistreatment in 
custody, or have received long prison terms.
    In Vietnam, the law provides for the extensive regulation of 
religious organizations by the state, and leaders and members of the 
banned Unified Buddhist Church of Vietnam, the ba Hao sect of Buddhism, 
the Cao Dai religion, as well as Protestants and Catholics have been 
detained without charge, imprisoned, heavily fined, harassed, or 
subject to government surveillance.
    The Commission is also deeply concerned about the violence between 
members of different religious communities in Indonesia and Nigeria.
    In Indonesia, current communal violence in the Malukus region has 
reportedly claimed the lives of 4,000 Christians and Muslims since 
January 1999, and there is evidence that the Indonesian government is 
not controlling its armed forces, resulting in murder, forced mass 
resettlement, and torture.
    In Nigeria, disputes surrounding the actual and proposed enactment 
of elements of Islamic law into the criminal codes of many states in 
the northern part of the country have sparked a cycle of violence 
between Muslims and Christians in many parts of the country.
    The Commission recommends that the United States urge the 
Indonesian and Nigerian governments to do all they can to prevent 
further violence and bring the perpetrators of such violence to 
justice.
    Thank you, Madam Secretary, for considering the Commission's 
recommendations.
            Respectfully yours,
                                  Elliott Abrams, Chairman.

Commissioner Michael Young, joined by Commissioner Nina Shea, states:

    ``Because I am convinced that the government of India tolerates 
particularly severe violations of religious freedom, I dissent from the 
Commission majority's decision not to recommend that the President 
designate India a `countly of particular concern' under section 402 of 
the International Religious Freedom Act (22 U.S.C. 6442(b)).
    ``Reliable reports from the media as well as religious and secular 
human rights groups in India portray a marked and lethal increase in 
violence against religious minorities in the past year. Christian 
converts, missionaries and clerics have suffered over forty violent 
assaults in the past year, including murder, rape, and church bombings. 
Officials are slow to investigate and even slower to prosecute when the 
alleged perpetrators are Hindu and the victim is not. This violence is 
fomented, if not commissioned, by strident Hindu nationalist 
organizations from which the Vajpayee Government refuses to distance 
itself; indeed, its complacence has implicitly sent a message that 
federal authorities will do little to stop attacks on non-Hindus or 
interfere with state laws that intimidate Christian evangelism (e.g., 
among Dalits).
    ``IRFA dictates that the President `shall designate each country 
the government of which has engaged in or tolerated [severe violations] 
as a country of particular concern for religious freedom.' 
Unfortunately, this certainly describes India during the past year, and 
thus it should be so designated. Accordingly, I dissent from the 
Commission's failure to request such a designation for India.''

U.S. Commission on International Religious Freedom,
                                  800 North Capitol Street,
                                    Washington, DC, August 14, 2000

Mr. Samuel R. Berger
National Security Advisor,
The White House,
Washington, DC.

    Dear Mr. Berger:

    As you know from your meeting with members of our Commission, the 
situation in Sudan has been a central preoccupation of ours over the 
last year. Recent reports have greatly increased our concern. Last week 
various newspapers reported that the UN had suspended relief flights 
into southern Sudan as a result of bombings conducted by the government 
of Sudan. Last month we received reports from church leaders in Sudan 
alleging that needed food aid is still not reaching the so-called ``no-
go'' regions and that the government has been using food aid to force 
religious conversions. I am writing to (1) express our alarm over these 
reports, (2) learn more about the relevant facts and current U.S. 
policy, and (3) follow up on our May 1, 2000 recommendation that the 
Administration strengthen the Sudan Sanctions Regulations.
    We respectfully request that you respond to this letter before the 
end of August, prior to the return of the Congress. Our sense of 
urgency about Sudan is high. Not only have we received these reports 
regarding the suspension of relief flights, starvation and disease in 
the ``no-go'' regions, and forced conversions, but the government of 
Sudan apparently is continuing to engage in the bombing of civilian 
populations and aid centers and to consolidate its ability to do so 
through the development of the oil fields in southern Sudan. The 
overall situation seems only to be worsening.
    First and foremost, we would like to know your assessment of, and 
the Administration's plans for responding to, the UN suspension of 
relief flights. How soon is the UN likely to resume flights? What are 
the prospects for an increase in human suffering in the meantime? What 
is the Administration doing or planning to do to assure that civilians 
in southern Sudan will receive the humanitarian aid they need?
    We have detailed below our concerns about the ``no-go'' regions, 
forced conversions, and sanctions.
A. Food Aid
            1. Availability in Non-OLS Areas of Sudan
    The government of Sudan has long barred the UN's Operation Lifeline 
Sudan (OLS) from providing humanitarian aid in some areas of the 
country. Over the past several months, representatives of the 
Administration have given assurances that U.S. aid to such areas would 
be increasing. But church leaders on the ground in the Nuba Mountains 
and other ``no-go'' zones report that their people are again dying from 
starvation and disease and that U.S. humanitarian aid is not being 
delivered to them.
    This apparent discrepancy between stated policy and actual practice 
may be explained by the following finding in the State Department's 
Interagency Review of U.S. Civilian Humanitarian & Transition Programs 
(January 2000), Annex 3, p. 4-5:

        4) Lines of authority and accountability within the U.S. for 
        some key humanitarian issues related to Sudan remain unclear. 
        Some examples include:

        a) The reform and revitalization of OLS

        OLS's inability to effectively address issues related to access 
        to vulnerable groups has been cause for concern. Lack of access 
        was identified by USAID as a contributing factor to the 1988 
        [sic] famine. While a U.S. Action Plan called for aggressive 
        efforts at UN/OLS reform, it was unclear to those interviewed 
        for this Case Study how to make this happen. Should the State 
        Department or USAID be in the lead? Is it a UN reform question 
        or a regional, Sudan-specific one? What Agency and what level 
        of staff in that Agency have the authority to engage other 
        donors, the UN and the Sudanese government and rebel movements 
        on this question? \1\
---------------------------------------------------------------------------
    \1\ The start of this passage may be found at <http://
www.gwu.eduknsarchiv/NSAEBB/NSEBB3O/05-04.htm>

    The authors of the Interagency Review in their next sentence 
---------------------------------------------------------------------------
reached the disturbing conclusion that:

          No steps have been taken on this important issue, even as 
        access issues again loom as a cause for concern in southern 
        Sudan.\2\
---------------------------------------------------------------------------
    \2\ Ibid.

    At hearings on the United Nations and Africa before the Senate 
Foreign Relations Committee on July 12, 2000, more than six months 
after the Interagency Review was issued, United Nations Ambassador 
Richard Holbrooke acknowledged that he has ``never worked on Sudan at 
all in the UN context.'' After no less than four Senators raised the 
issue of the United Nations policy allowing the government of Sudan to 
veto the delivery of OLS food aid, he then agreed to communicate this 
concern to the United Nations Secretary General.
    In identifying religion as a major factor in the conflict raging in 
Sudan, the Commission stated in its May 1, 2000 report that the Sudan 
government is committing atrocities at ``genocidal'' levels. A 
principal weapon of the Sudan government has been mass, selective 
starvation. As a result of Khartoum's banning of delivery flights of 
international food aid to designated ``no-go'' areas, hundreds of 
thousands of Sudanese civilians have already died of hunger and related 
illnesses. These deaths could have been averted since U.S. aid was 
available for Sudan. Senator Bill Frist, who has made several fact-
finding visits to Sudan, stated at the Senate hearings on July 12 that 
he ``conclude(s) the United Nations has not even put up a struggle to 
the restrictive terms that have been used to allow these so-called `no-
go' zones.''
    We respectfully ask for an update on the efforts of the United 
States to assure that humanitarian aid reaches the ``no-go'' areas, 
including efforts to resolve the coordination issues highlighted by the 
Interagency Review. We request your personal engagement to assure 
appropriate and timely distribution of U.S. humanitarian aid within 
Sudan, especially to the Nuba Mountains, Blue Nile region and other 
``no go'' areas where thousands of lives are at risk.
            2. Forced Conversions
    The Commission has received reports from credible sources that UN-
provided humanitarian aid for Sudan, including U.S. aid, is being 
manipulated to force religious conversions among the country's 
displaced and needy religious minorities.
    In mid-July, Sudan's Anglican Bishop Peter Munde of Yambio diocese 
in southern Sudan and Catholic Bishop Macram Gassis of El Obeid diocese 
in the Nuba Mountains and northern Bahr al Ghazal reported separately 
to the Commission that, under the influence of the government of Sudan 
some relief groups distribute UN aid with the precondition that those 
receiving the aid convert to Islam. Such coercive practices would 
directly violate fundamental principles of religious freedom.
    Bishop Munde attested in a written statement to the Commission as 
follows:

          One of the tactics of the NIF government is to force 
        conversion by withholding food for those who will not convert 
        to Islam. My wife, nine children, and I were denied food for 
        four days because we are Christians. I have witnessed people 
        dying from hunger in towns where food is plentiful, especially 
        in Juba town in the south of Sudan. In Juba I have seen food 
        brought in, but after offloading, the food disappears. It is 
        sold at a higher price to people other than those for whom it 
        is intended, or it is withheld from those who will not convert 
        to Islam. . . .

    According to the two church leaders a conversion-to-eat policy is 
routinely enforced in the government-controlled camps outside Khartoum 
where two million Christian and animist refugees are wholly dependent 
on international aid. Although we do not know how many people are being 
affected, both bishops reported that such coerced conversions are 
``longstanding practices,'' ``common,'' and ``well-known'' throughout 
government-controlled areas in Sudan. They said they have received many 
reports of such practices from their priests and parishioners who had 
escaped from the camps. ``If you want to eat, you must convert,'' 
reported Bishop Gassis about the relief practices in areas of his 
diocese of El Obeid.
    The bishops identified ``IARA'' (Islamic African Relief Agency) and 
``Dawa Islamiya'' as NGOs that engage in such coercive practices.
    We are deeply disturbed by these reports. We respectfully request 
that you take urgent action to investigate and put a stop to any use of 
U.S. humanitarian aid for coercing religious conversion, whether the 
aid is delivered through the UN or NGOs outside the OLS system, and 
that you inform us by the end of August of the steps you have taken or 
plan to take. For your information, we have also brought these reports 
to the attention of USAID.
B. Strengthening the Sudanese Sanctions Regulations
    In our May 1 Report, the Commission made recommendations to the 
President about the ongoing and severe violations of religious freedom 
in Sudan. We were especially concerned that the accelerating 
development of the oil fields in Sudan is increasing the ability of the 
government of Sudan to wage what has become a genocidal war. We urged 
the President, among other things, to strengthen the economic sanctions 
against Sudan so as to further restrict the ability of companies that 
are helping to develop those oil fields from raising capital on the 
U.S. market. We respectfully request that you provide us with a 
response to that recommendation.
    The Commission's recommendations appear in the Report of the United 
States Commission on International Religious Freedom, May 1, 2000, a 
copy of which is enclosed. The relevant recommendations are 
Recommendations 1.8 and 1.9, which provide as follows:

        1.8  The United States should prohibit any foreign-organized 
        corporation from obtaining capital in the U.S. markets as long 
        as it is engaged in the development of the oil and gas fields 
        in Sudan, including exploration, extraction, piping or 
        refining.

        1.9  In view of the linkage between oil and gas revenues and 
        the human rights violations of the government of Sudan, the 
        United States should mandate that any foreign-organized 
        corporation engaged in the development of the oil and gas 
        fields in Sudan must:

        (a)  in the event it intends to make an IPO in the United 
        States, disclose fully whether or not it intends to use the 
        proceeds of the IPO for development of those oil and gas fields 
        before it may proceed with the IPO; and

        (b)  in the event it is engaged in revenue-generating 
        activities in the United States, submit periodically for public 
        review reports on the nature, extent and duration of its 
        involvement in developing those oil and gas fields and its 
        revenue-generating activities in the United States.
C. Conclusion
    Because of the urgency and severity of the situation in Sudan, we 
ask that you respond to this letter by the end of August. I or our 
Vice-Chairman, Dr. Firuz Kazemzadeh, would be pleased to respond to any 
questions you or your staff may have. Thank you for your time and 
attention.
            Sincerely yours,
                                  Elliott Abrams, Chairman.

    Senator Brownback. Thank you very much, and I appreciate 
your willingness to travel the world to areas of great concern. 
I appreciate your willingness to be critical of, the 
administration and its conclusions.
    Dean Young, I would be curious if I could ask you about a 
particular reference to China. News reports indicate reduced 
religious liberties in China. My own personal experience has 
actually been mixed in that regard. With the Tibetan refugees, 
there is clearly a great deal of persecution. I spent a week in 
the south adopting a daughter in December last year, and there 
seemed to be a great deal of freedom in that region. This 
merely a personal and linited experience.
    You are an expert in this field. I would appreciate your 
views on China's religious freedom and whether that has been 
decreasing within the last couple of years.
    Mr. Young. Thank you, Senator. I appreciate the opportunity 
to be here as well and to talk just a little bit about China.
    As you know, in our report the Commission did identify 
China as a serious problem and recommended that we seek 
substantial improvements in the human rights area, particularly 
relating to religious freedom, and listed four or five areas 
that might reflect that kind of improvement. That has been made 
public in our report and in subsequent press releases.
    I think we, if anything, feel more strongly about that in 
the last few months than when we actually issued the report. As 
our chairman said not so long ago, people told us not to expect 
significant improvements in the near term as we engage with 
China in deeper trade relations. They did not tell us to expect 
a substantial deterioration, and that is in fact what we 
believe we have seen.
    There have been reports in a variety of areas. I refer you 
to a press release that we issued on religious persecution in 
China on September 4 of this year, in which we highlight the 
extensive campaign against Falun Gong and Zhong Gong, and that 
seems to have accelerated, not only in the past few months, but 
even in the past few weeks and past few days. As many as 35,000 
people may have been detained. Upwards of 27 to 30 reports, 
credible reports of beatings that have resulted in death, over 
5,000 people now detained in labor camps, many of those 
receiving sentences that are at least as long as a decade, and 
this is continuing and accelerating.
    The Uigher Muslims, as it was also mentioned in Dr. 
Kazemzadeh's testimony, is another indication of those 
problems. We have seen even in the past few weeks an 
acceleration of harassment of the house churches, as well as 
attempts to further control the Catholic Church by ordaining 
bishops and so forth.
    The police have been particularly active in Tibet, 
including ransacking and expelling monks from some of the 
holiest shrines and so forth.
    So I think it is certainly fair to say that one has seen in 
the past decade a substantial increase in freedom in certain 
kinds of areas in China. I think that is undeniable, I think 
that is laudable, and I think much of our engagement with the 
Chinese has had a positive effect in precisely that regard.
    I think simultaneously, however, there has been substantial 
decline in confidence in the ideology of the Communist party 
and it has resulted in some resurgence of a variety of 
different kinds of religions in China. Those seem to be viewed 
increasingly as a threat to the Chinese and suppressed with a 
vigor and force that, despite China's tremendous interest in 
joining the WTO and engaging in broader trade relations, 
despite that interest it has not deterred the Chinese in the 
slightest from this expanded crackdown, even, as I say, in the 
past few weeks, not to mention past few months and years.
    Senator Brownback. How have the Chinese justified the 
recent crackdown to the Commission? Has the Commission inquired 
directly of the Chinese Government about this?
    Mr. Young. We have sought from the Chinese Government the 
opportunity to actually go to China and have not been granted 
that permission yet. As was mentioned earlier, one of our staff 
members has actually been denied a visa to go to Tibet. We have 
been trying to engage the Chinese Government. We have sought 
appointments with the Ambassador to talk about this at more 
length and in more detail, and we have not had any satisfactory 
official explanations. We have certainly talked to China 
experts as well as to victims of this persecution, but have not 
yet had the kinds of in-depth discussions with Chinese 
officials to try and ascertain their views on this.
    Senator Brownback. So they have just denied any sort of 
discussion and have not engaged in any discussion at all?
    Mr. Young. Yes, I think that is fair to say. I would not 
say they denied it. In typical Chinese fashion, we are awaiting 
a reply.
    Senator Brownback. They have delayed it.
    Mr. Young. Yes, they have delayed it.
    Senator Brownback. Mr. Bolton, thank you for being here 
with us as well today.
    I might just open the floor up for you. Do you have a 
couple of comments you would like to assert about the report, 
or discuss what has occurred recently regarding religious 
freedom?
    Mr. Bolton. Thank you very much, Mr. Chairman. I just add 
two points perhaps, one on China. I think it is significant 
from the point of view of American interests in dealing with 
China that the execution of the Muslim Uighers in Xinjiang 
Province was announced by the PRC as having to do with their 
efforts, at least in the PRC's view, to split Xinjiang away 
from Beijing's rule.
    This concern about ``split-ism,'' as the Chinese Government 
calls it, is something, although not limited to religious 
freedom, is something that gets the attention of people in 
other parts of that region, in Taiwan for example, which is 
also repeatedly criticized by Beijing for split-ist tendencies. 
Now, the particular sin of the people on Taiwan is they keep 
voting and, even worse than voting, they keep voting for 
elected officials who do not agree with what Beijing believes 
to be the correct political status of Taiwan.
    That is not something within the Commission's jurisdiction, 
but I can assure you that people on Taiwan are quite concerned 
about the future of their own population, their own government, 
their own status, many of whom are people of faith themselves--
Christians, Buddhists, Falun Gong, many different confessions. 
They watch with particular care what Beijing is doing in its 
equal opportunity repression of all religious faiths inside 
China.
    So that this question of the treatment of the Uigher 
Muslims is not simply something that we object to as a matter 
of the repression of their religious freedom, but it plays 
directly into the calculations of leaders in other countries in 
that region that have a direct bearing on American national 
security.
    Second, Mr. Chairman, if I could just say a brief word 
about Korea and echo what Firuz Kazemzadeh said in his 
statement, the Commission's full statement, about how 
disappointed we are that North Korea has not been designated as 
a country of particular concern. As I understand the position 
of the State Department in interpreting the Religious Freedom 
Act, their view is that they have to look on a year by year 
basis for a deterioration in the conditions of religious 
liberty within a country and then meet all the criteria that 
Ambassador Seiple referred to before they can designate it as a 
country of particular concern.
    The problem arises where you have a country, like North 
Korea, where the level of religious freedom is already at 
absolute zero, so that if in the course of 365 days there is no 
further deterioration in the condition of religious liberty 
because it's not possible to get any worse, as I understand the 
State Department view, that precludes them from adding North 
Korea to their list.
    Now, we have considered this question within the 
Commission. As on many other things, we have a variety of 
views. But it was our consensus, as expressed in the letter to 
Secretary Albright that Firuz Kazemzadeh referred to that is 
attached to the testimony, that North Korea, precisely because 
its level of oppression of religious freedom is so intense, 
that it should have been--the State Department should have 
designated it as a country of particular concern.
    We looked at the same statutory criteria and we were able 
to come to the conclusion that it fit the description that 
Congress intended when it wrote the Religious Freedom Act. I 
would hope that the State Department would reconsider that 
question, but I would just flag that as something the Congress 
may want to take a look at. I cannot believe when you wrote the 
act you did not intend to catch up countries like North Korea. 
Indeed, precisely because of the change of policy toward North 
Korea, as to which as a Commission obviously we take no 
position--again, we are of different views on that--but 
precisely when there is an opening in discussion with a country 
like North Korea, that is precisely the time for the 
administration to make very clear to the Government of North 
Korea what our views on this subject are.
    Senator Brownback. I certainly agree with that statement. 
If we are going to engage with North Korea at this point in 
time, we should be clear as to what we view as a fundamental 
human rights standards, including religious persecution. North 
Korea has a dismal record in this regard.
    Could I ask you, Dr. Kazemzadeh, how can we help the 
Commission to become more effective? Are you getting sufficient 
information and support from the State Department?
    Dr. Kazemzadeh. It took us some time to be able to read 
cables from U.S. Embassies in various countries of concern. We 
attribute this partly to the usual bureaucratic lack of 
efficiency. But over time cooperation has increased and 
undoubtedly Ambassador Seiple and his staff have played an 
important role in persuading the other elements of the State 
Department to let us see that cable traffic, which is really 
important.
    We have been also receiving information from other Federal 
agencies, the Central Intelligence Agency, and I do not think 
at this point we really have any complaints, and we are happy 
to acknowledge that cooperation. As far as making the 
Commission more effective, well, in the first year the 
Commission labored under a handicap because it took months to 
acquire a place of business, to gather a staff. Our first 
annual report was produced under extremely unfavorable 
conditions. We thought at times that our staff might not even 
survive because of the amount of work that they had to do at 
the last moment.
    Those conditions obviously have now improved. There still 
can be improvements made. We probably will need a little bit 
more help. But on the whole, I think we are in good shape.
    Senator Brownback. Good.
    Dean Young, I limited your statement earlier. Do you have 
other areas that you would like to put forth as a brief 
statement for consideration?
    Mr. Young. No. I think that we have largely covered it in 
our written submission. I would just note that, in addition to 
the countries we have mentioned as those that ought to be 
considered as countries of particular concern, we also have 
listed some others that we think bear watching and particular 
scrutiny, including on that list was certainly India, as well 
as Pakistan, Uzbekistan, and Vietnam. Those are all countries 
about which we have some concern.
    I think that for the most part the State Department's 
report reflects the nature of our concerns. But those are also 
countries that I think bear particular consideration and 
particular watching. India I think is one that has particular 
potential for problems, and that is something that we will be 
certainly watching closely on our side and hope that, in the 
absence of improvements, that we will have a chance to come 
back and talk with you and work together to devise ways in 
which we may effectively and positively influence that.
    Dr. Kazemzadeh. May I add to this?
    Senator Brownback. Yes, please.
    Dr. Kazemzadeh. We are also concerned with Uzbekistan and 
Vietnam. Reports from these countries are distressing and the 
Commission plans to look very carefully at both of these.
    Senator Brownback. Very good.
    If I could just say thanks to all of you. I have met with a 
number of people since my service in the Senate has begun who 
have been persecuted for their religious beliefs in their home 
country. People who live in fear that their loved ones will be 
killed because they have a different religious persuasion. Each 
time I felt a dart in my side to think that millions suffer for 
their faith worldwide.
    I do not know if there is a more noble thing that we could 
be involved in than this task of giving voice, support, effort, 
and recognition to religious liberty.
    We have a long ways to go. I think your report clearly 
illustrates this. But we have started down the right path, and 
each of you have contributed greatly toward this effort.
    So keep up your excellent work. Godspeed to you. You are 
really doing work that impacts millions and millions of people 
across this planet.
    The record will remain open for the requisite number of 
days. The hearing is concluded.
    [Whereupon, at 11:30 a.m., the committee was adjourned.]

                              ----------                              


             Additional Questions Submitted for the Record


  Responses from United States Commission on International Religious 
 Freedom to Additional Questions Submitted for the Record of September 
                                7, 2000

    Question. What, if any, cooperation have you had in gaining access 
to information collected and/or produced by federal agencies? In 
particular, could you speak to cable traffic made available about the 
State Department? How can Congress help?

    Answer. In most cases, federal agencies have been very responsive 
to Commission inquiries for information related to international 
religious freedom. In the case of the State Department's cable traffic, 
in August 2000, the Commission was granted permission to review 
redacted cables. Under this agreement, the Commission submits names of 
countries and mutually agreed upon search criteria which the State 
Department uses to locate relevant cables. State's Freedom of 
Information Office then identifies portions of the cables that they 
believe should be redacted because they deem it irrelevant to the 
CIRF's work, it reveals the ``deliberative process'' of DOS authors, or 
some similar reason. The Office of International Religious Freedom 
reviews the recommended redactions to determine if they agree, and then 
sends the cables to the country desk officer for a final decision. The 
Freedom of Information Office redacts information based on the country 
desk officer's instruction. Commission members and staff with security 
clearances are then allowed to go to the State Department to read the 
redacted cables. Under this agreement, the Commission is subject to 
cost-sharing for redacted cable information.
    Section 203(b) of the International Religious Freedom Act 
(``IRFA'') (as amended by Section 1 of P.L. 106-55), 22 U.S.C. 
Sec. 6432a, gives the Commission power to secure information from any 
Federal department or agency that the Commission considers necessary to 
carry out its statutory mission. Although pleased to have access to 
information in State Department cable traffic, the Commission wishes 
the Congress to clarify under what terms that information should be 
shared. The Commission's reports to Congress might be materially 
improved if it had access to the ``deliberative process'' of embassy 
officers in persecuting countries.

    Question. Does the Commission think the President should have taken 
further actions against China, given its status as a ``country of 
particular concern?''

    Answer. In the case of China, the Commission believes that the 
sanction the Secretary of State identified as meeting the requirements 
of IRFA as a result of China's designation as a ``country of particular 
concern'' (``CPC'') is inadequate and ineffective. The Department 
stated that the Secretary of State ``restricts exports of crime control 
and detection instruments and equipment.'' It is difficult to believe 
that this sanction sends a strong message to Beijing on religious 
freedom. In its letter of October 22, 1999, sent to Congress and 
constituting its report to Congress pursuant to Section 404 of IRFA, 
the Department also stated: ``As a matter of policy, the Department of 
State, in conjunction with other U.S. agencies as appropriate, will 
continue vigorously to pursue all other available means of altering 
Chinese behavior with respect to religious freedom.'' Judging from the 
Department's Annual Report on International Religious Freedom--2000, it 
is not at all apparent that the State Department has vigorously pursued 
``all . . . available means'' of altering Chinese behavior toward 
religious freedom.
    As confirmation of this view, in September 2000, in light of the 
re-designation of China as a CPC, the Secretary decided ``to take no 
further action with respect to [China] since the action taken last year 
for [China] is still in effect.'' In other words, the State Department 
took no further action against China despite a marked deterioration of 
religious freedom and the marked failure of the Department's initial 
response (i.e. the export restriction on crime control equipment). In 
its first Annual Report of May 1, 2000, the Commission set forth a 
number of policy recommendations to the President, the Secretary of 
State, and Congress in order to respond to the systematic, ongoing, and 
egregious violations of religious freedom engaged in by the Chinese 
Government. In its second Annual Report, the Commission will again 
consider appropriate policy responses with respect to religious freedom 
in China.
    Of particular concern to the Commission is the current ability of 
the Chinese government to obtain capital on U.S. markets. In 1998, the 
government sold bonds in large quantity to U.S. investors, without 
having to disclose with specificity how it planned to use the proceeds. 
It stated merely that it planned to use the money ``for general 
governmental purposes, including infrastructure projects.'' Those 
purposes, however, include oppressive regulation of domestic religious 
activity and development of oil resources in Sudan. Recent press 
reports indicate that China plans another large bond offering in the 
near future. The Commission recently informed the President that, in 
its view, he has authority under IRFA to bar U.S. institutional 
investors from purchasing such bonds and asked him whether he agrees 
and plans to exercise that authority. The Commission plans to take the 
President's response into account when it formulates its 
recommendations. Options include not only preventing such sales until 
China makes substantial improvement in respect of religious freedom, 
but also requiring greater disclosure and sufficient assurances to 
guarantee that the proceeds are never used for religious persecution.
    Also of concern is the current ability of Chinese corporations to 
sell their securities to U.S. investors. The proceeds from these sales 
could end up supporting the repressive policies of the government, 
inasmuch as it controls the corporations. But, in addition, the money 
might be used directly or indirectly to support development of the 
oilfields in Sudan, where at least one Chinese corporation is heavily 
involved. One option that the Commission is studying for dealing with 
these risks is more specific disclosure about the use of proceeds in 
SEC registration statements.

    Question. A letter to Mr. Berger, released yesterday [September 6, 
2000] by the Commission, inquires of recent reports of two Muslim 
relief groups in Sudan forcing conversion to Islam for food. Has the 
Administration responded to the Commission's inquiry?

    Answer. The Commission has asked National Security Advisor Berger 
to investigate reports that the Commission received from credible 
sources--Anglican and Catholic bishops in Sudan--that humanitarian aid 
for Sudan provided by the United Nations, including U.S. aid, is being 
manipulated to force religious conversions among the country's 
displaced and needy religious minorities. In response to our inquiry, 
we were told by the USAID that they conducted some preliminary 
investigations in Khartoum--talking to humanitarian groups on the 
ground. USAID has asked for additional information from the Commission, 
such as specific dates on which the alleged practices were said to have 
taken place. They have also briefed the Commission on their food aid 
distribution and verified that one of the non-governmental 
organizations in question is no longer eligible to be a direct 
recipient of USAID funds (as reported by the New York Times). The 
Commission will continue to engage the appropriate federal agencies in 
pursuit of a full investigation of these matters.

    Question. The religious and sectarian violence in Indonesia has led 
to the deaths of thousands of people. What is the Commission's 
assessment of the situation and what actions should the U.S. Government 
take to end the violence?

    Answer. The Commission is gravely concerned about the current 
communal violence in the Malukus region of Indonesia. There are reports 
that at least 3,000 Muslims and Christians have been killed since the 
outbreak of violence in January 1999. The situation worsens as the 
killing continues and supplies of food and medicine reportedly dwindle 
in the region. The Commission is particularly concerned because there 
is evidence to suggest that the Indonesian government is tolerating 
systematic, ongoing, and egregious violations of religious freedom such 
as murder, forced mass resettlement, and torture. There appears to be 
little question but that the targets and victims of such violence are 
selected on the basis of their religion. Moreover, places of worship 
have been primary targets for destruction.
    On July 5, 2000, the Commission wrote to Secretary of State 
Madeleine Albright with recommendations for a stronger U.S. Government 
response to the Muslim-Christian violence wracking Indonesia's Maluku 
Islands. The Commission recommended that the United States Government: 
(1) use all diplomatic means at its disposal to encourage the 
Indonesian government to stop the violence and to investigate and 
prosecute those responsible; (2) provide whatever assistance is 
necessary to help the Indonesian government in these efforts as well as 
to alleviate the humanitarian situation; (3) monitor closely the 
implementation of the state of civil emergency in the Malukus that 
President Wahid declared on June 25, 2000; and (4) if the Indonesian 
government is unable to control the violence, press for the deployment 
of an international peacekeeping force, as was done in East Timor. 
Further investigation has been stymied by the ban on travel to the 
affected areas.

    Question. Explain why you think India should be listed as a 
``country of particular concern?''

    Answer. On July 31, 2000, the Commission wrote to the Secretary of 
State and concluded that ``the governments of Laos, North Korea, Saudi 
Arabia, and Turkmenistan have engaged in particularly severe violations 
of religious freedom, and therefore recommends that the President 
designate these four countries as `countries of particular concern' 
(`CPCs'), for purposes of Section 402(b) of the International Religious 
Freedom Act of 1998 (`IRFA') [22 U.S.C. Sec. 6442(b)].'' In addition, 
the Commission noted grave violations of religious freedom engaged in 
or tolerated by the governments of India, Pakistan, Uzbekistan and 
Vietnam, and urged the State Department to closely monitor religious 
freedom in these countries during the upcoming year, and ``to respond 
vigorously to further violations there (including CPC designation later 
in the year, if appropriate).'' Experts and first-hand witnesses at the 
Commission's public hearing on Capitol Hill on September 18, 2000, 
confirmed a marked deterioration of religious freedom for religious 
minorities in India.
    In the July 31, 2000 letter, Commissioner Michael Young, joined by 
Commissioner Nina Shea, stated: ``Because I am convinced that the 
government of India tolerates particularly severe violations of 
religious freedom, I dissent from the Commission majority's decision 
not to recommend that the President designate India a `country of 
particular concern' under section 402 of the International Religious 
Freedom Act (22 U.S.C. 6442(b)).
    ``Reliable reports from the media as well as religious and secular 
human rights groups in India portray a marked and lethal increase in 
violence against religious minorities in the past year. Christian 
converts, missionaries and clerics have suffered over forty violent 
assaults in the past year, including murder, rape, and church bombings. 
Officials are slow to investigate and even slower to prosecute when the 
alleged perpetrators are Hindu and the victim is not. This violence is 
fomented, if not commissioned, by strident Hindu nationalist 
organizations from which the Vajpayee Government refuses to distance 
itself; indeed, its complacence has implicitly sent a message that 
federal authorities will do little to stop attacks on non-Hindus or 
interfere with state laws that intimidate Christian evangelism (e.g., 
among Dalits).
    ``IRFA dictates that the President `shall designate each country 
the government of which has engaged in or tolerated [severe violations] 
as a country of particular concern for religious freedom.' 
Unfortunately, this certainly describes India during the past year, and 
thus it should be so designated. Accordingly, I dissent from the 
Commission.''

    Question. The United States has valuable relationships with nations 
like Egypt and Saudi Arabia. And yet religious freedom is curtailed in 
those nations to a very real extent. How do we factor in religious 
freedom in determining what our overall relationship is with a 
strategic friend? How do we conduct an alliance relationship with 
nations with such visible blemishes? How should we conduct our 
diplomacy with regard to issues other than religious freedom--and with 
what linkages to the issue of religious freedom?

    Answer. The role that religious freedom should play in the 
formulation and implementation of U.S. policy with respect to any 
foreign country should be based on the particular circumstances of that 
country and its relations to the United States. Strategic allies should 
understand that the U.S. Government, as well as the people of the 
United States, take human rights and religious freedom seriously and 
that these constitute a significant element in relations between the 
U.S. and any foreign country, in particular friendly relations with an 
ally. In this respect, the openness of a foreign government to scrutiny 
of the factual situation and its religious freedom policies is 
especially important. Linkages between religious freedom and other 
policy objectives can be made both in the positive and negative sense 
in that, under appropriate circumstances, benefits can be withheld or 
inducements offered based on improvements in religious freedom. These 
linkages should be seriously considered where improvements in the 
protection of religious freedom are possible based on the leverage 
available through the linkage. Finally, the U.S. should be particularly 
cautious to avoid actions or policies in pursuit of a strategic 
friendship where those actions or policies may tacitly acquiesce in or 
inadvertently contribute to a foreign government's engagement in, or 
toleration of, violations of religious freedom or conditions in society 
that promote religious intolerance and persecution.

    Question. The Commission put out a ``Statement on Religious 
Persecution in China'' this past Monday [September 4, 2000]. What 
dimensions of religious persecution in China should Senators be 
thinking about in contemplating the conduct of a China policy after 
annual debates about MFN/NTR disappear?

    Answer. In the aforementioned statement, the Commission noted the 
deteriorating conditions of religious freedom in China since June 2000, 
including the brutal crackdown against the Falun Gong and Zhong Gong 
spiritual movements, executions of Uighur Muslims, the rising detention 
and harassment of Protestants and Roman Catholics who refuse to join 
the state-controlled religious organizations, and the tightening 
controls on Buddhists in Tibet. The Commission stated that ``the U.S. 
government has a moral obligation to speak out and let the Chinese 
government know that these abuses are unacceptable.''
    In the context of the then-upcoming vote on Permanent Normal Trade 
Relations (PNTR) with Vietnam, the Commission made a number of specific 
recommendations, reiterating its first Annual Report. These 
recommendations included that PNTR should be granted only after China 
makes substantial improvement in respect for religious freedom. As 
measurements for such improvement, China should:

          (a) open a high-level and continuing dialogue with the U.S. 
        on religious freedom-issues;
          (b) ratify the International Convention on Civil and 
        Political Rights, which it has signed;
          (c) permit the U.S. Commission on International Religious 
        Freedom and international human rights organizations unhindered 
        access to religious leaders, including those imprisoned, 
        detained, or under house arrest;
          (d) respond to inquiries regarding persons who are 
        imprisoned, detained, or under house arrest for reasons of 
        religion or belief or whose whereabouts are not known, although 
        they were last seen in the hands of Chinese authorities; and
          (e) release from prison all religious prisoners.

Also, before granting PNTR, the U.S. Congress should:

          (a) announce that it will hold annual hearings on human 
        rights and religious freedom in China; and
          (b) extend an invitation to the Dalai Lama to address a Joint 
        Session of the Congress.

Further, the United States should use its diplomatic influence to 
ensure that China is not selected as a site for the Olympic Games until 
it makes significant improvement in human rights, including religious 
freedom.

    Now that PNTR has been granted, the Commission believes that these 
policy goals and responses are still relevant to U.S. policy toward 
China. Congress should pursue other available opportunities to 
influence the behavior of the Chinese Government, for example through 
holding public hearings, insisting upon effective action by the 
Executive Branch under IRFA, and supporting the work of the new federal 
commission on China and this Commission. It is the Government of China, 
through its laws and policies, that engages in gross violations of 
religious freedom. The Commission further believes that it is incumbent 
on those in Congress who supported PNTR because they believed that 
further engagement with China in trade and in the international 
institutions concerned with trade would improve human rights in China 
to pay close attention to the conditions of human rights and religious 
freedom in China, and to speak out when necessary as part of that 
engagement with the Chinese Government and people.
    Also, beyond trade, another major aspect of our relationship with 
China is the ready access that the Chinese Government and Chinese 
corporations currently have to U.S. capital markets. As discussed 
above, that access raises important policy questions that Congress 
should address. For example, should not the Chinese Government, before 
it can offer sovereign bonds, have to rule out the possibility that it 
will use the proceeds for religious persecution or for enhancing the 
ability of the Sudanese Government to make war against its Christian 
and animist citizens in southern Sudan?

    Question. What do you make of the persistent efforts of the Chinese 
Government to root out spiritual groups--like the Falun Gong, the Zhang 
Gong, and the China Fang-Cheng Church--under the so-called ``Evil Cult 
Law?''

    Answer. Over the past several years, Chinese officials have been 
employing increasingly strict laws and regulations as instruments to 
harass religious groups and maintain control over religious activities. 
Officials responsible for enforcing the strict laws continue to be 
guided by Communist Party policy directives on religion. Furthermore, 
the Chinese legal system does not protect human rights from state 
interference, nor does it provide effective remedies for those who 
claim that their rights have been violated. Thus, this Commission finds 
that even though the Chinese Government modified its means of state 
control by moving to a system of regulation of religion according to 
law, it has not improved the conditions of religious freedom in China--
quite the contrary.
    The anti-cult provision of the Chinese Criminal Code has been used 
against many groups. Action is largely directed at organizations with 
national networks that have raised what authorities perceive to be 
political challenges. Following a peaceful demonstration in Beijing by 
Falun Gong practitioners in June 1999, the Civil Ministry declared 
Falun Gong an illegal organization and charged it with endangering 
social stability and propagating ``superstition.'' Security forces have 
detained thousands of prisoners and continue to do so. On July 22, 
1999, the Department of Public Security prohibited all Falun Gong 
activities.
    Several other qigong groups have been banned including Go Gong, Chi 
Bei Gong and Benevolence Practice. In January of 2000, Zhong Gong, a 
meditation and exercise group claiming 20 million practitioners, was 
added to the list of banned organizations. Also outlawed under anti-
cult provisions of the law is a Buddhist group called Guan Ying School.
    The anti-cult provision of the Criminal Code also has been used 
against Christian groups apparently in a response to a bold move in the 
summer of 1998 by leaders of 12 house church networks. Frustrated by 
policies that render their evangelical and charismatic worship services 
illegal, these leaders issued a communique calling on the leadership of 
the Communist Party to open dialogue with the ``Chinese House Church.'' 
The communique demanded the unconditional release of Christians 
imprisoned for practicing their religion, modification of regulations 
that limit the activities of house churches, an end to government 
harassment of house churches, and clarification of the definition of 
the term ``cult.'' Religious leaders associated with the document have 
been arrested. There is some evidence that the crackdown on Falun Gong 
and Christian Fellowship involved not just local Religious Affairs 
Bureau and Public Security Bureau personnel, but national security 
forces as well, indicating a determination by central authorities to 
deal forcefully with this broad network of churches.

    Question. Should the detention on August 24th (and then the 
expulsion on August 26th) of three Taiwan-born American citizens--Henry 
Chu, Sandy Lin, and Patricia Lan--among 130 detainees of the China 
Fang-Cheng Church be special cause for U.S. concern? When U.S. 
missionaries, Christian missionaries in this case, are the targets of 
persecution, does that increase the imperative for the U.S. Government 
to respond? What should the response be?

    Answer. The International Religious Freedom Act of 1998 states that 
it shall be the policy of the United States to condemn violations of 
religious freedom and to promote the fundamental right to freedom of 
religion. Thus, incidents such as the detention (and subsequent 
expulsion) of three U.S. citizens in August of this year on account of 
their religious activities in China are definitely a cause of concern. 
According to press reports, these three were arrested for participation 
in a house church function of the China Feng-Cheng Church. The concern 
over apparent violations of religious freedom such as this is 
heightened when U.S. citizens are victims of such violations, 
particularly when they are detained or imprisoned. In this way, U.S. 
citizens who are lawfully present in a foreign country as religious 
workers, or those simply engaged in personal religious activities, 
should be treated no differently by the U.S. Government than U.S. 
citizens present in a foreign country for other purposes and engaging 
in other peaceful activities. On occasion, foreign religious workers or 
other visitors may run afoul of domestic laws, policies, or practices, 
the enforcement of which violates the home country's legal norms 
regarding freedom of religion or its international human rights 
commitments. In such cases, the U.S. government should urge (and use 
appropriate pressures to try to ensure) that the home country act in 
accordance with its international obligations.

                                   - 

</pre></body></html>
